No. _____
IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020
___________________________________________
RICHARD L. SEALEY,
Petitioner
-vBENJAMIN FORD, Warden,
Georgia Diagnostic Prison,
Respondent.
___________________________________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
___________________________________________
APPENDIX
Capital Case
___________________________________________
David J. Sheehan
Seanna R. Brown
Baker & Hostetler LLP
45 Rockefeller Plaza, Suite 1400
New York, New York 10111
212-589-4200

*S. Jill Benton
Federal Defender Program, Inc.
101 Marietta Street, Suite 1500
Atlanta, Georgia 30303
404-688-7530
Jill_Benton@fd.org
*Counsel of Record

Counsel for Richard Sealey

Appendix
Order and opinion of the Eleventh Circuit Court of Appeals
Sealey v. Warden, Ga. Diagnostic Prison,
954 F.3d 1338 (11th Cir. 2020)
March 31, 2020 ................................................................................. 1
Unpublished order of the Eleventh Circuit Court of
Appeals denying rehearing and rehearing en banc,
June 9, 2020 ................................................................................... 63
Unpublished judgment and opinion of the United States District
Court for the Northern District of Georgia denying relief,
November 9, 2017 ........................................................................... 65
Unpublished order of the Supreme Court of Georgia summarily
denying a Certificate of Probable Cause to Appeal,
June 17, 2013 ............................................................................... 167
Unpublished order of the Superior Court of Butts County, Georgia,
denying the petition for writ of habeas corpus,
July 30, 2012 ................................................................................ 168
Judgment and opinion of the Supreme Court of Georgia
on direct appeal,
Sealey v. State, 277 Ga. 617, 593 S.E.2d 335 (Ga. 2004),
March 1, 2004 ............................................................................... 240

Case: 18-10565

Date Filed: 03/31/2020

Page: 1 of 62

[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10565
________________________
D.C. Docket No. 1:14-cv-00285-WBH
RICHARD L. SEALEY,
Petitioner - Appellant,
versus
WARDEN, GEORGIA DIAGNOSTIC PRISON,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
(March 31, 2020)
Before JORDAN, JILL PRYOR, and NEWSOM, Circuit Judges.
NEWSOM, Circuit Judge:
In 2002, Richard Sealey was convicted of murdering John and Fannie Mae
Tubner with an axe and sentenced to death. After unsuccessfully pursuing postconviction relief in Georgia state court, Sealey filed a federal petition for a writ of
habeas corpus under 28 U.S.C. § 2254. The district court denied relief.

Pet. App. 1

Case: 18-10565

Date Filed: 03/31/2020

Page: 2 of 62

Sealey was granted a certificate of appealability on four issues: (1) whether
his counsel rendered ineffective assistance by failing to investigate mitigating
evidence at sentencing; (2) whether the trial court denied him due process and a
fair trial by refusing his request for a one-day continuance; (3) whether the jury’s
verdict was unconstitutional or in violation of Georgia’s sentencing scheme; and
(4) whether he was denied his right to self-representation under Faretta v.
California, 422 U.S. 806 (1975).
We hold that the state habeas court’s decision as to Sealey’s ineffectiveassistance-of-trial-counsel claim was neither contrary to nor an unreasonable
application of federal law nor based on an unreasonable determination of the facts.
See 28 U.S.C. § 2254(d). We also conclude that we are barred from considering
Sealey’s other claims because he failed to raise them on direct appeal and cannot
show “cause” and “prejudice” to overcome the default. See Wainwright v. Sykes,
433 U.S. 72, 87 (1977). We therefore affirm the district court’s denial of Sealey’s
petition.
I
A
In the evening of January 23, 2000, Richard Sealey, Wajaka Battiste,
Gregory Fahie, and Deandrea Carter drove to the home of Carter’s grandparents—
John and Fannie Mae Tubner. Sealey v. State, 593 S.E.2d 335, 337 (Ga. 2004).
2

Pet. App. 2

Case: 18-10565

Date Filed: 03/31/2020

Page: 3 of 62

The plan was for Sealey to keep the Tubners occupied while Carter tried to get
money from them. When the four arrived at the Tubners’ home, Sealey, Carter,
and Fahie went inside while Battiste waited for them in his car. Id. Fahie, who
testified against Sealey in exchange for a plea bargain, explained that he, Sealey,
and Carter visited with the Tubners for 20 to 30 minutes. At that point, Fahie went
to use the restroom; while he was doing so, Carter knocked on the door and said
that Sealey was “tripping.” Id. When Fahie exited the bathroom, Mr. Tubner was
bleeding on the living room floor, and Sealey was holding Mrs. Tubner down
while brandishing Mr. Tubner’s handgun. Id. Sealey then dragged Mrs. Tubner,
who was bound with duct tape, to a bedroom upstairs. Id. Fahie testified that
Sealey told him to look for money in the house, but he didn’t find any. Id.
When no money was found, Sealey instructed Carter to heat a fireplace
poker, which he used to torture Mrs. Tubner into telling them where she and her
husband kept their money. Id. Sealey then asked Carter to bring him a hammer so
that he could kill Mr. and Mrs. Tubner, and Carter brought him an axe. Id. Sealey
repeatedly struck Mrs. Tubner’s head with the axe, and “then went downstairs and
did the same to Mr. Tubner, who had crawled a short distance across the living
room.” Id.
According to Battiste, when Sealey, Carter, and Fahie returned to Battiste’s
car, Sealey told Fahie that he “had to do it” because the Tubners had mistreated
3

Pet. App. 3

Case: 18-10565

Date Filed: 03/31/2020

Page: 4 of 62

Carter and her mother and because “they seen our face.” Sealey also told Battiste
not to drive fast and that he had a gun. Sealey and Carter directed Battiste back to
Sealey’s motel. Before getting out of the car, Sealey told Battiste “you have never
seen me” and “I’ll out your lights,” which Battiste took to mean that Sealey would
hurt him.
B
1
Sealey was indicted by a Georgia grand jury on two counts of murder,
fourteen counts of felony murder, two counts of possession of a firearm during the
commission of a crime, and one count of possession of a firearm by a convicted
felon.
John Beall was appointed to defend Sealey, and Beall chose Joseph
Roberto to be his second chair.1 As part of their sentencing-phase investigation,
Beall, Roberto, and Jodi Monogue, a paralegal in Roberto’s office, traveled to the
island of St. Croix in the U.S. Virgin Islands, where Sealey was raised, to gather
information about his background. The team went to Sealey’s childhood home and
the prison where he had spent time as a juvenile, and they also visited and
requested records from the local hospital and police station. They tried to track

1

The state habeas court acknowledged that Beall and Roberto both had experience with capital
cases. It stated that Beall had tried four death penalty cases and that Roberto had been the
second chair on two cases before Sealey’s.
4

Pet. App. 4

Case: 18-10565

Date Filed: 03/31/2020

Page: 5 of 62

down Sealey’s baseball coach and speech therapist, but they were unsuccessful.
When they attempted to obtain Sealey’s school records, the principal initially
refused to provide them, despite having a release from Sealey. After Sealey’s team
pressed the issue, the principal told them that a “hurricane blew [the records] all
away.” Records produced during state habeas proceedings show that while in St.
Croix, the team held strategy meetings to prepare for trial.
The defense team met with Sealey’s half-sister, Pauline Corbitt, and two of
his nephews, Ronald Tutein and Kareem Dennis, during the St. Croix trip.
According to Sealey, “[a]ll three family members” whom the defense team
interviewed in St. Croix “indicated that they were willing to testify on Sealey’s
behalf.” 2 Roberto testified to the contrary: “[W]e had no one to come forward and
say a damn thing about Richard that was good, not one person. Not his mother, not
his sister. There were no friends. There was nobody.”
Beall and Roberto also conducted a preliminary investigation into potentially
mitigating mental-health evidence by having Sealey meet with Dr. Jack Farrar, a
clinical and forensic psychologist. Dr. Farrar testified at the state habeas

2

In an affidavit submitted to the state habeas court, Pauline Corbitt stated that she had told
Sealey’s attorneys that she would come testify at Sealey’s trial but that, when they called her to
come, it was on such short notice that she couldn’t adjust her schedule. She stated that she
“would’ve come to Atlanta to beg for [her] little brother’s life if [she] had been given an
opportunity.” Ronald Tutein also submitted an affidavit stating that he told Sealey’s lawyers that
he would come to testify on Sealey’s behalf. Kareem Dennis’ affidavit states that, although
Sealey’s lawyers may have wanted him to be a character witness, he was never contacted about it
after the interview in St. Croix.
5

Pet. App. 5

Case: 18-10565

Date Filed: 03/31/2020

Page: 6 of 62

proceedings that, after meeting with Sealey, he told Beall that “in [his] opinion
there was something very, very wrong with” Sealey and that he likely “suffered
from some kind of delusional, paranoid kind of disorder, perhaps even a psychoses,
and that certainly a neurological kind of process, an organic brain problem needed
to be evaluated.” In response to Dr. Farrar’s initial evaluation, Beall requested
funds from the trial court for a complete evaluation, stating that “based on what Dr.
Farrar said, Mr. Sealey needs two things: a full battery of psychological
evaluations and . . . if he finds evidence of organic injury he may need a
neurologist.” Despite requesting—and, so far as we can tell, receiving—funding
from the court, the defense team never had Sealey fully evaluated. 3
2
In the months and days leading up to Sealey’s trial, the state trial court held
several hearings to address complaints that Sealey had lodged against his counsel.
The first hearing took place three months before trial, after Sealey sent a letter to
the state trial judge alleging that Beall and Roberto were ineffective—Beall for
failing to move to recuse a member of the district attorney’s office and Roberto for
working only on the sentencing phase. At the hearing, counsel explained that they

3

The state and Sealey disagree about why Dr. Farrar never conducted a full investigation.
Transcripts show that on August 2, 2002—just ten days before trial—Beall told the trial court
that Dr. Farrar had tried, but was unable, to meet with Sealey at the jail because of the jail’s
security policies. Dr. Farrar testified during the state habeas proceedings that he didn’t
remember being contacted by Beall regarding a follow-up examination.
6

Pet. App. 6

Case: 18-10565

Date Filed: 03/31/2020

Page: 7 of 62

were actively working on the recusal issue and that Roberto was focusing on the
sentencing phase while Beall focused on the guilt phase. The court found no
deficiency in Beall and Roberto’s representation and denied Sealey’s motion to
remove them.
Ten days before trial, the state trial court held a hearing to address another
request from Sealey that his counsel be removed. Sealey told the trial judge that
there was a “major conflict” with Beall and Roberto. 4 Sealey was concerned that
Beall had “given up all hope” in his case, citing a letter in which Beall had advised
Sealey to accept the state’s plea deal for life without parole. 5 Sealey said that he
wanted to represent himself and proposed that another lawyer, Mike Mears, act as
standby counsel, although Sealey wasn’t sure that Mears would have adequate time
to prepare. The court explained the dangers of self-representation and scheduled a
Faretta hearing to take place four days later so that Sealey could consider the risks
of proceeding without counsel.

4

In addition to his concerns about a “conflict,” Sealey also stated that Beall and Roberto failed to
complete an investigation that he had requested (looking for a shoe on the roof of a store as
possible evidence). Beall explained that the requested investigation had been completed, but
nothing was found.
5

In this letter, Beall stated that “[t]he primary defense to the case [was] no longer viable”
because the district attorney had turned over to the defense a letter written by Sealey that
implicated him “in a conspiracy to provide perjured testimony at trial.” Beall warned Sealey that
if he went to trial, the likely outcome would be the death penalty.
7

Pet. App. 7

Case: 18-10565

Date Filed: 03/31/2020

Page: 8 of 62

At that hearing—now six days before trial—Sealey reaffirmed that he
wanted to represent himself with standby counsel, but he stated that he hadn’t
obtained new standby counsel and that having Beall or Roberto serve in that
capacity would be a “conflict.” The court decided that Sealey hadn’t established
“any legal grounds” for Beall and Roberto to be removed or for there to be a
continuance to find new counsel. After conferring with Beall and Roberto, Sealey
stated that he would “go ahead and have Mr. Beall and Mr. Roberto represent
[him] as trial counsel,” without waiving his rights as to the “conflict issue.”
C
1
At trial, the state’s case largely consisted of testimony from Sealey’s codefendants and physical evidence. Battiste and Fahie testified against Sealey,
relaying the facts of the murders as described above. The state also introduced Mr.
Tubner’s handgun, jewelry discovered in Sealey’s motel room, and testimony
regarding blood found on the floor and sink in Sealey’s motel bathroom. Sealey,
593 S.E.2d at 337.
As for the defense, Beall described the guilt-phase strategy as rooted in
sowing “residual doubt.” Defense counsel attempted to show inconsistencies in
the testimonies of Battiste and Fahie and argued that Sealey’s co-defendants had a
personal motive in testifying for the state. The defense also pointed to Sherry
8

Pet. App. 8

Case: 18-10565

Date Filed: 03/31/2020

Page: 9 of 62

Tubner—Mr. Tubner’s daughter—as a possible suspect and questioned her about
her knowledge of the murders. Counsel tried to introduce Sherry’s polygraph
results—which indicated that she had lied when she said she didn’t know about or
have any involvement in the murders—but the trial court ruled that the polygraph
was inadmissible.
On Friday, August 23, 2002—for reasons that will become clear, the timing
matters—the jury found Sealey guilty of both murders. After the verdict was read,
the trial court excused the jurors for the weekend and instructed them that the
sentencing phase of the trial would commence on Monday.
2
The sentencing phase began on Monday, August 26, with the state’s
aggravation case, which lasted less than one day. The state attempted to link
Sealey to another crime—the murder of William Kerry—by showing that Sealey
used Kerry’s credit card the day Kerry was murdered. The state also presented
testimony from Rossie Neubaum, who said that Sealey had raped her by
threatening to “blow [her] brains out” unless she engaged in intercourse with him.
Finally, several witnesses described Sealey’s misconduct and violence in prison.
Law enforcement officials and correctional officers testified that, among other
things, Sealey had turned a spork into a shank and hidden razor blades, used a sock
full of dominoes to attack another inmate, and come at officers in an aggressive
9

Pet. App. 9

Case: 18-10565

Date Filed: 03/31/2020

Page: 10 of 62

and threatening manner. Defense counsel cross-examined each of the state’s
aggravation witnesses.
After the state rested its aggravation case on Monday, the defense was unprepared to present its case in mitigation. Ronald Tutein—Sealey’s nephew and
the defense’s sole mitigation witness—wasn’t present to testify. Defense counsel
had arranged for Tutein, who lived in St. Croix, to arrive in time to testify on
Wednesday, August 28. Beall explained to the court that Tutein had a “medical
appointment” because of a recent surgery on his knees, such that he was
“not . . . able to leave last week in order to get here on time.” The defense
requested a continuance until Wednesday to allow for Tutein’s arrival.
The trial court denied the request. It decided that there was “ample
opportunity to have [Tutein] brought forward.” The court found that the issue
wasn’t brought to the court’s attention until late on Monday and, further, that “[t]he
defense was well aware that the exact day [Tutein] was needed might not be able to
be ascertained and they might have to get [him] here a couple of days ahead of
time.” The trial court did, though, grant an overnight continuance. The court
excused the jury and gave the defense until the next day so that Sealey and his
counsel would have time to discuss whether Sealey would testify.
The defense presented its mitigation case on Tuesday, August 27.
According to Beall, the defense team’s goal was “[t]o use residual doubt” and to
10

Pet. App. 10

Case: 18-10565

Date Filed: 03/31/2020

Page: 11 of 62

“humanize” Sealey in mitigation, but when asked about sentencing strategy during
the state habeas proceedings, Roberto answered that “[t]here wasn’t one.” Counsel
entered as exhibits (without any meaningful explanation) pictures of Sealey’s
childhood home and the ballfield that Sealey played on in St. Croix, as well as a
few letters written by Sealey. No witnesses testified on Sealey’s behalf, and
Sealey decided not to take the stand.
In closing argument, the state emphasized Sealey’s past crimes and
wrongdoings, stressing that he would be a danger to others in prison if not
sentenced to death. For its part, the defense attempted to cast doubt on the
testimony of Fahie and Battiste, framing the issue for the jury as “whether or not
Gregory Fahie is believable enough to execute Richard Sealey.” Beall cited
historical examples—Jesus, Socrates, Alfred Dreyfus, Jeffrey Dahmer, the
Scottsboro Boys, and Charles Manson—seemingly in an effort to show the risk of
the death penalty being imposed arbitrarily.
The jury rendered its verdict the same day. The jury recommended a death
sentence after finding beyond a reasonable doubt that the following aggravating
circumstances existed:
[T]he murders were both outrageously or wantonly vile, horrible, or
inhuman in that they involved the torture of the victims, depravity of
mind, and the aggravated battery of the victims, that the murders were
both committed for the purpose of receiving money or any other thing
of monetary value, that the murder of Mr. Tubner was committed
while Sealey was engaged in the capital felonies of armed robbery and
11

Pet. App. 11

Case: 18-10565

Date Filed: 03/31/2020

Page: 12 of 62

aggravated battery, and that the murder of Ms. Tubner was committed
while Sealey was engaged in the capital felonies of armed robbery,
aggravated battery, and kidnapping with bodily injury.
Sealey, 593 S.E.2d at 336–37 (citing Ga. Code Ann. § 17-10-30(b)(2), (4), and
(7)). The trial court imposed a single death sentence for the two murders.
3
Sealey appealed to the Georgia Supreme Court. Sealey, 593 S.E.2d at 337.
Because Sealey was still represented by the same lawyers, no ineffectiveassistance-of-trial counsel claims were raised on direct appeal. Nor did he present
any of the other claims that he raises here—i.e., those concerning the denial of a
continuance during the sentencing phase, the jury’s verdict, or his right to selfrepresentation. The Georgia Supreme Court affirmed Sealey’s convictions and
sentence. Id.
II
A
Sealey filed a petition for a writ of habeas corpus in Georgia state court,
challenging various aspects of the trial proceedings and his counsel’s performance.
As relevant to his claims here, he argued (1) that his trial counsel rendered
ineffective assistance during the sentencing phase, (2) that the trial court erred in
denying his motion for a continuance during the sentencing phase, (3) that the

12

Pet. App. 12

Case: 18-10565

Date Filed: 03/31/2020

Page: 13 of 62

jury’s sentence and verdict violated constitutional and statutory requirements, and
(4) that he was denied the right to represent himself under Faretta.
1
During the state habeas proceedings, Sealey and the state presented evidence
regarding (a) Sealey’s mental health, (b) trial counsel’s failure to present Ronald
Tutein at sentencing, (c) Sealey’s family life, background, and future
dangerousness, and (d) the decision of the jurors in his case to impose the death
penalty.
a
Both Sealey and the state put on mental-health experts who testified about
their impressions of Sealey’s background and their evaluations of him. Sealey
presented Dr. Antonio Puente—an expert in neuropsychology. Based on an
interview with Sealey’s mother, Dr. Puente hypothesized that Sealey might have
been a “blue baby”—that is, born with the umbilical cord wrapped around his neck
such that he would have suffered from hypoxia, i.e., a lack of oxygen—but he
acknowledged that no medical records corroborated that hypothesis. As to
Sealey’s childhood, Dr. Puente testified that Sealey had a “chaotic upbringing” and
that his life was “a series of . . . traumas”—from his problematic birth, to the
separation of his parents, to his move to New York City as a pre-teen.

13

Pet. App. 13

Case: 18-10565

Date Filed: 03/31/2020

Page: 14 of 62

To evaluate Sealey’s mental health, Dr. Puente administered 50 tests, giving
about 15 of those tests twice to guard against “practice effect.” On one of the tests
that Dr. Puente administered twice—the Wechsler Adult Intelligence Scale
(WAIS)—Sealey obtained full-scale IQ scores of 75 and 79, which placed him
between the fifth and eighth percentiles. Dr. Puente concluded that Sealey suffered
from “organic brain syndrome,” which he said meant that “the brain is not working
properly and something is happening to the individual’s behavior or thinking.” 6
He also noted that Sealey’s prison records documented a “head injury” diagnosis,
although he was unsure whether that diagnosis arose from psychological testing or
from Sealey’s self-reporting. Dr. Puente further believed Sealey had “borderline
mental retardation or intellectual functions” and “arrested development,” meaning
his maturity was equivalent to a 14- or 15-year-old’s.
From a review of Sealey’s background, test results, and personal interviews,
Dr. Puente inferred that Sealey was unable to form plans, meaning that Sealey
“could be easily swayed.” In Dr. Puente’s view, Sealey’s time in prison
“contributed to his inability to develop a social compass or understanding on how
the world worked,” and when combined with pre-existing issues—such as “the

6

Dr. Puente explained that “[t]echnically,” under the Diagnostic and Statistical Manual of
Mental Disorders, the diagnosis would be “dementia due to multiple ideologies [sic],” and under
the International Classification of Diseases, “a diagnosis for head injury.” The term “organic
brain syndrome,” he said, was just “an old-fashioned word that captures the concept.”
14

Pet. App. 14

Case: 18-10565

Date Filed: 03/31/2020

Page: 15 of 62

lack of appropriate parenting, maybe the head injury, maybe the perinatal injury,
maybe the cannabis abuse”—Sealey’s lengthy incarceration left him with a “highly
impaired paradigm.”
The state countered Dr. Puente’s testimony by presenting Dr. Glen King, a
forensic psychologist who had also evaluated Sealey. With respect to Sealey’s
background, Dr. King testified that Sealey “described [his father] . . . as very
loving” and his mother as “very strict.” Dr. King stated that Sealey “certainly
indicated that he never felt physically abused by his parents” and didn’t describe
his childhood as chaotic. When investigating possible head injuries, Dr. King
testified that Sealey told him that he couldn’t recall ever being hospitalized or
receiving a blow to the head that left him unconscious. Sealey’s medical records
also didn’t indicate that he had experienced any symptoms from a serious head
injury. On the question whether Sealey suffered from hypoxia, Dr. King testified
that he “saw no evidence from Mr. Sealey that he has any cognitive deficits that
would be explained by something like that.” In other words, Sealey had “no motor
problems” and “no sensory difficulties,” and although “he had some differential
abilities, in terms of his cognitive functioning, . . . it would not be consistent with
what we would expect from hypoxia.”
Dr. King also challenged Dr. Puente’s administration of the WAIS. When
asked about Dr. Puente administering the WAIS test twice, Dr. King stated that
15

Pet. App. 15

Case: 18-10565

Date Filed: 03/31/2020

Page: 16 of 62

“[i]n all my years of practice I’ve not seen it done before”—except, he said, to
measure a patient’s progress after a head injury—and that other tests exist to
specifically test for malingering. From reviewing the WAIS results, Dr. King also
believed that “some of the questions . . . were, frankly, just not scored correctly.”
He stated that Dr. Puente evidently didn’t ask follow-up questions when necessary
that might have allowed Sealey to achieve higher scores and that Dr. Puente
discontinued the testing too early. This indicated to Dr. King “that [Dr. Puente
did] not administer[] the test properly,” and “it call[ed] . . . into question all of the
results that [Dr. Puente had] obtained.” Dr. King observed that Sealey “generated
a verbal comprehension index of 91” on the WAIS even though his math score was
much lower. Dr. King took this as a signal that Sealey had “low average
functioning or average functioning”—not borderline intelligence—because “[t]he
people who have true borderline intellectual functioning generate index and IQ
scores that are all quite consistent and low.” But, all things considered, Dr. King
stated that “the vast majority of [Dr. Puente’s] test results appear to be pretty
consistent, I think, with what I found and indicate normal functioning.” None of
Dr. Puente’s test results suggested to Dr. King that Sealey suffered from organic
brain damage.
So too, Dr. King testified that the results of his own testing undermined Dr.
Puente’s diagnosis that Sealey had borderline intellectual functioning and organic
16

Pet. App. 16

Case: 18-10565

Date Filed: 03/31/2020

Page: 17 of 62

brain syndrome. Because Dr. Puente had already administered the WAIS to Sealey
twice, Dr. King testified that he couldn’t also administer it due to “possible
practice effects.” So, Dr. King administered the Stanford-Binet intelligence test
and the Wide Range Achievement Test IV to evaluate Sealey’s ability in reading,
writing, arithmetic, and comprehension. Dr. King scored Sealey’s full-scale IQ at
82, which would be in the borderline-intelligence range, but he ultimately
determined that Sealey functions in the low-average range (between 85 to 95)
because half of the indices he obtained were in the borderline-intelligence range
and half were in the average range. Dr. King believed that Sealey may suffer from
a learning disability in math because Sealey’s “word reading, sentence
comprehension, and spelling . . . occur at the tenth grade to college level,” while
Sealey’s “math is at the sixth grade level.” Although some test results signaled to
Dr. King that Sealey had a “poor processing speed,” he testified that Sealey didn’t
have problems with “executive functioning” or frontal-lobe cognitive functions.
Overall, Dr. King concluded that Sealey’s results didn’t indicate either borderline
intelligence or that Sealey was functioning at a teenage level.
In sum, Dr. King “found no evidence in any record nor in any testing that
has been done or anything that [he had] done that indicates that [Sealey] is
mentally retarded or functions in the borderline range” and that there was no
“evidence whatsoever for any brain damage.” Dr. King testified that “Mr. Sealey
17

Pet. App. 17

Case: 18-10565

Date Filed: 03/31/2020

Page: 18 of 62

is certainly capable of planning, engaging in goal-directed behavior, listening to
others and following their directions or giving directions to others” and that
“[t]here’s nothing that would indicate that he is . . . a follower all the time and lets
everybody lead him around by the nose.”
b
Some of the testimony and evidence at the state habeas hearing concerned
trial counsel’s failure to present Sealey’s nephew, Ronald Tutein, at sentencing.
Tutein testified that he didn’t have a conflict that would have kept him from
traveling to Georgia for Sealey’s sentencing. Although he had recently had knee
surgery, Tutein said that he was ready and willing to come testify on Sealey’s
behalf:
Q[:] Do you recall ever having a conversation with the attorneys for
Richard Sealey where you told them that you couldn’t come for a
doctor’s appointment or for any other reason?
A [Tutein:] No. I made it clear that whenever they needed me they
can call me, I’ll be ready anytime. I believe I was still on leave for
my knee, so there was no conflict with my job. I could leave as soon
as they let me know.
Q[:] And were you ready, willing and able to come?
A [Tutein:] I was. I was already packed when they called.
…
Q[:] And would you have been willing to plead for his life?

18

Pet. App. 18

Case: 18-10565

Date Filed: 03/31/2020

Page: 19 of 62

A [Tutein:] Yes, definitely. 7
While he couldn’t remember all the details, Roberto testified as follows: “[T]hat
witness who I think was Tutein didn’t make it because maybe we didn’t have our
act together and [get] him the plane ticket early enough or he couldn’t really
commit, and la-dah-dah. It just, he wasn’t there.” Beall testified that the defense
“had planned on having live testimony, and at the very last minute that didn’t
happen.” Sealey also produced notes showing that Roberto’s office called Tutein
on Tuesday, August 27—the day Sealey was sentenced. The notes stated:
“prosecution ended one day early, not enough material to fill entire day, plane
ticket bought, may come but . . . cannot testify as it will be too late.”
As to the substance of Tutein’s habeas testimony, he said that Sealey’s voice
was “loud and always laughing” and that Sealey once gave him advice not to fight
with another person. Tutein related similar information in an affidavit submitted to
the state habeas court. In that affidavit, Tutein also stated that Sealey would take
him and his brother to play ball at the park, that Sealey tried “to discourage [him]
and Kareem [Dennis] from going down the same path that he did,” and that to him,
Sealey “was not a violent or aggressive person.”

7

Tutein also stated in an affidavit that if Sealey’s lawyers said that Tutein couldn’t make it to
testify because he had a follow-up appointment, “that is not true” and that he “would have been
there no matter what.”
19

Pet. App. 19

Case: 18-10565

Date Filed: 03/31/2020

Page: 20 of 62

c
Other witnesses testified about Sealey’s family life, background, and future
dangerousness. Sealey presented James Aiken as an expert on the Virgin Islands
prison system. Aiken testified about the conditions that Sealey had likely faced
while incarcerated as a juvenile in Anna’s Hope and Golden Grove prisons:
“Inmates were in control of other inmates,” such that “[i]f you didn’t fight, if you
didn’t act crazy, if you didn’t inflict more violence on people, that violence will
come to you.” Aiken said that the Virgin Islands prison system was
“dysfunctional” and that inmates “were inflicting physical as well as emotional
violence against other inmates,” including “sexual misconduct.” Because “the
political system turned their backs to this,” he continued, “inmates had to fend for
themselves.” Although he admitted that there were no records of Sealey being
abused in prison, he stated that it wasn’t uncommon for abuse or allegations of
abuse to go unrecorded. Aiken also testified as to Sealey’s future dangerousness,
stating that Sealey “could be adequately managed in a proper security level for the
remainder of his life without causing undue risk of harm to staff and the inmates.”
Sealey presented affidavit testimony from other witnesses, including his
family members, elementary school teacher, baseball coach, and childhood friends.
Many hadn’t seen or spoken to Sealey for several years but recalled some details
about Sealey’s childhood. They testified that Sealey’s mother and father didn’t
20

Pet. App. 20

Case: 18-10565

Date Filed: 03/31/2020

Page: 21 of 62

actively parent him and that he was spoiled, that he struggled in school and had a
stutter, and that he was a good athlete and popular. The affidavits also mentioned
that Sealey had moved to New York with his mother as a pre-teen and had later
returned to the Virgin Islands to live with his father, where he was given a BMW
and left unsupervised. Several affiants recalled Sealey going to prison for a
robbery and shooting that occurred in St. Croix.
d
Finally, Sealey presented the testimony of several jurors from his trial. One
juror, Monique Sheffield, testified in an affidavit that “[e]ven after all this time and
even with the crime being so terrible I am on the fence about my decision for the
death penalty.” She also stated that
some members of the jury, me included, were waiting for the defense
to give us some reason not to give Richard Sealey the death penalty. I
was surprised they didn’t get just one relative, or a friend, or
somebody, to get up and say, this person is somebody I care about,
please don’t kill him. I was waiting for somebody to say that and it
would have made a difference to me.
Sheffield and other jurors also testified, as relevant here, that they would have
considered information about Sealey’s background—such as Sealey’s mental
health and experiences in prison—had it been presented at sentencing.
2
After considering all the testimony and evidence, the state habeas court
denied Sealey’s petition. With respect to Sealey’s ineffective-assistance claim, the
21

Pet. App. 21

Case: 18-10565

Date Filed: 03/31/2020

Page: 22 of 62

court held that Sealey could not show both (1) that trial counsel were deficient in
their investigation and presentation of mitigating evidence and (2) that any errors
would have changed the outcome of Sealey’s trial. On Sealey’s contention that the
verdict and sentence were unconstitutional and in violation of Georgia statutes, the
court denied the claim on the merits and, in the alternative, held that it was
procedurally defaulted because Sealey failed to raise it at trial or on direct appeal.
The court determined that the other claims that Sealey has presented here—that the
trial court erred in denying his motion for a continuance and that he was denied the
right to represent himself under Faretta—were procedurally defaulted.
Sealey filed a certificate of probable cause in the Georgia Supreme Court,
which summarily denied review. The United States Supreme Court then denied
Sealey’s petition for a writ of certiorari. Sealey v. Chatman, 571 U.S. 1134 (2014).
B
Sealey next filed a petition for a writ of habeas corpus in federal court
pursuant to 28 U.S.C. § 2254, which the district court denied. Sealey v. Chatman,
No. 1:14-CV-0285-WBH, 2017 WL 11477455, at *39 (N.D. Ga. Nov. 9, 2017).
Although the district court acknowledged that “at least at first blush,” it “had grave
concerns regarding the paucity of the case that trial counsel presented in
mitigation,” it ultimately denied Sealey’s ineffective-assistance claims on the
merits. Id. at *7. With respect to Sealey’s argument that he was denied due
22

Pet. App. 22

Case: 18-10565

Date Filed: 03/31/2020

Page: 23 of 62

process and a fair trial when the state trial court denied his motion for a
continuance, the district court held that this claim was procedurally defaulted and
that Sealey hadn’t shown cause and prejudice to overcome the default. Id. at *21.
On Sealey’s claims that the verdict was unconstitutionally arbitrary and that his
right to self-representation was violated, the district court dismissed them as
procedurally defaulted and, in the alternative, denied them on the merits. Id. at
*20–23.
Sealey sought a certificate of appealability from the district court, which it
granted on three issues: (1) whether Sealey’s trial counsel rendered ineffective
assistance by failing to investigate and present mitigating evidence at sentencing;
(2) whether the verdict was unconstitutionally arbitrary; and (3) whether Sealey
was denied his right to represent himself under Faretta. Sealey asked this Court to
expand the COA to include several additional claims. We initially denied Sealey’s
request but later granted his motion for reconsideration and expanded the COA to
include his claim challenging the trial court’s denial of the continuance during
sentencing.
III
“We review de novo the denial of a petition for a writ of habeas corpus.”
Morrow v. Warden, 886 F.3d 1138, 1146 (11th Cir. 2018) (quotation omitted). But
the Antiterrorism and Effective Death Penalty Act of 1996 prescribes a deferential
23

Pet. App. 23

Case: 18-10565

Date Filed: 03/31/2020

Page: 24 of 62

framework for evaluating issues previously decided in state court. Raulerson v.
Warden, 928 F.3d 987, 995 (11th Cir. 2019). Under AEDPA, a federal court may
not grant habeas relief on claims that were “adjudicated on the merits in [s]tate
court” unless the state court’s decision (1) “was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States,” or (2) “was based on an unreasonable
determination of the facts in light of the evidence presented in the [s]tate court
proceeding.” 28 U.S.C. § 2254(d). The state court’s factual determinations are
presumed correct, absent clear and convincing evidence to the contrary. Id.
§ 2254(e)(1).
At issue here, primarily, is AEDPA’s unreasonable-application-of-federallaw provision. The key word is “unreasonable,” which is more than simply
incorrect. See Harrington v. Richter, 562 U.S. 86, 101 (2011); Williams v. Taylor,
529 U.S. 362, 410–11 (2000). “[A] state court’s application of federal law is
unreasonable only if no fairminded jurist could agree with the state court’s
determination or conclusion.” Raulerson, 928 F.3d at 995–96 (quotation omitted).
This is “a difficult to meet and highly deferential standard . . . , which demands
that state-court decisions be given the benefit of the doubt.” Id. at 996 (quoting
Cullen v. Pinholster, 563 U.S. 170, 181 (2011)). We review “the last state-court
adjudication on the merits.” Greene v. Fisher, 565 U.S. 34, 40 (2011). Because
24

Pet. App. 24

Case: 18-10565

Date Filed: 03/31/2020

Page: 25 of 62

here the Georgia Supreme Court summarily denied Sealey’s certificate for
probable cause, we review the state trial court’s habeas decision. See Wilson v.
Sellers, 138 S. Ct. 1188, 1192 (2018); see also Raulerson, 928 F.3d at 996 (“[W]e
‘“look through” the unexplained decision’ of the Supreme Court of Georgia to
review the superior court’s decision as if it were the last state-court adjudication on
the merits.” (quoting Wilson, 138 S. Ct. at 1192)).
IV
Sealey’s appeal focuses primarily on whether the state habeas court’s
rejection of his ineffective-assistance claim constituted an unreasonable application
of federal law under § 2254(d). The relevant federal law is the Supreme Court’s
decision in Strickland v. Washington, 466 U.S. 668 (1984). See Premo v. Moore,
562 U.S. 115, 121 (2011) (“The applicable federal law [for AEDPA purposes]
consists of the rules for determining when a criminal defendant has received
inadequate representation as defined in Strickland.”). To prove ineffective
assistance under Strickland, a defendant must show both (1) deficient performance
of counsel and (2) resulting prejudice. 466 U.S. at 687.
When considering the deficiency prong, courts must “indulge a strong
presumption that counsel’s conduct falls within the wide range of reasonable
professional assistance.” Id. at 689. As relevant to “counsel’s duty to
investigate”—a duty at issue in this case—“strategic choices made after less than
25

Pet. App. 25

Case: 18-10565

Date Filed: 03/31/2020

Page: 26 of 62

complete investigation are reasonable precisely to the extent that reasonable
professional judgments support the limitations on investigation.” Id. at 690–91.
While “[c]ounsel representing a capital defendant must conduct an adequate
background investigation,” we have held that “it need not be exhaustive.”
Raulerson, 928 F.3d at 997.
To prove prejudice, “[t]he defendant must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466 U.S. at 694. “A
reasonable probability is a probability sufficient to undermine confidence in the
outcome,” id.; accord Evans v. Sec’y, Dep’t of Corr., 703 F.3d 1316, 1326 (11th
Cir. 2013) (en banc), which is a lesser showing than a preponderance of the
evidence, see Williams, 529 U.S. at 405–06. At the same time, “[i]t is not enough
for the defendant to show that the errors had some conceivable effect on the
outcome of the proceeding” because “[v]irtually every act or omission of counsel
would meet that test.” Strickland, 466 U.S. at 693. In a capital case, the prejudice
inquiry asks “whether there is a reasonable probability that, absent the errors, the
sentencer . . . would have concluded that the balance of aggravating and mitigating
circumstances did not warrant death.” Johnson v. Sec’y, Dep’t of Corr., 643 F.3d
907, 935 (11th Cir. 2011) (alteration in original) (quoting Strickland, 466 U.S. at
695). An ineffective-assistance claim can be decided on either the deficiency or
26

Pet. App. 26

Case: 18-10565

Date Filed: 03/31/2020

Page: 27 of 62

prejudice prong. Strickland, 466 U.S. at 697 (“If it is easier to dispose of an
ineffectiveness claim on the ground of lack of sufficient prejudice, which we
expect will often be so, that course should be followed.”).
While the Strickland standard is itself hard to meet, “[e]stablishing that a
state court’s application of Strickland was unreasonable under § 2254(d) is all the
more difficult.” Richter, 562 U.S. at 105. “The Strickland standard is a general
one, so the range of reasonable applications is substantial.” Id. This means that
“[s]o long as fairminded jurists could disagree about whether the state court’s
denial of the claim was inconsistent with an earlier Supreme Court decision,
federal habeas relief must be denied.” Johnson, 643 F.3d at 910.
Sealey asserts that his trial counsel—Beall and Roberto—rendered
ineffective assistance at sentencing by failing to do four things: (A) discover and
present evidence of brain damage and borderline intellectual functioning; (B)
ensure that the sole mitigation witness, Ronald Tutein, was available to testify; (C)
discover and present evidence of Sealey’s background; and (D) present the results
of Sherry Tubner’s polygraph. Sealey also contends that (E) he was prejudiced by
the cumulative effect of counsel’s errors. We examine each contention in turn.
A
We first address Sealey’s argument that trial counsel failed to discover and
present mitigating mental-health evidence. The state habeas court determined that
27

Pet. App. 27

Case: 18-10565

Date Filed: 03/31/2020

Page: 28 of 62

Sealey’s lawyers’ decision “not to pursue” mental-health evidence “was based
upon a thorough and reasonable investigation” and “was not deficient.” It further
held that the lawyers “were not ineffective for not presenting [Sealey’s] newly
acquired mental health diagnoses” because there was “no reasonable probability
that [Sealey’s] trial would have had a different outcome given [its] unreliability.”
The court also concluded that at least some of Dr. Puente’s test results were
“unreliable” and found that his diagnoses were “the product of errant analysis.”
1
Sealey contends that the state court’s decision is both an unreasonable
determination of the facts and an unreasonable application of Supreme Court
precedent. On the facts, Sealey argues that the record doesn’t support the state
court’s findings that Dr. Puente’s results were “unreliable” or that his analysis was
“errant” because multiple rounds of IQ testing all showed that Sealey was
operating in the borderline range. Although the court took issue with the way that
Dr. Puente administered the testing and his findings, Sealey argues that Dr. Puente
is one of the test’s developers, and that, as a neuropsychologist, he is more
qualified than the state’s expert, a forensic psychologist.
On the law, Sealey argues that, given the clear signs that he had mentalhealth issues, trial counsel’s failure to further investigate and present evidence of
these issues constituted deficient performance. According to Sealey, once Dr.
28

Pet. App. 28

Case: 18-10565

Date Filed: 03/31/2020

Page: 29 of 62

Farrar’s preliminary investigation revealed that there was something “very, very
wrong” with Sealey and that he likely “suffered from some kind of delusional,
paranoid kind of disorder, perhaps even a psychoses, and that certainly a
neurological kind of process, an organic brain problem needed to be evaluated”—
an assessment that caused Beall to request funding for a full mental-health
evaluation—counsel should have followed up. In addition to Dr. Farrar’s initial
opinion, Sealey contends that counsel knew from different members of his family
that he had a complicated birth and behavioral problems, and that “Sealey men”
struggled with mental illness. Sealey also points to Roberto’s testimony during the
state habeas proceedings that “Richard is not right,” “not normal,” and that he
“[d]amn straight” had mental issues. And even if (as the state habeas court
decided) counsel chose not to investigate Sealey’s mental health because they did
not personally think that he suffered from mental illness, Sealey asserts that they
weren’t excused from procuring an evaluation, which they needed to make an
informed decision.
2
On the record before us, we find counsel’s failure to further investigate
Sealey’s mental health deeply troubling. Beall and Roberto were put on notice by
Dr. Farrar that something was “very, very wrong” with Sealey, that Sealey
“suffered from some kind of delusional, paranoid kind of disorder, perhaps even a
29

Pet. App. 29

Case: 18-10565

Date Filed: 03/31/2020

Page: 30 of 62

psychoses,” and “that certainly a neurological kind of process, an organic brain
problem needed to be evaluated.” Counsel also heard from Sealey’s family that
“Sealey men” suffered from mental-health issues, and Roberto himself
acknowledged that Sealey was “not right” and “not normal.” Dr. Farrar’s
comment, in particular, seemed to have made an impression on counsel, as it led
Beall to request funds from the court for further evaluation. Even armed with all
of this information though, counsel simply didn’t follow through. We have
recognized that “[i]n the context of penalty-phase mitigation in capital cases . . . it
is unreasonable not to investigate further when counsel has information available
to him that suggests additional mitigating evidence—such as mental
illness . . . may be available.” Jones v. Sec’y, Fla. Dep’t. of Corr., 834 F.3d 1299,
1312 (11th Cir. 2016). Having said that, we needn’t decide here whether counsel’s
performance was constitutionally deficient because we hold Sealey was not
prejudiced by any deficiency on their part.
In short, Sealey cannot prove that “absent the errors, the
sentencer . . . would have concluded that the balance of aggravating and mitigating
circumstances did not warrant death.” Johnson, 643 F.3d at 935 (alteration in
original) (quotation omitted). Dr. Puente testified that Sealey suffered from
“organic brain syndrome and borderline mental retardation or intellectual
functions,” and that Sealey had a “highly impaired paradigm” and “could be easily
30

Pet. App. 30

Case: 18-10565

Date Filed: 03/31/2020

Page: 31 of 62

swayed.” Had these findings been presented in mitigation, the state surely would
have presented Dr. King (or another expert) to rebut Dr. Puente’s testing and
conclusions. Dr. King testified during the state habeas proceedings that Dr. Puente
did “not administer[] the [WAIS] test properly” and that, in any event, most of Dr.
Puente’s results were “consistent” with his own and “indicate[d] normal
functioning.” The state habeas court seemingly credited Dr. King’s testimony over
Dr. Puente’s when it found that the results of at least some of Dr. Puente’s tests
were “unreliable” and stated that Dr. Puente’s diagnoses were not “supported by
the record and [were] the product of errant analysis.” While Sealey claims that the
state habeas court’s determination of the facts in this regard was unreasonable, he
hasn’t come forward with clear and convincing evidence to rebut the presumption
of correctness we must give to the state court’s findings under § 2254(e)(1). See
Ponticelli v. Sec’y, Fla. Dep’t of Corr., 690 F.3d 1271, 1292 (11th Cir. 2012)
(“Our review of findings of fact by the state court is even more deferential than
under a clearly erroneous standard of review.” (quotation omitted)).
The state court’s decision was reasonable, especially considering that
Sealey’s mental-health evidence—at least some of which was weakened by
testimony from the state’s expert—isn’t nearly as compelling as mitigating
evidence in cases where the Supreme Court has held that habeas relief was
warranted. Take, for example, Porter v. McCollum, where the Court held that a
31

Pet. App. 31

Case: 18-10565

Date Filed: 03/31/2020

Page: 32 of 62

petitioner was prejudiced by his counsel’s failure to present “(1) [his] heroic
military service in two of the most critical—and horrific—battles of the Korean
War, (2) his struggles to regain normality upon his return from war, (3) his
childhood history of physical abuse, and (4) his brain abnormality, difficulty
reading and writing, and limited schooling.” 558 U.S. 30, 41 (2009). When
contrasted with a case like Porter, the new mental-health evidence presented
here—of mild mental impairment—is insufficient to establish prejudice.
While the new mental-health evidence is debatable, the aggravating
evidence presented against Sealey was powerful. The jury found Sealey guilty of a
brutal double murder, committed with an axe. In recommending the death
sentence, the jury found several aggravating circumstances to be present, including
that the murders involved torture of the victims. More specifically, Sealey tortured
Mrs. Tubner with a hot fireplace poker before murdering her, with the intention of
discovering where she and her husband hid their money. During the sentencing
phase, the state also presented evidence linking Sealey to another murder,
testimony from a woman who alleged that Sealey had raped her while putting a
gun to her temple, and several witnesses who described Sealey’s misconduct and
violence in prison. What the Supreme Court said in Strickland applies here as
well: “Given the overwhelming aggravating factors, there is no reasonable
probability that the omitted evidence would have changed the conclusion that the
32

Pet. App. 32

Case: 18-10565

Date Filed: 03/31/2020

Page: 33 of 62

aggravating circumstances outweighed the mitigating circumstances and, hence,
the sentence imposed.” 466 U.S. at 700; see also Jones, 834 F.3d at 1315 (“In the
face of these powerful aggravators and the arguably limited mitigating value of
[the doctor’s] testimony, [the petitioner] has not come close to showing that the
[state court] acted unreasonably in finding no prejudice on account of counsel’s
deficient performance.”).
The state habeas court’s conclusion that Sealey did not suffer prejudice
because of counsel’s failure to present mental-health evidence therefore was not an
unreasonable application of Strickland.
B
We next address Sealey’s argument that his trial counsel were ineffective in
failing to present Ronald Tutein—Sealey’s nephew and the defense’s sole
mitigation witness—at sentencing. The state habeas court rejected this part of
Sealey’s claim on prejudice grounds, without deciding deficiency, holding that
Tutein’s testimony on habeas “was neither compelling nor mitigating for the
crimes . . . [Sealey] had committed and [that] there is no reasonable probability that
this testimony would have changed the outcome of [Sealey’s] trial.” We therefore
give § 2254(d) deference to the state court’s holding on prejudice, which—as we
will explain—likewise leads us to reject Sealey’s claim here.

33

Pet. App. 33

Case: 18-10565

Date Filed: 03/31/2020

Page: 34 of 62

1
Sealey argues that counsel’s failure to present Tutein at sentencing was
“quintessential deficient attorney performance” and that “[r]easonable capital
defense counsel would have made certain that their witness arrived sufficiently in
advance of the proceedings.” As to prejudice, Sealey presented the following
testimony of a juror from his trial: “I was surprised they didn’t get just one relative,
or a friend, or somebody, to get up and say, this person is somebody I care about,
please don’t kill him. I was waiting for somebody to say that and it would have
made a difference to me.” Although the state court dismissed Tutein’s testimony
as “neither compelling nor mitigating for [Sealey’s] crimes,” Sealey contends that
he “need only show a reasonable probability that at least one juror may have been
swayed to exercise mercy,” not that the “unpresented evidence explains or lessens
the brutality of the crime.” Sealey asserts that Tutein would have appeared
credible to the jury—because he is a deputy marshal for the Superior Court of the
Virgin Islands—and that his testimony would have made a difference.
2
Even if counsel’s performance was deficient—an issue that we needn’t
decide—Sealey cannot prove that he was prejudiced at sentencing by counsel’s
failure to present Tutein. While prejudice can be proven if “there is a reasonable
probability that at least one juror would have struck a different balance,” see
34

Pet. App. 34

Case: 18-10565

Date Filed: 03/31/2020

Page: 35 of 62

Wiggins v. Smith, 539 U.S. 510, 537 (2003), the state court reasonably concluded
that no juror would have been swayed by Tutein’s weak testimony. Although
Sealey put forward the affidavit of a juror from his trial suggesting that testimony
from his family would have made a difference, the assessment of prejudice does
“not depend on the idiosyncrasies of the particular decisionmaker.” Strickland,
466 U.S. at 695. Rather, the inquiry under Strickland is an objective one. Id.; see
also Williams v. Allen, 542 F.3d 1326, 1345 (11th Cir. 2008) (“The [Supreme]
Court made clear [in Strickland] that the assessment [of prejudice] should be based
on an objective standard that presumes a reasonable decisionmaker.”).
When assessing prejudice under Strickland, courts “reweigh the evidence in
aggravation against the totality of available mitigating evidence,” Wiggins, 539
U.S. at 534, which appears to be exactly what the state habeas court did here. The
state court acknowledged that most of Tutein’s testimony was about Sealey’s
father, and the only testimony regarding Sealey was that “he was loud and always
laughing and once discouraged [Tutein] from fighting” and that Sealey was a
“good uncle” who was “always nice to [Tutein].” The court also considered
Roberto’s testimony that Tutein “was going to say a few kind words but there
wasn’t a lot of depth to” his testimony because Tutein hadn’t spent a significant
amount of time with Sealey. Against Tutein’s relatively thin testimony, the state
court weighed the “brutal torture and murder of Mr. and Mrs. Tubner,” and had
35

Pet. App. 35

Case: 18-10565

Date Filed: 03/31/2020

Page: 36 of 62

before it the other aggravating evidence presented at sentencing—Sealey’s
implication in another murder, an allegation of rape, and Sealey’s misconduct and
violence in prison. See supra at 9–10, 32–33. Sealey cannot show that “no
fairminded jurist” would have done as the state habeas court did in denying his
claim. See Raulerson, 928 F.3d at 995–96 (quotation omitted); see also Morrow,
886 F.3d at 1152 (holding that the state court “reasonably concluded” that the
petitioner’s “new evidence would not have shifted ‘the balance of aggravating and
mitigating circumstances’” (quoting Strickland, 466 U.S. at 695)).
Accordingly, the state court’s decision that Sealey suffered no prejudice as a
result of his counsel’s failure to present Tutein was not contrary to or an
unreasonable application of clearly established federal law.
C
Sealey next asserts that his counsel were ineffective in failing to discover
and present other evidence pertaining to his background. The state habeas court
detailed the steps that counsel took to investigate Sealey’s childhood—including
their trip to St. Croix—and concluded that counsel weren’t ineffective. The court
wasn’t persuaded by the additional affidavits produced on habeas from persons
who said that they would have testified on Sealey’s behalf. It noted that some
affidavit evidence was contradictory, and some was aggravating. The court further
stated that “none of the affiants state [that Sealey] was abused or mistreated nor do
36

Pet. App. 36

Case: 18-10565

Date Filed: 03/31/2020

Page: 37 of 62

they state [that Sealey’s] needs of food, clothing, shelter or even love were
neglected.”
The state court decided some parts of this challenge on Strickland’s
deficiency prong and others on both the deficiency and prejudice prongs. 8 Under
§ 2254(d), we defer only to determinations actually made by the state court and
otherwise conduct de novo review. See Rompilla v. Beard, 545 U.S. 374, 390
(2005) (reviewing the prejudice prong de novo because the state court didn’t reach
it). We conclude that we needn’t parse the state court’s sub-holdings because,
even under de novo review, Sealey has not shown that he was prejudiced by his
counsel’s failure to discover or present this background evidence.
1
Sealey argues that, although the state habeas court recited the steps that
defense counsel took in investigating his background, it failed to acknowledge his
argument that counsel didn’t follow through by presenting the evidence at
sentencing or by obtaining additional witness testimony. He points out that no
matter how thorough counsel’s investigation was, there’s no disputing that it netted

8

For example, the state habeas court decided both that counsel weren’t deficient in failing to
present the lay witness testimony acquired during the state habeas proceedings and that this
failure didn’t prejudice Sealey. But as to counsel’s gathering of background records, their
investigation of mitigating evidence in St. Croix, and their decision not to interview Sealey’s
mother, the state habeas court made no determination on prejudice, deciding the claims on
deficiency instead.
37

Pet. App. 37

Case: 18-10565

Date Filed: 03/31/2020

Page: 38 of 62

just a few documents and photos, which were simply entered as exhibits and went
unexplained by defense counsel. Sealey asserts that counsel failed to gather and
present evidence about his life that a jury could find mitigating, such as his
difficult childbirth, his stutter, his “chaotic” move from the Virgin Islands to the
Bronx, and his incarceration in difficult prison conditions. Additionally, Sealey
contends that he has family, friends, and former teachers that would have testified
on his behalf had they been located and asked. To show that such evidence and
witnesses would have made a difference, Sealey again cites the testimony of jurors
who said that they were waiting for the defense to provide insight into Sealey’s life
and background.
2
When considering prejudice, the “issue is whether there is a reasonable
probability that, absent the errors, the sentencer . . . would have concluded that the
balance of aggravating and mitigating circumstances did not warrant death.”
Johnson, 643 F.3d at 935 (alteration in original) (quotation omitted). We conclude
that the background evidence presented during the state habeas proceedings
wouldn’t have tilted the aggravating-mitigating balance away from the death
penalty. On the contrary, and as the state habeas court acknowledged, much of the
evidence produced was contradictory and possibly even aggravating.

38

Pet. App. 38

Case: 18-10565

Date Filed: 03/31/2020

Page: 39 of 62

What little mitigating evidence could be gleaned in the affidavits wouldn’t
have altered the outcome at Sealey’s sentencing. It suggests, at most, that Sealey’s
childhood was “chaotic,” that his parents were unstable and emotionally absent,
that Sealey had a learning disability and stutter, that he was moved from St. Croix
to New York as a pre-teen, and that he was incarcerated as a juvenile in an adult
prison. This isn’t nearly as extreme as the troubled childhoods of petitioners in
other cases in which prejudice was found and relief was granted. In Wiggins v.
Smith, for example, the Supreme Court recognized that the mitigating evidence that
went unpresented was “powerful”:
[The petitioner] experienced severe privation and abuse in the first six
years of his life while in the custody of his alcoholic, absentee mother.
He suffered physical torment, sexual molestation, and repeated rape
during his subsequent years in foster care. The time [the petitioner]
spent homeless, along with his diminished mental capacities, further
augment his mitigation case.
539 U.S. at 534–35. The Supreme Court held that if this mitigating evidence had
been presented at the petitioner’s trial, “there [was] a reasonable probability that
[the jury] would have returned with a different sentence.” Id. at 536; see also
Williams, 529 U.S. at 395–96 (describing the petitioner’s childhood as
“nightmarish” because he suffered severe and repeated beatings, was committed to
the custody of social services, spent time in an abusive foster home, and failed to
advance beyond sixth grade).

39

Pet. App. 39

Case: 18-10565

Date Filed: 03/31/2020

Page: 40 of 62

Some of the evidence regarding Sealey’s background and childhood—even
the evidence that could be considered mitigating—is contradictory and therefore of
questionable reliability. For example, the affiants testified (1) that Sealey’s parents
were absent and that his father “ruled the[] house with fear,” but also that his
parents did not give him any boundaries and spoiled him; (2) that Sealey grew up
in a “pretty rough” neighborhood, but also that it was full of “middle class
families”; (3) that Sealey struggled in school and suffered from a stutter, but also
that he was a good athlete, popular, and intimidating; and (4) that Sealey was a
follower, but also that he was big for his age and stood up for other children.
Further—and worse for Sealey’s prejudice argument—much of the evidence
presented in the affidavits could be considered aggravating. For example, the
affidavits state that, in St. Croix, Sealey often committed petty crime, especially
theft and vandalism, that he sold drugs, and that his father paid off the police so
that they would look the other way. An affidavit from Doris Walton—a friend of
Pauline Corbitt, Sealey’s half-sister—explains that Sealey blew through thousands
of dollars given to him by his family (through Walton, as the family’s contact in
Atlanta) and, at one point, came into her office unannounced, placed a bag of
marijuana on her desk (putting her job at risk), and laughed. Most seriously,
several witnesses testified about Sealey’s supposed participation in a robbery and
shooting in the Virgin Islands.
40

Pet. App. 40

Case: 18-10565

Date Filed: 03/31/2020

Page: 41 of 62

In conclusion, there isn’t a reasonable probability that Sealey’s sentence
would have been different if this background evidence was presented. See
Strickland, 466 U.S. at 694 (“A reasonable probability is a probability sufficient to
undermine confidence in the outcome.”). Even under de novo review, we conclude
that Sealey was not prejudiced.
D
Sealey next argues that counsel were ineffective in failing to present the
results of Sherry Tubner’s polygraph test during the sentencing phase. Part of
defense counsel’s “residual doubt” strategy was to suggest that Sherry Tubner—
Mr. Tubner’s daughter—was responsible for the murders. The results of a
polygraph test indicated that Sherry had lied when asked whether she was involved
with the Tubners’ deaths. Defense counsel “tried 16 ways from Sunday” to get the
polygraph admitted during the guilt phase, but it was deemed inadmissible by the
state trial court. Counsel didn’t attempt to admit it during the sentencing phase,
which Sealey challenges as ineffective assistance.
The state habeas court rejected Sealey’s argument for two reasons—one
legal and one factual. 9 As a legal matter, the court held that counsel didn’t perform

9

The state habeas court also seemed to suggest that, in the alternative, this part of Sealey’s claim
was barred because the Georgia Supreme Court rejected it on direct appeal. But on Sealey’s
direct appeal, the Georgia Supreme Court reviewed only the exclusion of the polygraph results
during the guilt phase because, as Sealey argues, “trial counsel did not seek, and therefore the
trial court did not rule upon, their admissibility in the penalty phase.” See Sealey, 593 S.E.2d at
41

Pet. App. 41

Case: 18-10565

Date Filed: 03/31/2020

Page: 42 of 62

deficiently in not attempting to admit the polygraph evidence at sentencing
because, at the time of Sealey’s trial, “polygraph results were inadmissible during
the guilt/innocence phase and there was no precedent that allowed for their
admission during the sentencing phase.” The court cited Baxter v. Kemp—the
prevailing law at the time of Sealey’s trial—in which the Georgia Supreme Court
concluded that counsel weren’t ineffective for “failing to try to introduce
inadmissible polygraph evidence at the sentencing phase.” 391 S.E.2d 754, 756
n.4 (Ga. 1990), overruled by Height v. State, 604 S.E.2d 796, 798 (Ga. 2004).
Although the Georgia Supreme Court held—after Sealey’s trial—that polygraph
results could be admitted at sentencing, see Height, 604 S.E.2d at 798, the state
habeas court reasoned that Sealey’s lawyers weren’t required to predict
developments in the law.
As a factual matter, the court also found that the polygraph was of
questionable reliability because the report of Sealey’s own expert, Walter Maddox,
stated that Sherry might not have actually been lying. Thus, the court held that the
evidence “would have, at the least been unreliable, and at the worst could have

339. Sealey’s claim here, which pertains to admission of the polygraph during the sentencing
phase, is thus properly before us.
42

Pet. App. 42

Case: 18-10565

Date Filed: 03/31/2020

Page: 43 of 62

further inculpated [Sealey] as the person wielding the axe and destroyed any
reasonable doubt that may have existed from the guilt/innocence phase.” 10
1
Sealey challenges the state habeas court’s legal reason for rejecting the
claim, asserting that it was never the case that, under Georgia law, polygraph
results were per se inadmissible during the sentencing phase. Sealey contends that
counsel should have known that the rules of admissibility at sentencing are much
more generous than during the guilt phase. Because defense counsel’s sentencing
strategy was “residual doubt,” Sealey argues that the polygraph results were crucial
to suggest Sherry’s involvement. As to Maddox’s report, Sealey maintains that it
was privileged work product at the time of sentencing and that, accordingly, the
state couldn’t have used it against him.
2
The state habeas court’s determination that Sealey’s counsel weren’t
deficient was not an unreasonable application of Strickland. Legally, it seems to us
that a plausible reading of Baxter at the time of Sealey’s trial was that polygraph
evidence was indeed inadmissible at sentencing. After all, Baxter held that the

10

Because the state court clearly held that Sealey’s counsel didn’t perform deficiently, we give
that holding deference under § 2254(d). The parties dispute whether the state court’s
determination that the polygraph would have been unreliable or possibly inculpatory if admitted
constitutes a holding on prejudice. We needn’t decide that here because, even under de novo
review, Sealey’s prejudice argument fails.
43

Pet. App. 43

Case: 18-10565

Date Filed: 03/31/2020

Page: 44 of 62

lawyers in that case didn’t render ineffective assistance in “failing to try to
introduce inadmissible polygraph evidence at the sentencing phase.” 391 S.E.2d at
756 n.4 (emphasis added). Further, in Height—the case that overruled Baxter—the
Georgia Supreme Court held that “to the extent that Baxter v. Kemp or any other
case intimates that unstipulated polygraph results are per se inadmissible as
mitigation evidence, it is hereby overruled.” Height, 604 S.E.2d at 798 (citation
omitted). That shows that before Height it was, at the very least, reasonable to
interpret Baxter as precluding polygraph results during sentencing.
Even supposing that defense counsel should have surmised that the
polygraph could be admitted at sentencing, that doesn’t mean that they were
deficient in failing to seek its admission. As a factual matter, knowing from the
Maddox report that the polygraph’s reliability was questionable, counsel could
have strategically chosen not to present it for fear that it would be attacked and—as
the state habeas court found—end up being more aggravating than mitigating. As
counsel must have been aware, while there was no evidence tying Sherry Tubner to
the crime scene, there was physical evidence implicating Sealey—including
eyewitness testimony, the victim’s gun and jewelry in Sealey’s motel room, and
the blood found in Sealey’s motel bathroom.
Sealey’s argument also fails because he cannot prove prejudice. Even if
the state didn’t have access to the Maddox report, it could have challenged the
44

Pet. App. 44

Case: 18-10565

Date Filed: 03/31/2020

Page: 45 of 62

reliability of the polygraph results in some other way or pointed to the physical
evidence tying Sealey to the crime. Sealey has not shown that “there is a
reasonable probability that . . . the result of the proceeding would have been
different” had the polygraph results been admitted. Strickland, 466 U.S. at 694.
Thus, the state court’s determination that counsel didn’t perform
deficiently wasn’t an unreasonable application of Strickland. Moreover, Sealey
cannot show, even on de novo review, that he was prejudiced.
E
The final aspect of Sealey’s ineffective-assistance claim is that the state
habeas court didn’t “weigh the cumulative prejudice flowing from each of
counsel’s errors and omissions in the sentencing phase.” Sealey contends that the
evidence that counsel failed to discover and present at sentencing—expert
testimony about his “brain impairment,” witnesses to speak about Sealey’s
background, and the polygraph results—taken together, would have changed the
vote of at least one juror. 11

11

It’s unclear to us whether the state habeas court actually decided this claim. The court did
hold that one of Sealey’s claims—that “all claims combined resulted in an unfair trial and appeal,
in violation of [Sealey’s] constitutional rights”—failed to assert a state or federal constitutional
violation and was non-cognizable because no cumulative-error rule existed in Georgia. Neither
Sealey nor the state seem to address whether this part of the state court’s holding affects our
analysis. In any event, we take Sealey’s argument before us to be different—that, while the state
habeas court performed the aggravating-versus-mitigating balancing as to Sealey’s individual
ineffective-assistance claims, it didn’t consider all the potentially mitigating evidence together.
45

Pet. App. 45

Case: 18-10565

Date Filed: 03/31/2020

Page: 46 of 62

In Williams, the Supreme Court held that the state habeas court’s
“prejudice determination was unreasonable [under Strickland] insofar as it failed to
evaluate the totality of the available mitigation evidence—both that adduced at
trial, and the evidence adduced in the habeas proceeding in reweighing it against
the evidence in aggravation.” 529 U.S. at 397–98. The mitigation evidence that
the petitioner there presented, in total, “might well have influenced the jury’s
appraisal of his moral culpability.” Id. at 398. In sum, the state habeas court in
that case “failed to accord appropriate weight to the body of mitigation evidence
available to trial counsel.” Id.
We conclude that we needn’t decide whether the state court unreasonably
applied Strickland by failing to balance the aggravating evidence against all
available mitigating evidence because Sealey’s argument would still fail under de
novo review. See Reese v. Sec’y, Fla. Dep’t of Corr., 675 F.3d 1277, 1290–91
(11th Cir. 2012) (explaining that “we are entitled to affirm the denial of habeas
relief” by considering a petitioner’s claim under a de novo lens); see also McGahee
v. Ala. Dep’t of Corr., 560 F.3d 1252, 1266 (11th Cir. 2009) (explaining that if “a
state court decision is an unreasonable application of federal law under 28 U.S.C.
§ 2254(d),” we perform “a de novo review of the record”). We cannot say “that
there is a reasonable probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different.” Strickland, 466 U.S. at 694.
46

Pet. App. 46

Case: 18-10565

Date Filed: 03/31/2020

Page: 47 of 62

The murders of Mr. and Mrs. Tubner were extremely brutal. Among other
aggravating circumstances, the jury found beyond a reasonable doubt that both
murders “involved the torture of the victims, depravity of mind, and the aggravated
battery of the victims.” Sealey, 593 S.E.2d at 336; see Ga. Code Ann. § 17-1030(7). Sealey used a fireplace poker to torture Mrs. Tubner and bludgeoned both
victims to death with an axe. The jury also had before it the rest of the state’s
aggravation case—allegations of another murder, an alleged rape, and misconduct
and violence in prison. See supra at 9–10, 32–33. Compared to the aggravated
nature of the case, the totality of mitigating evidence—both the sparse evidence
that counsel presented during sentencing and the weak, contradictory, and
potentially aggravating evidence produced on habeas—cannot lead us to conclude
that “the balance of aggravating and mitigating circumstances did not warrant
death.” Johnson, 643 F.3d at 935 (quoting Strickland, 466 U.S. at 695) (analyzing
the prejudice prong de novo).
* * *
In sum, Sealey has not shown that his trial counsel were constitutionally
ineffective under Strickland during the sentencing phase. We affirm the district
court’s denial of Sealey’s petition as to his ineffective-assistance claim.

47

Pet. App. 47

Case: 18-10565

Date Filed: 03/31/2020

Page: 48 of 62

V
We next consider Sealey’s claims that the state habeas court and district
court held to be procedurally defaulted because Sealey didn’t raise them on direct
appeal: (1) that the trial court’s denial of a continuance at sentencing denied him
due process and a fair trial; (2) that the death sentence was unconstitutionally
arbitrary and in violation of Georgia’s sentencing scheme; and (3) that he was
denied his right to represent himself under Faretta v. California, 422 U.S. 806
(1975). 12 Sealey argues that he can overcome the procedural default of these
claims by showing his appellate counsel were ineffective in failing to raise them on
direct appeal. Before considering Sealey’s ineffective-assistance-of-appellate
counsel arguments, we’ll briefly summarize the exhaustion requirement and the
steps of our procedural-default analysis.
A
For a federal court to review a claim for habeas relief, a petitioner must
“first properly raise the federal constitutional claim in the state courts”—i.e.,
exhaust it. Ward v. Hall, 592 F.3d 1144, 1156 (11th Cir. 2010) (citing 28 U.S.C.
§ 2254(b)). As relevant to Sealey’s case, Georgia’s appeal process requires that a
petitioner seek a certificate of probable cause to appeal to the Georgia Supreme

12

“We review de novo the determination of a district court that a habeas petitioner is
procedurally barred from raising a claim in federal court.” Henry v. Warden, Ga. Diagnostic
Prison, 750 F.3d 1226, 1230 (11th Cir. 2014).
48

Pet. App. 48

Case: 18-10565

Date Filed: 03/31/2020

Page: 49 of 62

Court; claims not raised in an application for a certificate of probable cause are
considered unexhausted on subsequent federal habeas review. Hittson v. GDCP
Warden, 759 F.3d 1210, 1231 & n.22 (11th Cir. 2014); see also Pope v. Rich, 358
F.3d 852, 854 (11th Cir. 2004) (per curiam).
Relatedly, federal courts are barred from reviewing a habeas petitioner’s
claim “if a state court rejected it on a state procedural ground.” Henry v. Warden,
Ga. Diagnostic Prison, 750 F.3d 1226, 1230 (11th Cir. 2014). Such a state-court
ruling precludes federal review of the underlying claim so long as it “rests upon
[an] ‘independent and adequate’ state ground.” 13 Judd v. Haley, 250 F.3d 1308,
1313 (11th Cir. 2001). We can consider a defaulted claim, however, if a petitioner
can show (1) “cause for the default” and (2) “actual prejudice resulting from the
alleged constitutional violation.” Ward, 592 F.3d at 1157 (citing Wainwright, 433
U.S. at 84–85). 14 A petitioner can establish “cause” by “identify[ing] ‘some
objective factor external to the defense’ that impeded his ability to raise the claim

13

We review de novo whether a claim has been procedurally defaulted, as it “is a mixed question
of fact and law.” Harris v. Comm’r, Ala. Dep’t of Corr., 874 F.3d 682, 688 (11th Cir. 2017)
(quotation omitted). Sealey doesn’t seem to dispute that the state habeas court’s ruling—that his
claims were procedurally defaulted—“rests upon ‘adequate and independent’ state grounds.”
Ward, 592 F.3d at 1156 (quotation omitted); see also id. at 1176 (holding that “the state habeas
court’s procedural default ruling [applying Georgia’s procedural default rule barring habeas
review of claims not raised at trial or on direct appeal] rested on an adequate state law ground”).
We therefore proceed to consider Sealey’s argument that he has overcome the default.
14

A petitioner can also overcome a procedural default by showing “a fundamental miscarriage of
justice,” Holladay v. Haley, 209 F.3d 1243, 1254 (11th Cir. 2000), but that exception isn’t at
issue here.
49

Pet. App. 49

Case: 18-10565

Date Filed: 03/31/2020

Page: 50 of 62

in state court.” Henry, 750 F.3d at 1230 (quoting Murray v. Carrier, 477 U.S. 478,
488 (1986)). To establish “actual prejudice,” “a petitioner must demonstrate that
the errors at trial actually and substantially disadvantaged his defense so that he
was denied fundamental fairness.” Ward, 592 F.3d at 1157 (quotation omitted).
A showing of ineffective assistance of appellate counsel in failing to raise a
claim on direct appeal can constitute “cause” so long as the ineffective assistance
“occur[red] during a stage when a petitioner had a constitutional right to counsel,”
Payne v. Allen, 539 F.3d 1297, 1314 (11th Cir. 2008), and the ineffectiveassistance claim itself is “both exhausted and not procedurally defaulted,” Ward,
592 F.3d at 1157 (citing Hill v. Jones, 81 F.3d 1015, 1031 (11th Cir. 1996)). No
one disputes that Sealey had a right to counsel during his state-court trial and direct
appeal. See Payne, 539 F.3d at 1314. We also conclude that Sealey properly
exhausted 15 his ineffective-assistance-of-appellate-counsel claim because the state

15

The state contests whether Sealey exhausted his ineffective-assistance-of-appellate-counsel
claim. To properly exhaust an ineffective-assistance-of-appellate-counsel claim, Sealey must
have “assert[ed] this theory of relief and transparently present[ed] the state courts with the
specific acts or omissions of his lawyers that resulted in prejudice.” Kelley v. Sec’y for Dep’t of
Corr., 377 F.3d 1317, 1344 (11th Cir. 2004). Even though Sealey didn’t develop his ineffectiveassistance-of-appellate-counsel claim as well as he could have, we conclude that the claim is
exhausted because the state habeas court “had an opportunity to address [Sealey’s] claim[] in the
first instance when it rejected the merits of his [ineffective-assistance-of-appellate-counsel]
claim.” Holland v. Florida, 775 F.3d 1294, 1316 (11th Cir. 2014) (quotation omitted); see also
Sandstrom v. Butterworth, 738 F.2d 1200, 1206 (11th Cir. 1984) (“There is no better evidence of
exhaustion than a state court’s actual consideration of the relevant constitutional issue.”).
50

Pet. App. 50

Case: 18-10565

Date Filed: 03/31/2020

Page: 51 of 62

court actually considered and denied it. 16
B
“[T]o determine cause and prejudice, we must ascertain whether [Sealey]
has shown ineffective appellate counsel in not timely raising” the procedurally
defaulted claims, and “to determine whether [Sealey] has shown ineffective
appellate counsel, we must determine whether [he] has shown underlying
meritorious . . . claims.” Id.; see also Brown v. United States, 720 F.3d 1316, 1335
(11th Cir. 2013) (holding that “because there is so little merit to the [defaulted]
claim, [the petitioner] cannot demonstrate that his appellate attorneys were
ineffective by failing to raise it on direct appeal”). As with any ineffectiveassistance claim, the Supreme Court’s decision in Strickland governs. Smith v.
Robbins, 528 U.S. 259, 285 (2000) (stating that Strickland applies to ineffectiveassistance-of-appellate-counsel claims); see also Edwards v. Carpenter, 529 U.S.
446, 451 (2000) (stating that, while “counsel’s ineffectiveness in failing properly to

16

The state habeas court held that Sealey “failed to present any evidence” to support his
ineffective-assistance-of-appellate-counsel claim and that Beall spent a “considerable amount of
time, 207 hours, preparing” for Sealey’s motion for a new trial and direct appeal. Whether the
state court’s decision concerning the ineffective-assistance-of-appellate-counsel claim receives
deference under § 2254(d) within this procedural default analysis is an issue that has divided
courts. Compare Visciotti v. Martel, 862 F.3d 749, 768–69 (9th Cir. 2016) (noting the
disagreement among circuits and deciding to review the ineffective-assistance claim within the
procedural default context de novo), with Richardson v. Lemke, 745 F.3d 258, 273 (7th Cir.
2014) (“In our circuit, when we review a state court’s resolution of an ineffective assistance
claim in the cause-and-prejudice context, we apply the same deferential standard as we would
when reviewing the claim on its own merits.”). We needn’t address the conflict here because
even under de novo review, Sealey’s ineffective-assistance-of-appellate-counsel claim fails.
51

Pet. App. 51

Case: 18-10565

Date Filed: 03/31/2020

Page: 52 of 62

preserve the claim for review in state court will suffice” as cause, “the assistance
must have been so ineffective as to violate the Federal Constitution”). We have
acknowledged that “[a]n attorney is not required under the Constitution or the
Strickland standards to raise every non-frivolous issue on appeal,” and that “there
can be no showing of actual prejudice from an appellate attorney’s failure to raise a
meritless claim.” Brown, 720 F.3d at 1335.
To assess ineffectiveness, therefore, we proceed to the underlying merits
of Sealey’s procedurally defaulted claims. We conclude that these claims are
without merit and thus, Sealey’s counsel weren’t ineffective in failing to raise them
on direct appeal and he suffered no actual prejudice as a result. He therefore
cannot overcome the default.
1
Sealey argues that the trial court’s denial of a one-day continuance denied
him due process and a fair trial. Sealey contends that “[n]o reasonable attorney
would fail to challenge” the denial of the continuance—which he calls “perhaps
the most consequential erroneous ruling by the trial court”—on direct appeal.
On the continuance claim’s underlying merits, Sealey argues that, although
trial courts have discretion to grant or deny continuances, the trial court’s denial of
a modest, one-day continuance deprived him of due process, a fair trial, and the
effective assistance of trial counsel. Sealey relies primarily on two cases: Morris v.
52

Pet. App. 52

Case: 18-10565

Date Filed: 03/31/2020

Page: 53 of 62

Slappy, 461 U.S. 1, 11–12 (1983) (quotation omitted), for the proposition that “an
unreasoning and arbitrary insistence upon expeditiousness in the face of a
justifiable request for delay violates the right to the assistance of counsel”; and
Powell v. Collins, 332 F.3d 376, 396 (6th Cir. 2003), for the proposition that in
order to succeed on this type of claim, a habeas petitioner must show that the trial
court’s error in denying him a continuance deprived him of a fundamentally fair
trial in violation of due process, which resulted in actual prejudice. In Morris, the
Supreme Court rejected a habeas petitioner’s claim that the trial court abused its
discretion and violated the petitioner’s right to counsel by denying a continuance
that he had requested because his appointed counsel was substituted only six days
before trial. 461 U.S. at 3–4. The Supreme Court held that “broad discretion must
be granted trial courts on matters of continuances; only an unreasoning and
arbitrary insistence upon expeditiousness in the face of a justifiable request for
delay violates the right to the assistance of counsel.” Id. at 11–12 (quotation
omitted). And again, the Court ultimately found no Sixth Amendment violation.
Id. at 3.
We conclude that Sealey cannot prove that his appellate counsel were
ineffective in failing to raise the continuance claim because it lacked merit. The
state trial court’s decision to deny the continuance in Sealey’s case cannot be
considered “unreasoning” or “arbitrary” under Morris because the court acted
53

Pet. App. 53

Case: 18-10565

Date Filed: 03/31/2020

Page: 54 of 62

within its discretion to deny the continuance. See Van Poyck v. Fla. Dep’t of
Corr., 290 F.3d 1318, 1326 (11th Cir. 2002) (“The decision of whether to grant a
continuance is reserved to the sound discretion of the trial court.”). The court
engaged in a colloquy with Sealey’s lawyers in an effort to understand why Tutein
wasn’t available and stressed that they should have been prepared for their witness
to testify.
Moreover, Sealey acknowledges that he “must also show that the denial [of
the continuance] resulted in actual prejudice.” Br. of Petitioner at 104–05 (citing
Powell, 332 F.3d at 396); see also Van Poyck, 290 F.3d at 1326 (“[T]o establish
that a denial of a continuance was reversible error, a defendant must show that the
denial caused specific substantial prejudice.” (quotation omitted)). Had the trial
court granted his request for a continuance to allow for Tutein’s arrival, Sealey
cannot show that Tutein’s testimony would have changed the outcome at
sentencing, given the weak nature of the testimony compared to the heinous nature
of the crimes and other aggravating circumstances. See supra at 34–36.
Because Sealey wouldn’t have succeeded on his continuance claim had it
been raised on direct appeal, he cannot prove that his counsel were ineffective in
failing to raise it or that he suffered actual prejudice as a result. See Brown, 720
F.3d at 1335. Especially considering that “[j]udicial scrutiny of counsel’s
performance must be highly deferential,” Strickland, 466 U.S. at 689, Sealey’s
54

Pet. App. 54

Case: 18-10565

Date Filed: 03/31/2020

Page: 55 of 62

counsel could have strategically decided not to raise this claim in order to focus on
others during his direct appeal. Accordingly, Sealey cannot overcome the
procedural default of this claim.
2
As for his next defaulted claim, Sealey argues that the death sentence was
arbitrary and constitutionally insufficient for essentially two reasons: (a) the
aggravating circumstances for the two murders were consolidated, in violation of
Georgia’s sentencing procedures and Gregg v. Georgia, 428 U.S. 153 (1976); and
(b) the state trial court found an aggravating circumstance necessary to impose the
death penalty, in violation of the Sixth Amendment and Ring v. Arizona, 536 U.S.
584 (2002).
The state habeas court determined that Sealey’s claim was procedurally
defaulted because he didn’t raise it in his direct appeal and, alternatively, that it
was without merit. The court reasoned that Georgia’s capital-sentencing scheme
doesn’t require the jury to designate for which murder it is imposing the death
sentence and, in any event, that at least one aggravating circumstance was found
for each murder. Because the state court decided in the alternative to reject the
claim on the merits, we give that decision deference under § 2254(d). See
Raulerson, 928 F.3d at 1001 (holding that “a state court’s alternative holding is an

55

Pet. App. 55

Case: 18-10565

Date Filed: 03/31/2020

Page: 56 of 62

adjudication on the merits” that is reviewed “under the deferential framework set
forth in section 2254(d)(1)”).
As we will explain, because this claim is without merit, Sealey’s counsel’s
failure to raise it cannot constitute ineffective assistance.
a
First, according to Sealey, “the jury failed to determine the aggravating
factors for each count” and instead “improperly consolidated both determinations
and submitted to the trial judge one aggravating factor determination and one
sentence, as opposed to two separate determinations and two sentences, one for
each count.” This, Sealey contends, violates the Supreme Court’s decision in
Gregg because it doesn’t adhere to the capital-sentencing procedures that the
Supreme Court approved in that case—that Georgia juries must “identify at least
one statutory aggravating factor” for each crime before imposing the death penalty.
428 U.S. at 206.
This also shows, Sealey argues, that the verdict is arbitrary because “it did
not adhere to the unanimity requirement under Georgia’s sentencing laws.”
Because the jury returned a single death sentence without specifying as to which
murder it applied, it is possible, Sealey theorizes, that some jurors intended to vote
for a death sentence in conjunction with the murder of Mrs. Tubner and others in
conjunction with the murder of Mr. Tubner, with no unanimity for either offense.
56

Pet. App. 56

Case: 18-10565

Date Filed: 03/31/2020

Page: 57 of 62

The state trial court then “compounded the jury’s error,” Sealey argues, by
imposing a single death sentence based on “Counts I and II of the indictment”—
i.e., the murder charges.
Contrary to Sealey’s assertion, the jury’s findings as to aggravating
circumstances distinguished between the two murders. Sealey acknowledges that
“the trial court charged the jury to deliberate on two sentences for two murder
crimes.” While the sentencing verdict form only asked the jury to mark whether or
not aggravating circumstances existed, and further, which penalty it chose, another
form given to the jury—titled “Findings of Jury as to Alleged Statutory
Aggravating Circumstances”—clearly asked the jury to mark whether it found
each aggravating circumstance, as to each murder, beyond a reasonable doubt.
After the jury rendered its verdict, the judge read aloud the jury’s findings on the
statutory aggravating circumstances, specifying to which murder each applied. 17
The jury therefore clearly weighed the aggravating circumstances for each murder
separately.
Sealey’s death sentence also complied with Georgia’s sentencing scheme.
The state habeas court acknowledged that, in Georgia, the finding of a single
statutory aggravating circumstance renders a defendant eligible for the death
penalty; whether to impose death lies with the jury. Ga. Code Ann. § 17-10-30(c).
17

The court also polled the jurors and confirmed that each chose to impose the death penalty.
57

Pet. App. 57

Case: 18-10565

Date Filed: 03/31/2020

Page: 58 of 62

The jury found ten statutory aggravating factors—five pertained to Sealey’s
murder of Mr. Tubner and five pertained to his murder of Mrs. Tubner. Because
the jury found more than one aggravating factor for each murder, Sealey’s death
sentence doesn’t contravene § 17-10-30 or Gregg.
b
Second, Sealey asserts that the trial court’s decision—“that, when all the
relevant aggravating and mitigating factors are taken together, a death sentence is
the appropriate response to the murder of John Tubner or Fannie Tubner”—was an
unconstitutional factual finding under the Sixth Amendment, which prohibits a
sentencing judge (sitting without a jury) to find an aggravating circumstance
necessary to impose the death penalty. See Ring, 536 U.S. at 609.
In Ring, the Supreme Court invalidated Arizona’s sentencing scheme,
which allowed a “trial judge, sitting alone, [to] determine[] the presence or absence
of the aggravating factors required by Arizona law for imposition of the death
penalty.” Id. at 588. The Court made clear in Ring that capital defendants “are
entitled to a jury determination of any fact on which the legislature conditions an
increase in their maximum punishment.” Id. at 589. Here, Sealey’s sentence
doesn’t run afoul of the Sixth Amendment or Ring. It was the jury—not the state
trial judge—that found the aggravating circumstances necessary to impose the
death penalty. The jurors were given a form on which aggravating circumstances
58

Pet. App. 58

Case: 18-10565

Date Filed: 03/31/2020

Page: 59 of 62

were found beyond a reasonable doubt, as to each murder. The judge read this
form aloud and imposed a death sentence based on the jury’s findings, but it was
the jurors who determined that the aggravating circumstances existed.
Because Sealey’s verdict-based claim would not have succeeded had it
been presented, Sealey cannot show that appellate counsel were ineffective in
failing to raise it or that he suffered actual prejudice as a result. He therefore
cannot overcome the procedural default.
3
In his final procedurally defaulted claim, Sealey argues that he was denied
the right to represent himself at trial under Faretta v. California, 422 U.S. 806
(1975). Sealey contends that the trial court’s repeated admonitions and reluctance
to allow him to proceed without counsel, combined with the court’s “refusal to
appoint stand-by counsel other than Beall and Roberto,” caused an “involuntary”
waiver of his right to self-representation.
In Faretta, the Supreme Court recognized a “right of self-representation”
grounded in the Sixth Amendment right to counsel. Id. at 818. When a defendant
“insists that he wants to conduct his own defense,” a state may not
“constitutionally hale a person into its criminal courts and there force a lawyer
upon him.” Id. at 807. Because a defendant choosing to represent himself
“relinquishes, as a purely factual matter, many of the traditional benefits associated
59

Pet. App. 59

Case: 18-10565

Date Filed: 03/31/2020

Page: 60 of 62

with the right to counsel,” a defendant “must knowingly and intelligently” choose
that course. Id. at 835 (quotation omitted). “Although a defendant need not
himself have the skill and experience of a lawyer in order competently and
intelligently to choose self-representation, he should be made aware of the dangers
and disadvantages of self-representation, so that the record will establish that ‘he
knows what he is doing and his choice is made with eyes open.’” Id. (quoting
Adams v. United States ex rel. McCann, 317 U.S. 269, 279 (1942)).
Sealey’s Faretta claim lacks merit and, accordingly, appellate counsel
weren’t ineffective in failing to raise it on direct appeal. True, Sealey asserted his
right to self-representation when he stated “I want to represent myself,” and
clarified, “with standby counsel.” But Sealey later changed his mind: Following
the district court’s explanation of the risks of self-representation, and after
conferencing with Beall and Roberto, Sealey unambiguously said that “[w]ithout
waiving my rights to a conflict, I’d like to proceed with these two attorneys [i.e.,
Beall and Roberto] as counsel,” and he later clarified that he wanted them to
represent him “as trial counsel,” not standby counsel. The state trial court’s
warnings were proper, considering that Faretta requires that a defendant be “made
aware of the dangers and disadvantages of self-representation.” And while the trial
judge warned Sealey that he would be at a “severe disadvantage” proceeding
without a lawyer and “strongly advise[d]” him not to represent himself, he also
60

Pet. App. 60

Case: 18-10565

Date Filed: 03/31/2020

Page: 61 of 62

acknowledged that “I cannot force lawyers upon you” and “[t]he law says you have
the right to represent yourself.” 18
Sealey cannot prove that his appellate counsel were ineffective in failing to
raise this claim on direct appeal or that he was actually prejudiced and thus, Sealey
cannot overcome the procedural default of this claim.
* * *
In sum, because his procedurally defaulted claims are not meritorious,
Sealey cannot prove that his appellate counsel rendered constitutionally ineffective
assistance in failing to raise them on direct appeal or that he suffered actual
prejudice. He thus cannot overcome the default. Accordingly, we affirm the
district court’s denial of Sealey’s petition as to his procedurally defaulted claims.
VI
We conclude that the district court did not err in denying Sealey’s petition
for a writ of habeas corpus. The state habeas court’s denial of Sealey’s ineffectiveassistance-of-trial-counsel claim was not contrary to or an unreasonable application
of Strickland or based on an unreasonable determination of the facts. As to

18

The trial judge went on to say: “I guess it’s sort of like I have the right to operate on my own
foot if I want to. You can do it. It might not be the smartest thing you’ve ever done in your
life . . . but you have the right to do that. I don’t think you should, but it’s your decision.”
Although the judge might have been forceful in suggesting that Sealey shouldn’t represent
himself, he plainly gave Sealey a choice. The judge’s warnings do not rise to the level of
rendering Sealey’s waiver “involuntary.”
61

Pet. App. 61

Case: 18-10565

Date Filed: 03/31/2020

Page: 62 of 62

Sealey’s procedurally defaulted claims, we conclude that he cannot show cause
and prejudice to justify his failure to raise the claims on direct appeal. We
therefore affirm the district court.
AFFIRMED.

62

Pet. App. 62

Case: 18-10565

Date Filed:
(1 of 2)
06/09/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10565-P
________________________
RICHARD L SEALEY,
Petitioner - Appellant,
versus
WARDEN GDCP,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: JORDAN, JILL PRYOR, and NEWSOM, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

Pet. App. 63

Case: 18-10565

Date Filed:
(2 of 2)
06/09/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

June 09, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-10565-P
Case Style: Richard L Sealey v. Warden GDCP
District Court Docket No: 1:14-cv-00285-WBH
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: David L. Thomas
Phone #: (404) 335-6171
REHG-1 Ltr Order Petition Rehearing

Pet. App. 64

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 1 of 102

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
RICHARD L. SEALEY,
Petitioner,

:
:
:
:
:
:
:

v.
BRUCE CHATMAN,
Respondent.

CIVIL ACTION NO.
1:14-CV-0285-WBH
DEATH PENALTY
HABEAS CORPUS
28 U.S.C. § 2254

ORDER
Petitioner, a prisoner currently under a sentence of death by the State of Georgia,
has pending before this Court his petition for a writ habeas corpus pursuant to 28
U.S.C. § 2254. The parties have completed their final briefs and the matter is now
ready for consideration by this Court.

I. Background and Factual Summary
On August 23, 2002, following a jury trial, Petitioner was convicted of two
counts of murder, fourteen counts of felony murder, two counts of possession of a
firearm during the commission of a crime, and one count of possession of a firearm by
a convicted felon in Clayton County Superior Court. Following the sentencing phase
of Petitioner’s trial, on August 27, 2002, the jury recommended a penalty of death
which the court imposed.

AO 72A
(Rev.8/82)

Pet. App. 65

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 2 of 102

Petitioner’s motion for new trial was denied on May 1, 2003. The Georgia
Supreme Court affirmed Petitioner’s convictions and sentences on March 1, 2004.
Sealey v. State, 593 S.E.2d 335 (2004). Petitioner next filed a state habeas corpus
petition in the Superior Court of Butts County, which court entered an order denying
relief on July 26, 2012. Petitioner’s application for a certificate of probable cause to
appeal from the denial of habeas corpus relief was denied by the Georgia Supreme
Court on June 17, 2013. This action followed.
On direct appeal, the Georgia Supreme Court summarized the facts of
Petitioner’s crimes as follows:
The evidence at the guilt/innocence phase, construed in the light most
favorable to the jury’s verdict, showed the following. [Petitioner]
contacted his friend Gregory Fahie by telephone asking for a ride. Fahie
asked his friend, Wajaka Battiste, to drive to [Petitioner]’s motel and then
to drive Fahie and Fahie’s juvenile girlfriend, Deandrea Carter, to
Carter’s grandparents’ house. Upon arriving at Carter’s grandparents’
house, [Petitioner], Carter, and Fahie went inside, while Battiste waited
in the car listening to music. While he was in a downstairs bathroom,
Fahie first heard a loud noise and then heard Carter knocking on the
bathroom door and stating that [Petitioner] was “tripping.” Fahie exited
the bathroom and observed Mr. Tubner lying in a pool of blood and
[Petitioner] holding Ms. Tubner down and wielding a handgun he had
taken from Mr. Tubner. [Petitioner] dragged Ms. Tubner, who had been
bound with duct tape, to an upstairs bedroom. [Petitioner] instructed
Fahie to search for money, however, when no money was discovered,
[Petitioner] instructed Carter to heat a fireplace poker with which
[Petitioner] tortured Ms. Tubner in an effort to force her to reveal where
she kept her money. [Petitioner] then instructed Carter to find a hammer
so he could kill the victims. Carter returned with an ax. [Petitioner]
struck Ms. Tubner multiple times in the head with the ax and then went
2
AO 72A
(Rev.8/82)

Pet. App. 66

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 3 of 102

downstairs and did the same to Mr. Tubner, who had crawled a short
distance across the living room. Once back in Battiste’s automobile,
[Petitioner] stated that he “had to do it” because the victims had seen their
faces and further stated that the victims deserved to die because they had
mistreated Carter’s mother in the past. [Petitioner] instructed Battiste
never to reveal that he had seen [Petitioner] and then added, “I will out
your lights.”
The evidence presented in the guilt/innocence phase included the
testimony of Fahie and Battiste, Mr. Tubner’s handgun and jewelry that
had been discovered in [Petitioner]’s motel room, and testimony about
the detection of protein residue consistent with blood on the floor and
sink of [Petitioner]’s motel bathroom. Upon our review of the entire
record, we conclude that the evidence presented in the guilt/innocence
phase was sufficient to authorize rational jurors to conclude beyond a
reasonable doubt that [Petitioner] was guilty on all counts.
Sealey v. State, 593 S.E.2d 335, 336-37 (2004).

II. Standard of Review
A. Title 28 U.S.C. § 2254
Pursuant to 28 U.S.C. § 2254, a federal court may issue a writ of habeas corpus
in behalf of a person held in custody pursuant to a judgment of a state court if that
person is held in violation of his rights under federal law. 28 U.S.C. § 2254(a). This
power is limited, however, because a restriction applies to claims that have been
“adjudicated on the merits in State court proceedings.” § 2254(d). Under § 2254(d),
a habeas corpus application “shall not be granted with respect to [such a] claim . . .
unless the adjudication of the claim”:
3
AO 72A
(Rev.8/82)

Pet. App. 67

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 4 of 102

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
This standard is “difficult to meet,” Harrington v. Richter, 562 U.S. 86, 102
(2011), and “highly deferential” demanding “that state-court decisions be given the
benefit of the doubt,” Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (citation and
internal quotation marks omitted), and requiring the petitioner to carry the burden of
proof. Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (citing Visciotti, 537 U.S. at 25.
In Pinholster, the Supreme Court further held,
that review under § 2254(d)(1) is limited to the record that was before the
state court that adjudicated the claim on the merits. Section 2254(d)(1)
refers, in the past tense, to a state-court adjudication that “resulted in” a
decision that was contrary to, or “involved” an unreasonable application
of, established law. This backward-looking language requires an
examination of the state-court decision at the time it was made. It follows
that the record under review is limited to the record in existence at that
same time i.e., the record before the state court.
Id.; see also Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003) (State court decisions are
measured against Supreme Court precedent at “the time the state court [rendered] its
decision.”).
In Williams v. Taylor, 529 U.S. 362 (2000), the Supreme Court analyzed how
federal courts should apply § 2254(d). To determine whether a particular state court
4
AO 72A
(Rev.8/82)

Pet. App. 68

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 5 of 102

decision is “contrary to” then-established law, this Court considers whether that
decision “applies a rule that contradicts [such] law” and how the decision “confronts
[the] set of facts” that were before the state court. Id. at 405, 406 (2000). If the state
court decision “identifies the correct governing legal principle” this Court determines
whether the decision “unreasonably applies that principle to the facts of the prisoner’s
case.” Id., at 413. This reasonableness determination is objective, and a federal court
may not issue a writ of habeas corpus simply because it concludes in its independent
judgment that the state court was incorrect. Id. at 410. In other words, it matters not
that the state court’s application of clearly established federal law was incorrect, so
long as that misapplication was objectively reasonable. Id. (“[A]n unreasonable
application of federal law is different from an incorrect application of federal law.”).
Habeas relief is precluded “so long as fairminded jurists could disagree on the
correctness of the state court’s decision.” Richter, 562 U.S. at 102 (2011) (internal
quotation marks omitted); see Landers v. Warden, Atty. Gen. of Ala., 776 F.3d 1288,
1294 (11th Cir. 2015). In order to obtain habeas corpus relief in federal court, “a state
prisoner must show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.”
Harrington, 562 U.S. at 103.

5
AO 72A
(Rev.8/82)

Pet. App. 69

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 6 of 102

As is mentioned above, after the Butts County Superior Court denied
Petitioner’s habeas corpus petition, the Georgia Supreme Court denied Petitioner’s
application for a certificate of probable cause to appeal the denial of the petition
without a discussion of the merits of Petitioner’s claims. Fairly recently, in Wilson v.
Warden, 834 F.3d 1227 (11th Cir. 2016), the Eleventh Circuit addressed how a state
appellate court’s summary treatment of a claim should be analyzed under § 2254(d):
[T]he Supreme Court of the United States ruled that, “[w]here a state
court’s decision is unaccompanied by an explanation,” a petitioner’s
burden under section 2254(d) is to “show[ ] there was no reasonable basis
for the state court to deny relief.” Richter, 562 U.S. at 98. “[A] habeas
court must determine what arguments or theories supported or, as here,
could have supported, the state court’s decision; and then it must ask
whether it is possible fairminded jurists could disagree that those
arguments or theories are inconsistent with the holding in a prior decision
of [the] Court.” Id. at 102. Under that test, [Petitioner] must establish
that there was no reasonable basis for the Georgia Supreme Court to deny
his certificate of probable cause.
Wilson v. Warden, 834 F.3d 1227, 1235 (11th Cir. 2016)
This Court’s review of Petitioner’s claims is further limited under § 2254(e)(1)
by a presumption of correctness that applies to the factual findings made by state trial
and appellate courts. Petitioner may rebut this presumption only by presenting clear
and convincing evidence to the contrary.
Respondent contends that some of Petitioner’s claims are unexhausted. Section
2254(b)(1) provides:

6
AO 72A
(Rev.8/82)

Pet. App. 70

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 7 of 102

An application for writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted unless it
appears that(A) the applicant has exhausted the remedies available in the courts
of the State; or
(B)

(i) there is an absence of available State corrective process; or

(ii) circumstances exist that render such process ineffective
to protect the rights of the applicant.

B. Impact of Wilson v. Warden, 834 F.3d 1227 (11th Cir. 2016)
Upon the motion of the parties, this action was stayed pending the Eleventh
Circuit’s en banc decision in Wilson v. Warden, Georgia Diagnostic Prison. That case,
which has now been decided, concerned the question of how federal habeas corpus
courts should interpret – under 28 U.S.C. § 2254(d) – the summary denial of a claim
or claims by a state appellate court unaccompanied by an explanation. As mentioned
above, after the Butts County Superior Court denied Petitioner’s state petition for
habeas corpus in a well-reasoned opinion, the Georgia Supreme Court summarily
denied Petitioner’s certificate of probable cause to appeal the denial of habeas corpus
relief. In that case, according to Wilson, Petitioner’s “burden under section 2254(d)
is to ‘show[ ] there was no reasonable basis for the state court to deny relief.’” Wilson,
834 F.3d at 1235 (quoting Richter, 562 U.S. at 98).

7
AO 72A
(Rev.8/82)

Pet. App. 71

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 8 of 102

In other words, this Court must determine what arguments or theories supported
or could have supported, the state court’s decision, and “then it must ask whether it is
possible fairminded jurists could disagree that those arguments or theories are
inconsistent with the holding in a prior decision of the [Supreme] Court.” Richter, 562
U.S. at 102; see also Wilson, 834 F.3d at 1235. The Eleventh Circuit noted that a
federal habeas court may look to the underlying trial court opinion as an example of
a reasonable application of law or determination of fact; however, the federal habeas
court is not limited to assessing the reasoning of the lower court. Wilson, 834 F.3d at
1239. The upshot of Wilson is that it matters in this case only if this Court were to
determine that the Butts County Court’s opinion contained flawed reasoning. In that
case, § 2254(d) requires that the federal court give the last state court to adjudicate the
prisoner’s claim on the merits “the benefit of the doubt,” and presume that it
“follow[ed] the law.” Id. at 1238 (quotations and citations omitted).
However, as is evident from the discussion below, this Court has not found fault
with the Butt County Court’s conclusions. As such, it will rely on that court’s
reasoning in analyzing Petitioner’s claims.

C. Procedurally Defaulted Claims

8
AO 72A
(Rev.8/82)

Pet. App. 72

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 9 of 102

Respondent contends that certain of Petitioner’s claims are procedurally
defaulted. This Court will discuss the procedural default of individual claims in its
discussion of those claims below. The legal standard for determining whether a claim
is procedurally defaulted, and, if so, whether that claim should nonetheless be reviewed
on its merits, is as follows:
The procedural default doctrine dictates that a state court’s rejection of
a petitioner’s constitutional claim on state procedural grounds will
generally preclude any subsequent federal habeas review of that claim.
The doctrine is grounded in concerns of comity and federalism and was
developed as a means of ensuring that federal habeas petitioners first seek
relief in accordance with established state procedures.
Nonetheless, comity does not demand that we give preclusive effect to a
state court decision disposing of a claim on state grounds unless: (1) the
state court has plainly stated that it is basing its decision on the state rule;
(2) the state rule is adequate, i.e., not applied in an arbitrary manner; and
(3) the state rule is independent, i.e., the federal constitutional question
is not intertwined with the state law ruling. We presume that there is no
independent and adequate state ground for a state court decision when the
decision fairly appears to rest primarily on federal law, or to be
interwoven with federal law, and when the adequacy and independence
of any possible state law ground is not clear from the face of the opinion.
Frazier v. Bouchard, 661 F.3d 519, 524-25 (11th Cir. 2011) (citations and quotations
and footnote omitted).
If a claim is procedurally defaulted, Petitioner can obtain review of that claim
by establishing both cause excusing the default and actual prejudice resulting from the
procedural bar or, in extraordinary cases, demonstrate that a review of the claim is

9
AO 72A
(Rev.8/82)

Pet. App. 73

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 10 of 102

necessary to correct a fundamental miscarriage of justice. Hill v. Jones, 81 F.3d 1015,
1022-23 (11th Cir. 1996).
To show cause, the petitioner must demonstrate “some objective factor
external to the defense” that impeded his effort to raise the claim properly
in state court. Murray v. Carrier, 477 U.S. 478, 488 (1986). A showing
that the legal basis for a claim was not “reasonably available to counsel”
could constitute cause. Reed v. Ross, 468 U.S. 1, 16 (1984). We have
also determined that an ineffective-assistance-of-counsel claim, if both
exhausted and not procedurally defaulted, may constitute cause. See Hill
v. Jones, 81 F.3d 1015, 1031 (11th Cir. 1996). As stated by the Supreme
Court, “ineffective assistance adequate to establish cause for the
procedural default of some other constitutional claim is itself an
independent constitutional claim.” Edwards v. Carpenter, 529 U.S. 446,
451 (2000).
Ward v. Hall, 592 F.3d 1144, 1157 (11th Cir. 2010).
If a petitioner fails to demonstrate cause, there is no need to consider the issue
of prejudice. McCleskey v. Zant, 499 U.S. 467, 502 (1991). Where cause is
established, however, the petitioner must also demonstrate actual prejudice. To do so,
the petitioner must demonstrate “that there is a reasonable probability that the result
of the [proceeding] would have been different [absent the alleged errors].” Strickler
v. Green, 527 U.S. 263, 289 (1999).
If a petitioner cannot show both cause and prejudice, a federal court may review
a procedurally defaulted habeas claim on the merits only to remedy a fundamental
miscarriage of justice. Johnson v. Alabama, 256 F.3d 1156, 1171 (11th Cir. 2001).

10
AO 72A
(Rev.8/82)

Pet. App. 74

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 11 of 102

Regarding what is necessary in order for a petitioner to succeed on a claim of
fundamental miscarriage of justice, the Eleventh Circuit has stated as follows:
To excuse a default of a guilt-phase claim under [the fundamental
miscarriage of justice] standard, a petitioner must prove a constitutional
violation [that] has probably resulted in the conviction of one who is
actually innocent . . . . To gain review of a sentencing-phase claim based
on manifest injustice, a petitioner must show that but for constitutional
error at his sentencing hearing, no reasonable juror could have found him
eligible for the death penalty under [state] law.
Hill, 81 F.3d at 1023 (citations omitted). “‘This exception is exceedingly narrow in
scope,’ however, and requires proof of actual innocence, not just legal innocence.”
Ward, 592 F.3d at 1157 (quoting Johnson v. Alabama, 256 F.3d 1156, 1171 (11th Cir.
2001)).

D. Unexhausted Claims
Respondent further asserts that some of Petitioner’s claims are unexhausted.
Pursuant to 28 U.S.C. § 2254(b)(1)(A), this Court cannot grant habeas corpus relief
unless Petitioner has first exhausted the remedies available in state court. “To satisfy
the exhaustion requirement, the petitioner must have fairly presented the substance of
his federal claim to the state courts.” Picard v. Connor, 404 U.S. 270, 277-78 (1971);
Anderson v. Harless, 459 U.S. 4 (1982). To fully exhaust, “state prisoners must give
the state courts one full opportunity to resolve any constitutional issues by invoking

11
AO 72A
(Rev.8/82)

Pet. App. 75

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 12 of 102

one complete round of the State’s established appellate review process.” O’Sullivan
v. Boerckel, 526 U.S. 838, 845 (1999). “A petitioner cannot satisfy the exhaustion
requirement if . . . he has failed to avail himself of any available procedure by which
he has the right to raise his claim in state court.” Gore v. Crews, 720 F.3d 811, 815
(11th Cir. 2013) (quotation and citation omitted). Generally, if a petitioner fails to
exhaust his state remedies, a district court must dismiss the petition without prejudice
to allow for such exhaustion. See Rose v. Lundy, 455 U.S. 509, 519-20 (1982).
However, where, as here, “it is obvious that the unexhausted claims would be
procedurally barred in state court due to a state-law procedural default, we can forego
the needless ‘judicial ping-pong’ and just treat those claims now barred by state law
as no basis for federal habeas relief.” Snowden v. Singletary, 135 F.3d 732, 736 (11th
Cir. 1998). As such, failure to exhaust is proper grounds for dismissal of the petition.
Keeney v. Tamayo-Reyes, 504 U.S. 1, 10 (1992).

III. Discussion of Petitioner’s Claims for Relief
A. Petitioner’s Claim that his Trial Counsel was Ineffective
1. Legal Standard
Petitioner first asserts that his trial counsel’s representation of him was so
ineffective as to deny him his Sixth Amendment right to an attorney. The standard for

12
AO 72A
(Rev.8/82)

Pet. App. 76

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 13 of 102

evaluating claims of ineffective assistance of counsel is set forth in Strickland v.
Washington, 466 U.S. 668 (1984); see also Smith v. Robbins, 528 U.S. 259, 285
(2000) (applying Strickland standard to claims of ineffective assistance of appellate
counsel).

The analysis is two-pronged, and the court may “dispose of the

ineffectiveness claim on either of its two grounds.” Atkins v. Singletary, 965 F.2d
952, 959 (11th Cir. 1992); see Strickland, 466 U.S. at 697 (“There is no reason for a
court deciding an ineffectiveness claim . . . to address both components of the inquiry
if the [petitioner] makes an insufficient showing on one.”).
Petitioner must first show that “in light of all the circumstances, the identified
acts or omissions were outside the wide range of professionally competent assistance.”
Strickland, 466 U.S. at 690. The court must be “highly deferential,” and must “indulge
in a strong presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance.” Id. at 689. Furthermore, “[s]trategic decisions
will amount to ineffective assistance only if so patently unreasonable that no
competent attorney would have chosen them.” Kelly v. United States, 820 F.2d 1173,
1176 (11th Cir. 1987).
In order to meet the second prong of the test, Petitioner must also demonstrate
that counsel’s unreasonable acts or omissions prejudiced him. Strickland, 466 U.S. at
694. That is, Petitioner “must show that there is a reasonable probability that, but for

13
AO 72A
(Rev.8/82)

Pet. App. 77

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 14 of 102

the counsel’s unprofessional errors, the result of the proceeding would have been
different. A reasonable probability is a probability sufficient to undermine confidence
in the outcome.” Id. “That requires a substantial, not just conceivable, likelihood of
a different result.” Cullen v. Pinholster, 563 U.S. 170, 190 (2011) (quotation and
citation omitted).

2. No Ineffectiveness in Guilt/Innocence Phase
As an introductory matter with respect to Petitioner’s ineffective assistance
claims, this Court notes that, having reviewed the evidence presented at Petitioner’s
trial and the record of the subsequent challenges to his convictions, this Court finds
that it is clear that Petitioner killed John Tubner and Fannie Mae Tubner. It is further
clear from the evidence presented at the trial that Petitioner was aware of what he had
done and that he attempted, however ineffectively, to hide his guilt or implicate others.
Put simply, the record clearly demonstrates Petitioner’s criminal culpability and
nothing presented in the petition effectively indicates that Petitioner is innocent of the
crimes for which he was convicted. Accordingly, the overwhelming evidence of
Petitioner’s guilt was such that no attorney, however talented, could reasonably have
been expected to secure an acquittal during the guilt phase of Petitioner’s trial, and this

14
AO 72A
(Rev.8/82)

Pet. App. 78

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 15 of 102

Court will focus its analysis on whether trial counsel was ineffective during the penalty
phase of the trial.

3. Background on Sentencing Phase and Petitioner’s Claims
The record reveals that trial counsel presented scant evidence at the sentencing
phase of the trial. No witnesses testified on Petitioner’s behalf. By stipulation with
the prosecution, trial counsel sought to have admitted, and the trial court did admit,
two pictures of Petitioner’s childhood residence in St. Croix, United States Virgin
Islands, two pictures of a baseball field that Petitioner played on in St. Croix, a picture
of the street in St. Croix that he lived on, two pictures of a school in St. Croix that
Petitioner attended, a letter written by Petitioner while serving a prison term for an
earlier crime, a letter back to Petitioner from the supervisor of the treatment unit at the
Bureau of Corrections, and a document written by Petitioner. [See Doc. 17-35]. This
Court has reviewed the letters and the document, and, at most, they might tend to
humanize Petitioner to a slight degree. The pictures are nothing more than pictures of
places.
In his closing argument, trial counsel relied on residual doubt, arguing that the
jury should not condemn Petitioner to death based on the purportedly dubious

15
AO 72A
(Rev.8/82)

Pet. App. 79

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 16 of 102

testimony of Petitioner’s codefendant, Gregory Fahie, concerning what happened in
the Tubner’s home.
Petitioner contends that trial counsel should have done more in presenting
evidence. According to Petitioner, trial counsel was ineffective for failing to present
a mental health expert who could have testified regarding Petitioner’s organic brain
damage, family members and others who were willing to testify positively about
Petitioner, an expert who could testify that Petitioner would not pose a danger while
incarcerated, and the results of a polygraph test given to the daughter of one of the
victims. Petitioner further contends that trial counsel’s investigation was inadequate
in a variety of ways. Generally, Petitioner argues that there was confusion regarding
which of the two lawyers working on the case was responsible for handling the
investigation into mitigation matters, that Jodi Monogue, the paralegal who handled
the bulk of the mitigation investigation was an alcoholic,1 and that, because of Ms.
Monogue’s lack of experience, trial counsel should have hired a mitigation specialist.

1

With respect to Petitioner’s bald claim that Ms. Monogue (now deceased) was
an alcoholic, Petitioner has cited to nothing that even remotely supports this
contention, and trial counsel testified that they saw no indication that she had a
drinking problem. Finally, there is no constitutional requirement that trial counsel hire
a mitigation specialist, and lead trial counsel’s experience with and knowledge of death
penalty cases and the presentation of a sentencing phase case rendered him more than
adequately capable of directing Ms. Monogue’s efforts.
16
AO 72A
(Rev.8/82)

Pet. App. 80

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 17 of 102

4. Discussion of Petitioner’s Claims of Ineffective Assistance
This Court readily concedes, at least at first blush, to having had grave concerns
regarding the paucity of the case that trial counsel presented in mitigation. After a
careful and thorough review of the record and the decisions of the state court’s
reviewing these claims, however, this Court is satisfied that Petitioner has not
demonstrated that his trial counsel was constitutionally ineffective in presenting a case
in mitigation at the sentencing phase of the trial.
In evaluating trial counsel’s performance during the sentencing phase of a trial,
the “principal concern . . . is not whether counsel should have presented a mitigation
case, [but] whether the investigation supporting counsel’s decision not to introduce
mitigating evidence of [the Petitioner]’s background was itself reasonable.” Wiggins
v. Smith, 539 U.S. 510, 522-23 (2003). Accordingly, this Court first looks to
determine whether counsel thoroughly researched and investigated possible avenues
of mitigation, consulted with a psychiatrist, interviewed possible witnesses,
interviewed Petitioner, reviewed the evidence against Petitioner, and employed an
investigator to find and interview potential witnesses. Conklin v. Schofield, 366 F.3d
1191, 1205 (11th Cir. 2004). The record demonstrates that counsel did these things.

17
AO 72A
(Rev.8/82)

Pet. App. 81

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 18 of 102

a.

Claim that Trial Counsel Erred in Failing to Seek Admission of the
Results of a Polygraph Examination

According to Petitioner, Sherry Tubner, the daughter of victim John Tubner, was
at one time a suspect in the murder. She agreed to take a polygraph test, and that test
indicated that she lied when she answered questions about her knowledge of and her
participation in the murders. Trial counsel sought to have the test results admitted into
evidence during the guilt phase of Petitioner’s trial, but the trial judge ruled that the
results were inadmissible under Georgia law. Trial counsel did not seek to have the
test results admitted during the sentencing phase under the assumption that they would
have been inadmissible.
Petitioner argues that, because trial counsel’s defense theory during the
sentencing phase was residual doubt, they should have sought to have the polygraph
results admitted. Petitioner claims that the test results would have been admissible at
the penalty phase under Georgia law and that trial counsel’s failure to seek admission
of the evidence based on an incorrect legal assumption amounts to ineffective
assistance.
This Court first notes that, at the time of Petitioner’s 2002 trial, Georgia case law
indicated that polygraph test results were inadmissible during the sentencing phase of
a death penalty trial. In Baxter v. Kemp, 391 S.E.2d 754, 756 n.4 (Ga. 1990), the

18
AO 72A
(Rev.8/82)

Pet. App. 82

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 19 of 102

Georgia Supreme Court held that “counsel were not ineffective for failing to try to
introduce inadmissible polygraph evidence at the sentencing phase.” It was not until
2004 that the state court overruled Baxter in Height v. State, 278 Ga. 592, 595 (2004),
and concluded “that Georgia’s general ban on the admission of polygraph test results
absent the parties’ stipulation should not be applied automatically in the sentencing
phase of a capital case so as to prevent the defendant from presenting a favorable
polygraph test result.”
Moreover, even under Height, Petitioner has not demonstrated that this claim
entitles him to relief. In Height, the Georgia Supreme Court further held that, [w]hen
the defendant seeks to introduce unstipulated polygraph test results as mitigation
evidence, the trial court must exercise its discretion to determine whether those results
are sufficiently reliable to be admitted.” Id. In Waldrip v. Head, 620 S.E.2d 829 (Ga.
2005), Tommy Lee Waldrip raised a similar claim in his state habeas corpus petition.
In rejecting that claim the Supreme Court held as follows:
The new law that Waldrip argues is now controlling and that he alleges
his appellate counsel should have argued on direct appeal was announced
by this Court in Height v. State, 604 S.E.2d 796 (2004) (overruling
Baxter v. Kemp, 391 S.E.2d 754 (1990)), where we held that polygraph
results may be admissible by the defense in the sentencing phase of a
death penalty case, even absent a stipulation by the State, if a sufficient
showing of the polygraph’s reliability is made. However, even assuming
arguendo that this new law could have retroactive effect in this habeas
proceeding (see [Head v. Hill, 587 S.E.2d 613, 619 (2003) (discussing the
rules governing the retroactive application of new law)]), we find
19
AO 72A
(Rev.8/82)

Pet. App. 83

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 20 of 102

Waldrip has failed even to attempt the showing of reliability necessary to
conclude that the polygraph results would be admissible under Height.
Accordingly, Waldrip has failed to show any prejudice in support of his
overall evidence suppression claim or in support of his attempt to
overcome the procedural default of that claim. This failure to show
prejudice is also fatal to his ineffective assistance of appellate counsel
claim.
Id. at 834-35.
Likewise, in his final brief, Petitioner has not pointed to anything that would
tend to demonstrate the sufficient reliability of the polygraph test results that might
have convinced the trial to admit them during the sentencing phase of Petitioner’s trial,
and Respondent has presented strong argument that the polygraph test is not reliable.
[Doc. 52 at 56, 128-29]. Accordingly, Petitioner has failed to demonstrate that he
suffered prejudice as a result of his trial counsel’s failure to seek admission of the
polygraph test result.

b.

Claim that Trial Counsel Failed to Present the Testimony of
Ronald Tutein

According to Petitioner, Ronald Tutein, who is Petitioner’s nephew, was willing
to testify and present favorable testimony on Petitioner’s behalf during the sentencing
phase of the trial, but trial counsel failed to present that testimony. It appears from the
record that the prosecution did not take as long to present its case in aggravation as was

20
AO 72A
(Rev.8/82)

Pet. App. 84

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 21 of 102

expected, and when the state rested, trial counsel sought to continue the trial so that he
would have enough time to fly Mr. Tutein up from St. Croix. The trial court refused
the request and required trial counsel to proceed.
In concluding that Petitioner had failed to establish that trial counsel was
ineffective in failing to present this witness, the state habeas corpus court discussed the
matter and held as follows:
Petitioner alleges trial counsel were ineffective for failing to present the
testimony of Petitioner’s nephew, Ronald Tutein, during the sentencing
phase of Petitioner’s trial. Based upon trial counsel’s testimony before
this Court, and the fact that trial counsel had purchased Mr. Tutein [sic]
plane fare so that he may attend Petitioner’s trial, this Court concludes
trial counsel clearly intended to present Mr. Tutein during the sentencing
phase of trial. Conflicting testimony was presented to this Court
regarding Mr. Tutien’s availability during Petitioner’s trial. Trial counsel
testified that Mr. Tutein was unavailable on the day in which he was
needed to testify and Mr. Tutein testified that he was available to testify.
However, this Court finds it need not decide whether trial counsel was
deficient for not presenting Mr. Tutein as Mr. Tutein’s testimony before
this Court was neither compelling nor mitigating for the crimes for which
Petitioner had committed and there is no reasonable probability that this
testimony would have changed the outcome of Petitioner’s trial. The
majority of Mr. Tutein’s testimony was about Petitioner’s father, Gerald
Sealey, and how he would take the children in the family to the park and
McDonald’s. The only testimony Mr. Tutein gave pertaining to
Petitioner was that he was loud and always laughing and once
discouraged him from fighting.
Trial counsel also admitted that Mr. Tutein’s testimony was not going to
mitigate to brutal torture and murder of Mr. and Mrs. Tubner. Mr.
Roberto testified that Petitioner’s nephew Ronald Tutein was going to
testify on Petitioner’s behalf and state that Petitioner was a “good uncle”
and was “always nice to him.” However, Mr. Tutein had not spent a lot
21
AO 72A
(Rev.8/82)

Pet. App. 85

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 22 of 102

of time with Petitioner, therefore, there was not going to be “alot of
depth” to his testimony. . . . Therefore, this Court finds there is no
reasonable probability that Mr. Tutein’s testimony would have changed
the outcome of the sentencing portion of Petitioner’s trial.
[Doc. 27-14 at 21-22].
In arguing that the state court’s conclusion is not entitled to deference under
§ 2254(d), Petitioner asserts that “there is a reasonable probability that the mind of at
least one juror would have been swayed” by Mr. Tutein’s testimony. [Doc. 47 at 51].
According to Petitioner, the state court erred by failing to recognize that mitigating
evidence need not “outweigh” the aggravating evidence in order to be effective and
that regardless of the brutality of the crime, “jurors would have considered the
evidence and weighed it in favor of a life sentence.” [Id. at 52]. Petitioner further
claims that, given the fact that trial counsel presented so little evidence in mitigation,
Mr. Tutein’s testimony would have had a larger impact.
However, Petitioner merely quibbles with the state court’s conclusion, and fails
to meet the required standard of showing that no reasonable jurist could agree with the
state court. Having reviewed Mr. Tutein’s testimony from the state habeas corpus
proceeding, this Court agrees with the state court that the testimony was, at best,
mitigating to a very slight degree, and, in view of the nature of Petitioner’s crimes and
the other evidence presented by the state during the sentencing phase, this Court
concludes that reasonable jurists could readily agree with the state court’s conclusion.
22
AO 72A
(Rev.8/82)

Pet. App. 86

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 23 of 102

As noted above, the prejudice prong of the Strickland analysis requires Petitioner to
demonstrate “a substantial, not just conceivable, likelihood of a different result,”
Pinholster, 563 U.S. at 190 (quotation and citation omitted), and Mr. Tutein’s potential
testimony does not provide that substantial likelihood. Accordingly, Petitioner is not
entitled to relief with respect to this claim, and it follows that Petitioner cannot
establish that he was prejudiced based on his separate claim that trial counsel failed to
properly argue for a continuance during the sentencing trial to allow time for Mr.
Tutein to arrive in Atlanta. [See Doc. 47 at 107].

c.

Claim that Trial Counsel was Ineffective in Failing to Discover and
Present Evidence of Petitioner’s Neurological Dysfuntion

Petitioner further claims that trial counsel’s investigation of Petitioner’s mental
health was inadequate because they did not pursue a full battery of psychological
testing. Petitioner notes that, before the trial, trial counsel secured the services of a
psychiatrist, Dr. Jack Farrar, who performed a preliminary assessment on Petitioner
and determined that Petitioner suffered from a delusional, paranoid disorder that could
be a psychosis and that he also likely had an organic brain disorder. Dr. Farrar
suggested further evaluation, but trial counsel never followed up on this suggestion
despite the fact that trial counsel had obtained funds from the trial court to do so. A

23
AO 72A
(Rev.8/82)

Pet. App. 87

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 24 of 102

more thorough examination by a neuropsychologist performed in preparation for
Petitioner’s state habeas corpus proceedings resulted in a diagnosis that Petitioner
suffers from “organic brain syndrome and borderline mental retardation of intellectual
functions.” [Doc. 47 at 60]. Petitioner contends that trial counsel’s failure to obtain a
full mental health examination amounted to ineffective assistance because it would
have led to mitigating evidence that trial counsel could have presented, rendering a life
sentence reasonably likely.
In denying relief on this claim, the state habeas corpus court noted that trial
counsel saw no basis to investigate Petitioner’s mental health further because, in their
interactions with Petitioner and in their investigation, they saw no indication that
Petitioner suffered from a serious mental condition. [Doc. 27-14 at 27-29]; see
Holladay v. Haley, 209 F.3d 1243, 1250 (11th Cir. 2000) (counsel not required to seek
mental health evaluation when the defendant does not display strong evidence of
mental problems). The state court also provided a detailed discussion of the testimony
of Dr. Glen King, the Respondent’s mental health expert who refuted the diagnosis
made by Petitioner’s expert before the state habeas corpus court. [Id. at 59-67]. The
state habeas corpus court found that Dr. King’s testimony was more credible and
concluded that Petitioner could not, therefore, establish that he was prejudiced by the

24
AO 72A
(Rev.8/82)

Pet. App. 88

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 25 of 102

failure of trial counsel to present mental health evidence during the sentencing phase
of Petitioner’s trial.
Petitioner criticizes the state court’s conclusions, contending that, as a layman
with respect to mental health issues, trial counsel was not qualified to make the
judgment that Petitioner did not exhibit any mental health deficiencies, but see
Holladay, 209 F.3d at 1250 (11th Cir. 2000) (cited above), and, in any event, Petitioner
claims that trial counsel had ample reason to suspect that Petitioner had mental
problems. This Court agrees, however, with the state court’s further conclusion that
“even if many reasonable lawyers would not have done as trial counsel did at trial, no
relief can be granted on ineffectiveness grounds unless it is shown that no reasonable
lawyer, in the circumstances, would have done so,” [id. at 28], and Petitioner failed to
meet the burden of proving that fact.
Petitioner further criticizes the state court’s finding that Respondent’s mental
health expert’s testimony was more credible than Petitioner’s expert’s, arguing that the
state court ignored much of Petitioner’s expert’s testimony.
In its own analysis, this Court finds that the record reveals that trial counsel had
a reasonable strategic basis for not presenting a mental health defense during the
sentencing phase even if trial counsel had reason to suspect that Petitioner suffered
from some mental deficiency. Trial counsel testified that his strategy was generally

25
AO 72A
(Rev.8/82)

Pet. App. 89

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 26 of 102

not to present evidence of mental health issues unless they are substantial and they
comport with his theory of defense. [Doc. 19-22 at 9, 11]. Trial counsel’s strategy
was to approach the case as a whole and not treat the guilt and sentencing phases
separately – if he planned to present a strong defense during the guilt phase, he wanted
to rely on residual doubt in the sentencing phase rather than change tactics. [Id. at
25-26]. Trial counsel testified that Petitioner told him that he did not commit the
crimes, and trial counsel believed him. [Id. at 28]. As a result, trial counsel decided
to cast doubt on the state’s case during the guilt phase and then rely on residual doubt
at sentencing, and it is perfectly reasonable for counsel to have avoided using mental
issues to excuse Petitioner’s conduct when he was trying to convince the jurors that
they could not be sure that Petitioner engaged in the conduct in the first instance.
Moreover, trial counsel specifically testified that he did not want to present mental
health evidence because such evidence would be more aggravating than mitigating:
This was a homicide by axe. Juries come to the court with a lot of
background. This is the type of thing that is feared heuristically. You
would consider that if they make horror movies out of a situation like this
that the jury may come with preconceived notions. One of the things I
remember vividly about this is that I did not want the jury to have the
opportunity to think that this was a crazed man with an axe and that they
were then going to let him out with life with parole, or life without. I was
hoping for life without parole, obviously. But I did not think the mental
health issue was viable in this case. I don’t, as I sit here today.
[Id. at 62].

26
AO 72A
(Rev.8/82)

Pet. App. 90

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 27 of 102

Trial counsel also did not want to have to contend with the fact that if he
presented mental health evidence, the state would seek to perform their own
psychological evaluation as well as possibly gaining access to the report from
Petitioner’s expert mental health expert. [Id. at 65]. Trial counsel considered that
problematic because the state expert performing the evaluation would want Petitioner
to discuss the case, and trial counsel did not want Petitioner either discussing the case
or having the state putting into evidence the fact that Petitioner had refused to
cooperate with the state’s expert. [Id].
In summary, this Court concludes that trial counsel’s strategic basis for choosing
not to present mental health evidence was reasonable.
This Court also briefly notes that the Eleventh Circuit has instructed that
“analysis of the prejudice prong . . . must also take into account the aggravating
circumstances associated with [Petitioner]’s case . . . .” Dobbs v. Turpin, 142 F.3d
1383, 1390 (11th Cir. 1998). “At the end of the day, we are required to ‘reweigh the
evidence in aggravation against the totality of available mitigating evidence.’” Boyd
v. Allen, 592 F.3d 1274, 1301 (11th Cir. 2010) (quoting Wiggins v. Smith, 539 U.S.
510, 534 (2003)). In Boyd, for example, the Eleventh Circuit explained that although
trial counsel many have overlooked mitigating evidence of childhood abuse that
“undeniably would have been relevant to Boyd’s mitigation case,” the court

27
AO 72A
(Rev.8/82)

Pet. App. 91

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 28 of 102

determined “that the evidence of abuse would not ultimately have affected weighing
the aggravators and the mitigators.” Id. at 1299. The petitioner in Boyd had
participated in a gruesome double murder that culminated in Boyd and his accomplice
beating and shooting their victims. Id. at 1279-81. In light of these circumstances, the
Eleventh Circuit “conclude[d] that the totality of mitigating evidence . . . pales when
compared to the brutal nature and extent of the aggravating evidence.” Id. at 1302.
As in Boyd, the evidence of aggravating factors of Petitioner’s crimes are substantial
– using a hot poker to torture his female victim before killing her and her husband with
an ax – while the evidence of mild mental impairment presented at the state habeas
corpus proceeding is not particularly compelling. Petitioner’s mental health expert
testified that Petitioner has borderline intelligence and “organic brain syndrome,” that
Petitioner had an impairment in higher order brain function, that he is “emotionally
impeded,” suffers from a learning disability, and that “the chaos and destabilization
that occurred when [Petitioner] was uprooted from his childhood home in St. Croix and
moved to the Bronx as a pre-teen interrupted [his] cognitive and emotional
development at a vital stage.” [Doc. 19-19 at 65-76]. Nothing in this testimony
undermines this Court’s confidence in the outcome of the sentencing phase of
Petitioner’s trial when compared to the circumstances of Petitioner’s crime. Indeed,
this evidence is just as likely to be aggravating as mitigating. C.f. Rhode v. Hall, 582

28
AO 72A
(Rev.8/82)

Pet. App. 92

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 29 of 102

F.3d 1273, 1285-86 (11th Cir. 2009) (“Counsel reasonably believed that the jury would
see Rhode’s impulsive behavior, which more than one expert believed was triggered
by his organic brain damage, as aggravating.”).
Accordingly, this Court further concludes that, even if trial counsel had acted
unreasonably, Petitioner has failed to establish that he was prejudiced by his trial
counsel’s failure to present mental health evidence during the sentencing phase of his
trial.

d.

Claim that Trial Counsel was Ineffective in Failing to Discover and
Present Evidence Concerning Petitioner’s Background and Life
History

Petitioner also claims that trial counsel’s investigation into his background and
life history was inadequate. The state habeas corpus found the opposite, detailing in
a lengthy discussion the many avenues that trial counsel pursued in attempting to
discover evidence for use during a sentencing trial. [Doc. 27-14 at 9-22]. This Court
will not repeat that discussion here, but it is clear that trial counsel thoroughly
investigated Petitioner’s background, including his early life, his family, his criminal
history, his periods of incarceration in St. Croix and in Federal Prison in Kentucky, his
school records, his speech impediment and the therapy he received for it, his transition

29
AO 72A
(Rev.8/82)

Pet. App. 93

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 30 of 102

from St. Croix to New York and then back to St. Croix, his life in Atlanta, his
employment history, his involvement in a gang around the Little Five Points area of
Atlanta, and his medical history. Trial counsel traveled to St. Croix and talked to
Petitioner’s brothers and sisters as well as others who knew Petitioner when he was
growing up. Trial counsel tried to locate Petitioner’s speech therapist and little league
baseball coach but was unable to do so.
Petitioner has presented a description of the type of background and life history
evidence that trial counsel could have presented. [Doc. 47 at 76-79]. The majority of
it is information that trial counsel knew about and chose not to present. See Wiggins,
539 U.S. at 522-23.
In response to Petitioner’s assertion that habeas counsel found certain witnesses
who had positive things to say about Petitioner and who would have testified, this
Court notes that trial counsel testified that they had difficulty finding people willing
to testify and that they would have put such witnesses up if their testimony fit with trial
strategy. [Doc. 19-22 at 30-31].
It is common practice for petitioners attacking their death sentences to
submit affidavits from witnesses who say they could have supplied
additional mitigating circumstance evidence, had they been called, or, if
they were called, had they been asked the right questions . . . . But the
existence of such affidavits, artfully drafted though they may be, usually
proves little of significance . . . . That other witnesses could have been
called or other testimony elicited usually proves at most the wholly
unremarkable fact that with the luxury of time and the opportunity to
30
AO 72A
(Rev.8/82)

Pet. App. 94

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 31 of 102

focus resources on specific parts of a made record, post-conviction
counsel will inevitably identify shortcomings in the performance of prior
counsel. As we have noted before, in retrospect, one may always identify
shortcomings, but perfection is not the standard of effective assistance.
The widespread use of the tactic of attacking trial counsel by showing
what “might have been” proves that nothing is clearer than
hindsight-except perhaps the rule that we will not judge trial counsel’s
performance through hindsight. We reiterate: The mere fact that other
witnesses might have been available or that other testimony might have
been elicited from those who testified is not a sufficient ground to prove
ineffectiveness of counsel.
Grossman v. McDonough, 466 F.3d 1325, 1347 (11th Cir. 2006) (quoting Waters v.
Thomas, 46 F.3d 1506, 1513-14 (11th Cir. 1995) (citations, internal quotation marks,
and alterations omitted)).
More important to this Court’s analysis, having reviewed the evidence regarding
Petitioner’s background that Petitioner presented during the state habeas corpus
proceedings, this Court finds that the evidence is not so significant that it undermines
this Court’s confidence in the outcome of Petitioner’s sentencing trial. According to
Petitioner, his mother suffered from mental illness and was distant. She was arrested
twice and lost a job for assaulting people, but these assaults appear to have been minor.
Petitioner’s father was not emotional but had “loud outbursts.” Petitioner’s father
occasionally “whooped” Petitioner, but, overall, he received little supervision or
discipline from his parents. Petitioner suffered from a stutter that made him feel like
an outcast, and he did not do well in school. Petitioner’s family moved him to New
31
AO 72A
(Rev.8/82)

Pet. App. 95

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 32 of 102

York, and he associated with some rough characters there, a trend that continued upon
his return to St. Croix. The prison in St. Croix where Petitioner was incarcerated had
very low standards of prison care.
In both Williams v. Taylor, 529 U.S. 362 (2000), and Wiggins v. Smith, 539
U.S. 510 (2003), the Supreme Court concluded, inter alia, that trial counsel had been
ineffective in failing to present evidence of the death penalty defendants’ troubled
childhood during the penalty phase of the trial. However, the facts presented in both
cases were much more extreme than that here presented by Petitioner. In Wiggins,
there was evidence that
[Wiggins’] mother, a chronic alcoholic, frequently left Wiggins and his
siblings home alone for days, forcing them to beg for food and to eat
paint chips and garbage. Mrs. Wiggins’ abusive behavior included
beating the children for breaking into the kitchen, which she often kept
locked. She had sex with men while her children slept in the same bed
and, on one occasion, forced petitioner’s hand against a hot stove burner
– an incident that led to petitioner’s hospitalization. At the age of six, the
State placed Wiggins in foster care. Petitioner’s first and second foster
mothers abused him physically, and, as petitioner explained to [a licensed
social worker], the father in his second foster home repeatedly molested
and raped him. At age 16, petitioner ran away from his foster home and
began living on the streets. He returned intermittently to additional foster
homes, including one in which the foster mother’s sons allegedly
gang-raped him on more than one occasion. After leaving the foster care
system, Wiggins entered a Job Corps program and was allegedly sexually
abused by his supervisor.
Wiggins, 539 U.S. at 516-17.

32
AO 72A
(Rev.8/82)

Pet. App. 96

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 33 of 102

In Williams v. Taylor, Terry Williams’ childhood was equally distressing.
Williams’ parents were severe alcoholics who were often so drunk that they were
incapable of caring for the children. When social workers arrived at the Williams
home on one occasion, conditions were not habitable, including human feces in several
places on the floor. The social workers had to remove the children because, among
other reasons, the children were drunk from consuming moonshine. Williams’ parents
were each charged with five counts of criminal neglect. Acquaintances of the family
testified that Williams’ father would strip Williams naked, tie him to a bed post and
whip him about the back and face with a belt, and that Williams’ parents engaged in
repeated fist fights that terrorized the children. Williams’ trial attorneys also ignored
or failed to discover evidence of Williams’ borderline retardation, organic brain
damage caused by head injury, and Fetal Alcohol Syndrome. See generally, Williams
v. Taylor, 1999 WL 459574 (Brief for Petitioner).
The evidence presented by Petitioner in the state habeas corpus action is, when
compared to the facts of Williams and Wiggins, fairly mundane. There is no evidence
of physical abuse or significant substance abuse by any of Petitioner’s family. There
is further no evidence that Petitioner was deprived of food or minimally habitable
living conditions. Neither Petitioner nor his siblings were removed from their home
by the state because of neglect, and, other than the uncorroborated, speculative

33
AO 72A
(Rev.8/82)

Pet. App. 97

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 34 of 102

comment of a mental health expert, there is no evidence that Petitioner was a victim
of sexual abuse.
As discussed above in relation to Petitioner’s claim that trial counsel should
have presented mental health evidence in mitigation, this Court must weigh
Petitioner’s proposed life history evidence against the aggravating circumstances
associated with Petitioner’s crimes. Making that comparison, this Court again finds
that there is no reasonable probability that the mitigating evidence would have changed
the outcome of the sentencing trial.

e.

Claim that Trial Counsel was Ineffective in Failing to Rebut the
State’s Case in Aggravation

Petitioner claims that trial counsel failed to rebut the state’s presentation of
aggravating evidence during the sentencing phase in several ways. Petitioner first
complains that trial counsel should have objected to the state’s introduction of
evidence and testimony indicating that Petitioner had committed a prior murder and
a rape for which Petitioner was not charged or convicted. Petitioner argues that the
State failed to demonstrate any threshold indicia of reliability prior to the introduction
of this evidence. Ignoring the question of whether this claim is unexhausted, this Court
concludes below, see infra discussion at § III.O.2, that the trial court did not err in

34
AO 72A
(Rev.8/82)

Pet. App. 98

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 35 of 102

admitting evidence of these crimes, and as a result, Petitioner cannot demonstrate that
he was prejudiced by this trial counsel’s failure to object to the testimony and
evidence.
Petitioner also claims that his trial counsel was ineffective during the guilt phase
of the trial for failing to object to (1) evidence presented by the prosecution that
Petitioner had been in jail in July, 2002, and had passed contraband notes to other
inmates, (2) the prosecution reading a note passed by Petitioner to another inmate, and
(3) the evidence that Petitioner had been convicted for assault with the intent to take
money from another.
Petitioner cannot establish that his trial counsel was ineffective for failing to
object to this evidence because it was clearly admissible. Regarding the note2 at the
jail, Petitioner addressed the note to an individual with the nickname “Oompman.” In
the note, Petitioner asks Oompman to secure three women to testify falsely that
Petitioner’s codefendant, Gregory Fahie, and victim John Tubner’s daughter, Sherry
Tubner, bought drugs together and talked about how they intended to rob and kill John
and Fannie Mae Tubner. Meeker v. State, 294 S.E.2d 479, 482 (Ga. 1982) (inculpatory
note written in jail by defendant admissible).

2

In his final brief, Petitioner refers to “notes.” From this Court’s review of the
record, it appears that there was but one note.
35
AO 72A
(Rev.8/82)

Pet. App. 99

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 36 of 102

Evidence regarding Petitioner’s conviction for assault with the intent to take
money from another was admissible under the exception that prior bad acts and crimes
are admissible to show motive, intent, or state of mind. Humphries v. State, 269 S.E.2d
90, 92 (Ga. Ct. App. 1980); see United States v. LeCroy, 441 F.3d 914, 926 (11th Cir.
2006). This crime demonstrated that Petitioner had previously assaulted someone in
an effort to obtain money just as he had with the Tubners.

f.

Claim that Trial Counsel was Ineffective in Failing to Rebut the
State’s Evidence of Petitioner’s Future Dangerousness

At Petitioner’s trial, prosecutors presented evidence of his criminal history and
of his disciplinary history while in prison in an effort to demonstrate that it would be
difficult and dangerous to house Petitioner in a prison. Petitioner claims that trial
counsel should have rebutted this evidence by pointing out the abysmal prison
conditions at the two prisons in St. Croix where Petitioner was housed and by hiring
an expert to testify about Petitioner’s future dangerousness. At the state habeas corpus
hearing, Petitioner presented the testimony of James Aiken, an expert witness on future
dangerousness. According to Aiken, Petitioner could be “adequately managed” in
prison without posing undue risk to prison staff and other inmates. Petitioner further

36
AO 72A
(Rev.8/82)

Pet. App. 100

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 37 of 102

contends that corrections officers could have testified that Petitioner was not
particularly unmanageable or disruptive.
In denying relief on this claim, the state habeas corpus court found that
Petitioner had failed to present any evidence that Petitioner suffered from abuse in the
St. Croix prisons, that his prison disciplinary record strongly contradicts the expert
testimony that Petitioner was not dangerous, [Doc. 27-14 at 30-32 (listing two pages
of incident reports that detail Petitioner’s infractions while he was in a federal prison
and two county jails)], and that, owing to the dubious value of the testimony, trial
counsel had a reasonable strategic basis for not calling the future dangerousness expert
witness to testify. [Id.].
Petitioner contends that the state court’s decision is not entitled to § 2254(d)
deference because trial counsel’s decision not to have an expert on future
dangerousness testify could not have been a strategic decision because trial counsel did
not know what such an expert would have said as he never talked to one. Petitioner
further criticizes the state court’s finding that Petitioner’s prison disciplinary history
demonstrates that the future dangerousness expert’s testimony was not believable. In
response, this Court first points out that a lawyer’s decisions need not be based on
omniscience in order to avoid running afoul of Strickland. Rather, the decision need
only be reasonable. In this instance, this Court concludes that, without talking to an

37
AO 72A
(Rev.8/82)

Pet. App. 101

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 38 of 102

expert on future dangerousness, trial counsel could have reasonably determined that,
given Petitioner’s extensive prison disciplinary history, it would be a waste of limited
resources – time as well as money – in order to secure the services of such an expert.
This Court further credits the state court’s determination that trial counsel was
reasonable in believing that testimony of a future dangerousness expert likely would
have done more harm than good.
Petitioner attempts to minimize his prison disciplinary record, but it appears
relatively substantial, certainly substantial enough that a lawyer would be objectively
reasonable in wanting to avoid looking foolish by arguing that Petitioner was not a
threat, and as noted by Respondent, trial counsel testified that, in his opinion,
presenting future dangerousness testimony would not have been helpful and that it did
not fit with his strategy in the sentencing phase. [Doc. 19-22 at 68]. As a result, this
Court concludes that the state court’s conclusion that trial counsel was not ineffective
in relation to his failure to consult an expert on future dangerousness is not
unreasonable under the facts, and this Court must defer to it.

38
AO 72A
(Rev.8/82)

Pet. App. 102

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 39 of 102

g.

Claim that Trial Counsel was Ineffective in Failing to Request Jury
Instructions Regarding Unadjudicated Crimes and Bad Conduct
and Failing to Object to Improper Jury Instructions

With respect to the trial court’s instructions at the penalty phase of Petitioner’s
trial, Petitioner argues that trial counsel should have sought a jury instruction that,
before the jury could consider prior bad acts or unadjudicated crimes in aggravation,
they must first unanimously find that Petitioner was guilty of the bad acts or crimes.
Petitioner further asserts that trial counsel was ineffective in failing to object to the (1)
trial court’s jury instructions regarding whether the jury must be unanimous in
determining whether a statutory aggravating circumstance exists, (2) the failure of the
trial court to properly define the elements of murder and armed robbery despite the fact
that those crimes were alleged as part of the statutory aggravating factors, (3) the
failure of the trial court to instruct jurors that mitigating circumstances need not be
found unanimously, and (4) the fact that the verdict form did not require the jurors to
find aggravating circumstance unanimously.
Ignoring the question of whether this claim is properly exhausted, this Court
concludes that Petitioner cannot show prejudice under Strickland because he has failed
to demonstrate how his rights were violated by the challenged instructions and failures
to instruct. Other than providing a string of citations to cases that discuss the

39
AO 72A
(Rev.8/82)

Pet. App. 103

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 40 of 102

requirements of jury instructions in criminal cases, the permitted use of prior crimes
in criminal cases, and the constitutional requirements in imposing a penalty of death,
Petitioner makes no argument that demonstrates how the trial court’s charge to the jury
was constitutionally infirm. In order to have a claim considered, habeas corpus
petitioners must do more than merely raise that claim – they must also provide
argument that demonstrates how their rights were violated. Fils v. City of Aventura,
647 F.3d 1272, 1284, 1285 (11th Cir. 2011) (“district courts cannot concoct or
resurrect arguments neither made nor advanced by parties,” and a district court “may
not . . . act as a plaintiff’s lawyer and construct the party’s theory of liability”).
In performing its own research on Petitioner’s claims, this Court has found no
case law that supports the proposition that a court in a death penalty case must instruct
the jury that they must find that the defendant committed prior bad acts or
unadjudicated crimes unanimously before they can consider them. See Michaels v.
Chappell, 2014 WL 7047544, at *85 (S.D. Cal. 2014) (rejecting a similar argument).
With respect to his claim that Petitioner failed to object to the trial court’s failure
to instruct the jurors that they could impose a death penalty only if they first
unanimously found beyond a reasonable doubt that an aggravating circumstance
existed, this Court first notes that the trial court repeatedly instructed the jury that prior
to imposing a death sentence, they must find that statutory aggravating factors exist

40
AO 72A
(Rev.8/82)

Pet. App. 104

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 41 of 102

beyond a reasonable doubt, [e.g., Doc. 17-23 at 64, 65, 67], and the verdict form
carried the same requirement, [Doc. 13-13 at 63-65]. The jury was instructed that their
verdict as to penalty must be unanimous and the sentencing verdict form required the
jury to expressly find whether statutory aggravating circumstances existed and to show
which statutory aggravating circumstances had been proven beyond a reasonable
doubt. [Doc. 13-13 at 64-65]. The trial court’s instructions, coupled with the verdict
form, informed the jury that unanimity was required as to aggravating circumstances.
See Lucas v. Upton, 2013 WL 1221928, at *39 (M.D. Ga. 2013) (noting that jury
instructions and the verdict form in a death penalty case materially identical to those
used in this case adequately informed the jury that unanimity was required for statutory
aggravating circumstances).
Finally, while there is case law to the effect that a statute which requires jurors
unanimously to agree on mitigating circumstances is unconstitutional, Mills v.
Maryland, 486 U.S. 367, 376 (1988), this Court could not find a case that mandated
an instruction that a determination of mitigating circumstances need not be unanimous.
See also Lucas v. State, 555 S.E.2d 440, 450 (Ga. 2001) (noting that “[t]he trial court
was not required to charge the jury that mitigating circumstances need not be found
unanimously, because it charged the jury that it could impose a life sentence for any
reason or no reason”).

41
AO 72A
(Rev.8/82)

Pet. App. 105

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 42 of 102

As Petitioner has failed to demonstrate that the trial court’s charge to the jury
violated his rights, he cannot have been prejudiced by his trial counsel’s failure to raise
objection to that charge.

h.

Claim that Trial Counsel was Ineffective in Failing to Object to the
Admission of Prejudicial Evidence

Petitioner next faults trial counsel for failing to object to numerous pictures of
the victims’ bodies and of the crime scene. However, as this Court determines below,
see infra discussion at § III.O.1, the photographs were admissible, and trial counsel
could not have been ineffective for failing to object to them.

i.

Claim that Trial Counsel was Ineffective in Failing to Object to
Improper Argument by the State

In relation to his claim that trial counsel was ineffective for failing to object to
certain arguments made by the prosecution, Petitioner first asserts that, during closing
argument in the guilt/innocence phase of the trial, the prosecutor referred to matters
and facts not in evidence. Petitioner cites to four pages from the trial transcript, [Doc.
17-19 at 24-25, 29-30], but he fails to identify what matters and facts the prosecutor
discussed in those four pages that were purportedly not in evidence. As it is not this

42
AO 72A
(Rev.8/82)

Pet. App. 106

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 43 of 102

Court’s job “to mine the record, prospecting for facts that the habeas petitioner
overlooked and could have, but did not, bring to the surface in his petition,” Chavez
v. Sec. Florida Dept. of Corrections, 647 F.3d 1057, 1061 (11th Cir. 2011), this Court
finds that Petitioner has failed to demonstrate that the prosecutor made improper
arguments.
Petitioner next contends that the prosecutor made improper argument regarding
the fact that Petitioner did not testify in his defense in violation of the rule of Griffin
v. California, 380 U.S. 609 (1965). During closing argument in the guilt/innocence
phase of the case, while the prosecutor was discussing what the defense had failed to
show, he asked: “Did anybody in this case say that Richard Sealy is not an ax
murderer? Did anybody say that he didn’t pick up the ax and chop those poor people
to death? They didn’t did they?”3 [Doc. 17-19 at 14].
As an initial matter, this Court notes that these statements are, at most, oblique
references to the fact that Petitioner did not testify. Such a statement constitutes an
impermissible comment on Petitioner’s right to remain silent “only if: (1) the
prosecutor’s manifest intention was to comment upon the defendant’s failure to testify;

3

Petitioner also contends that this statement had the effect of improperly shifting
the burden of proof to the defense. When read in proper context, it does no such thing,
and, in any event, the jury instructions in the guilt/innocence phase were quite clear
that the state carried the burden of proof so that the jury would not have been confused
on this point.
43
AO 72A
(Rev.8/82)

Pet. App. 107

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 44 of 102

or (2) the remark was such that the jury would naturally and necessarily take it to be
a comment on the failure of the defendant to testify.” Williams v. Wainwright, 673
F.2d 1182, 1184 (11th Cir. 1982). In this case, there is no indication that the
prosecutor made the remark intending to comment on Petitioner’s failure to testify,
and, as the statements related to the case the defense team put up, this Court finds that
the jury would not have naturally considered it a comment on Petitioner’s failure to
testify. See United States v. Norton, 867 F.2d 1354 (11th Cir. 1989) (“[A] defendant’s
fifth amendment privilege is not infringed by a comment on the failure of the defense,
as opposed to the defendant, to counter or explain the testimony presented or evidence
introduced.”).
In any event, in the jury charge at the close of the guilt/innocence phase of the
trial, the trial court instructed correctly and adequately the jury as follows:
The defendant in a criminal case is under no duty to present any evidence
tending to prove innocence and is not required to take the stand and
testify in the case. If the defendant elects not to testify, no inference
hurtful, harmful, or adverse to the defendant shall be drawn by the jury,
nor shall such fact be held against the defendant in any way.
[Doc. 17-19 at 41].
Petitioner next contends that the prosecutor improperly vouched for the witness
Gregory Fahie who implicated Petitioner. However, the entire theory of the defense
at the trial was that while Petitioner was in the victims’ house when the murders

44
AO 72A
(Rev.8/82)

Pet. App. 108

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 45 of 102

occurred, he did not commit the murders. The only other person in the house who was
likely to have committed the murders was Fahie, and as such, it was perfectly
acceptable for the prosecutor to point out the many reasons that it was unlikely that
Fahie was the murderer, which is all the prosecutor did. This Court thus concludes that
the prosecutor did not improperly vouch for Fahie’s credibility.
Next, Petitioner contends that the prosecutor improperly injected his own view
of the evidence and vouched for the strength of the state’s case. However, as with his
claim regarding the prosecutor purportedly referring to facts not in evidence, Petitioner
makes no effort to point out which statements in the four pages of transcript that he
cites supposedly contained the prosecutor’s own views.
In his final assertion of improper argument by the prosecution, Petitioner
contends that, during closing argument in the penalty phase of the trial, the prosecutor
encouraged “the jury to punish the Petitioner for three murders, including a murder for
which Petitioner had never been convicted.” [Doc. 47 at 103]. However, in the
discussion below, see infra discussion at § III.O.2, this Court determines that the
connection between Petitioner and William Kerry’s murder was sufficiently reliable
to allow evidence of the murder to be presented to the jury. If the evidence is
admissible, it is axiomatic that the prosecution can discuss that evidence in closing
argument.

45
AO 72A
(Rev.8/82)

Pet. App. 109

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 46 of 102

Having determined that none of the instances of prosecution closing argument
about which Petitioner complains was improper, trial counsel cannot be faulted for
failing to object to that argument.

j.

Claim that Trial Counsel was Ineffective in Failing to Give
Adequate Closing Arguments

Petitioner argues that trial counsel was ineffective for failing to give a proper
closing argument during the sentencing phase because counsel argued only residual
doubt and failed to humanize Petitioner. This Court agrees with Respondent that this
claim is unexhausted. It is undisputed that Petitioner did not raise this claim in his
state habeas corpus petition, and his argument in his post hearing brief that trial
counsel’s closing argument demonstrated that trial counsel had not properly prepared
for the penalty phase was not sufficient to give the state court a full opportunity to
resolve the issue raised here. Accordingly, this Court concludes that the claim is
unexhausted, and, as Petitioner would be barred from attempting to raise the claim
again, the claim presents no basis for federal habeas relief.
This Court further agrees with Respondent that Petitioner has failed to
demonstrate how the closing argument was constitutionally ineffective. This Court has
already explained that trial counsel made a reasonable strategic decision to rely on

46
AO 72A
(Rev.8/82)

Pet. App. 110

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 47 of 102

residual doubt during the penalty phase by pointing out the weaknesses in the state’s
case. As such, it cannot have been ineffective for trial counsel to continue that strategy
during his closing argument. For these reasons, this Court concludes that Petitioner
is not entitled to relief on this claim.

k.

Claim that Trial Counsel was Ineffective in Failing to Properly
Convey the Terms of a Plea Offer

Petitioner also claims that his trial counsel was ineffective for failing to
communicate the state’s plea offer of life without parole in exchange for Petitioner’s
guilty plea in a manner that Petitioner could understand. Petitioner argues that because
of Petitioner’s mental deficiencies and because of hostility between trial counsel and
Petitioner, trial counsel was not able to functionally communicate with Petitioner. As
a result, Petitioner claims he did not understand the plea offer and further claims that
if he understood it, he would have taken the plea.
According to the state habeas corpus court,
trial counsel communicated the district attorney’s plea offer of life
without parole but Petitioner refused to accept such offer. Petitioner has
not presented any evidence to this Court that he would have at any time
been willing to accept the State’s plea offer. Once a plea deal has been
properly communicated to a defendant, as it was in this case, the decision
to whether to accept or refuse an offer rest entirely on the defendant. See
Baskin v. State, 267 Ga. App. 711 (2004).

47
AO 72A
(Rev.8/82)

Pet. App. 111

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 48 of 102

[Doc. 27-14 at 39].
Trial counsel testified that he worked “hard” to convince Petitioner to accept the
state’s plea offer. [Doc. 19-22 at 354-355]. It is further clear that trial counsel took a
measured and careful approach in considering how to convey the plea offer to
Petitioner and how to convince Petitioner to accept that offer:
I had a long discussion with other professionals, and not just the legal
profession but in the medical profession, about whether or not to take a
position like this where I say it’s my professional opinion that you should
accept this plea. There was a lot of discussion back and forth and
[Petitioner]’s life was on the line, and based on my education, training
and experience, my experience with Clayton County juries, I wanted
[Petitioner] to take this plea. I wanted him to take the plea in the worst
way, not because I didn’t think he was innocent, but because I didn’t
think he’d be found not guilty.
[Id. at 355].
In addition, the proffered plea agreement was discussed in at least two separate
hearings, [see Docs. 16-30, 16-31], and it is clear that Defendant was an active
participant in negotiating a plea deal, [Doc. 16-31 at 25-29], and that he understood the
prosecution’s offer.
Given the record, it is abundantly clear that the state court’s findings were
reasonable and supported by the evidence presented and its conclusion was not an
unreasonable application of the Strickland standard. Accordingly, this Court concludes
that Petitioner is not entitled to relief on this claim.

48
AO 72A
(Rev.8/82)

Pet. App. 112

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 49 of 102

l.

Petitioner’s Claim that his Counsel was Ineffective on Appeal

Petitioner’s discussion of his claim of ineffective assistance of appellate counsel
is a single paragraph in which he claims, in decidedly conclusory form, that counsel
failed to raise “the numerous errors of constitutional magnitude which infected
Petitioner’s trial.” [Doc. 47 at 110]. Petitioner briefly mentions two issues – a
“patently improper” jury verdict and the purported violation of Petitioner’s right to
self-representation – which this Court determines elsewhere do not entitle Petitioner
to relief. Put simply, Petitioner entirely fails to demonstrate why counsel should have
raised those or any other claims in his appeal, and he has not presented argument that
might tend to overcome the presumption that trial counsel actions were reasonable.

m.

Cumulative Trial Counsel Error

In his final assertion of ineffectiveness, Petitioner raises a claim of “cumulative
prejudice,” arguing that the cumulative effect of the alleged errors of his trial counsel
resulted in a fundamentally unfair trial. In particular, Petitioner argues that trial
counsel’s failure to present any evidence during the sentencing trial aside from a few
stipulated photographs and documents when the testimony of character witnesses and
experts could have been presented was prejudicial.

49
AO 72A
(Rev.8/82)

Pet. App. 113

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 50 of 102

As is discussed more fully below, typical “cumulative error analysis” addresses
the possibility that the cumulative effect of two or more individually harmless errors
has the potential to prejudice a criminal defendant to the same extent as a single
reversible error. See infra discussion at § III.U.
The Supreme Court has not directly addressed the applicability of the
cumulative error doctrine in the context of an ineffective assistance of
counsel claim. However, the Supreme Court has held, in the context of
an ineffective assistance claim, that “there is generally no basis for
finding a Sixth Amendment violation unless the accused can show how
specific errors of counsel undermined the reliability of the finding of
guilt.”
Forrest v. Florida Dep’t of Corr., 342 Fed. Appx. 560, 564-65 (11th Cir. 2009)
(quoting United States v. Cronic, 466 U.S. 648, 659 n.26 (1984)). The Eleventh
Circuit has also not addressed the issue.
As discussed above, this Court has determined that Petitioner has failed to show
that trial counsel’s representation was constitutionally ineffective under Strickland.
This Court now further concludes that in again “reweigh[ing] the evidence in
aggravation against the totality of available mitigating evidence . . . the totality of
mitigating evidence . . . pales when compared to the brutal nature and extent of the
aggravating evidence.” Boyd, 592 F.3d at 1301 (quotation and citation omitted). As
a result, this Court concludes that even when his allegations of ineffective assistance

50
AO 72A
(Rev.8/82)

Pet. App. 114

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 51 of 102

are viewed cumulatively, Petitioner has failed to establish the prejudice prong of the
Strickland test, and he is not entitled to relief.

B. Claim that the Trial Court Denied Petitioner’s Right to Represent Himself
Petitioner alleges that he was denied the right to represent himself at trial in
violation of Faretta v. California, 422 U.S. 806 (1975). The state habeas corpus
concluded that this claim was procedurally defaulted because Petitioner failed to raise
this claim in his appeal. [Doc. 27-14 at 56].
In a hearing held ten days before the trial, counsel for Petitioner informed the
trial court that Petitioner wished to address the court regarding the fact that he no
longer wanted to be represented by trial counsel. [Doc. 16-30 at 4]. The prosecution
left the courtroom, and the trial court commenced with an ex parte hearing. During the
ex parte hearing, Petitioner complained to the judge that trial counsel had not
investigated a matter that Petitioner wanted them to investigate. Petitioner further
complained that he had a conflict with trial counsel because of the advice that he
should accept the state’s offer of a plea in exchange for a sentence of life without
parole. Petitioner felt that, because trial counsel wanted him to accept the plea deal,
that trial counsel had given up on his case. [Id. at 8-9].

51
AO 72A
(Rev.8/82)

Pet. App. 115

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 52 of 102

Trial counsel responded that he had investigated the matter that Petitioner had
inquired about. Specifically, Petitioner had told trial counsel that a codefendant had
hidden a shoe on the roof of a store, and the investigator had gone to that roof and
could not locate the shoe. [Id. at 10]. After hearing Petitioner’s arguments and trial
counsel’s response, the trial court ruled that the grounds Petitioner raised for removing
trial counsel were not sufficient. [Id. at 15]. Petitioner then indicated that he wanted
to represent himself with standby counsel, and at that point, the trial court ended the
ex parte hearing and invited the prosecutors back into the courtroom. [Id. at 19].
Petitioner did not want his then trial counsel to serve as standby counsel, and
after a discussion of who might be Petitioner’s standby counsel, the trial court
continued the hearing for a few days so that Petitioner could think about what he
wanted to do and see if he could obtain someone to serve as his standby counsel. [Id.
at 31].
When the hearing recommenced, six days before the trial, Petitioner at first
stated that he wanted to represent himself with standby counsel. [Doc. 16-31 at 2]. He
had talked to three lawyers, but none of them were available. [Id. at 3]. The trial court
reiterated that Petitioner had failed to establish a legal ground for the removal of his
current trial counsel and that if he wanted standby counsel, he was stuck with his
current trial counsel. [Id. at 11]. The trial court began a colloquy with Petitioner to

52
AO 72A
(Rev.8/82)

Pet. App. 116

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 53 of 102

determine his education, his understanding of the charges against him and his
understanding of the law and of court procedures to see if he was capable of
representing himself. One of the matters that the judge discussed with Petitioner was
the fact that, proceeding to trial with his current trial counsel would not waive his
claim of a conflict with the attorneys – he could later appeal the trial court’s ruling that
Petitioner had not demonstrated a sufficient basis to remove counsel from the case.
The judge further pointed out that, just because trial counsel had recommended to
Petitioner that he take the plea deal, that did not mean that counsel would not be
zealous in attempting to obtain an acquittal. [Id. at 15-16]. The judge also strongly
advised Petitioner that he should not represent himself. After these discussions,
Petitioner changed his mind and said, in open court and on the record, “Without
waiving my rights to a conflict, I’d like to proceed with these two attorneys as
counsel.” [Id. at 19]. The trial court queried Petitioner to make sure that Petitioner
meant to keep his current counsel acting as his trial counsel rather than standby
counsel, and Petitioner assured the judge that he meant to keep his current lawyers as
trial counsel.
Nothing the record indicates that Petitioner was coerced or improperly
influenced, and indeed, Petitioner makes no such claim. Rather, Petitioner claims that
the trial court’s refusal to find someone to serve as Petitioner’s standby counsel put

53
AO 72A
(Rev.8/82)

Pet. App. 117

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 54 of 102

undue pressure on Petitioner, rendering him unable to invoke his right to represent
himself under Faretta.
Clearly this claim is procedurally defaulted. Even more clearly, if the claim
were not procedurally defaulted, it would not entitle Petitioner to relief. Trial counsel
had no conflict in representing Petitioner, and there was no reason for the trial court
to remove trial counsel from the case, and it is patently ridiculous for Petitioner to
suggest that the trial court had an obligation to go out and find Petitioner a new lawyer
six days before the trial was to commence when every indication was that Petitioner’s
trial counsel had ably prepared and was ready to try the case.
Accordingly, this Court concludes that Petitioner is not entitled to relief on his
claim that the trial court violated his right to represent himself.

C. Claim that Trial Counsel had a Conflict of Interest
This Court has reviewed the record in relation to Petitioner’s claim of a conflict
between Petitioner and trial counsel and concludes that the claim lacks substance.
Petitioner’s purported conflict is that trial counsel was not friendly to Petitioner.
However, heated discussions, arguments regarding strategy, and a strained relationship
do not create a conflict of interest in the legal sense, and Petitioner has not

54
AO 72A
(Rev.8/82)

Pet. App. 118

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 55 of 102

demonstrated that the trial court had any reason to remove trial counsel from the
representation of Petitioner.

D. Claim that Trial Court Unconstitutionally Denied Motion for a Continuance
During the Penalty Phase
As discussed above, the state finished its presentation of evidence earlier than
anticipated during the penalty phase of the trial, and, in an attempt to get enough time
to bring Ronald Tutein to Atlanta to testify, trial counsel sought a continuance.
Petitioner claims that the trial court’s denial of that motion violated his constitutional
rights.
Respondent correctly points out that the state habeas corpus court plainly stated
that this claim is procedurally defaulted under state rules, [Doc. 27-14 at 56], and there
is no dispute that the state rule is adequate as discussed in Frazier, 661 F.3d at 524-25.
As a result, the claim is procedurally barred before this Court.
In an attempt to establish cause and prejudice to overcome the procedural bar
to his claim in this Court, Petitioner contends that appellate counsel was ineffective in
failing to raise this issue in his appeal. However, this Court has already determined
that Petitioner has failed to demonstrate that he was prejudiced by his trial counsel’s
failure to secure the testimony of Ronald Tutein. Because of the “‘striking linguistic

55
AO 72A
(Rev.8/82)

Pet. App. 119

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 56 of 102

parallel’” between the standard for establishing prejudice sufficient to excuse
procedural default under Strickler and the standard for proving the prejudice prong of
an ineffective assistance of counsel claim under Strickland, the Eleventh Circuit treats
them as “‘one and the same.’” Mincey v. Head, 206 F.3d 1106, 1147 n.86 (11th Cir.
2000) (quoting Prou v. United States, 199 F.3d 37, 49 (1st Cir. 1999)). Accordingly,
Petitioner cannot establish prejudice to overcome the procedural bar, and he is not
entitled to relief with respect to this claim.

E. Claim that the Sentencing Verdict Is Unconstitutionally Arbitrary
Georgia’s death penalty statue requires, inter alia, that before a jury can impose
a death sentence, the jury must find, beyond a reasonable doubt, the presence of one
or more statutory aggravating circumstances. O.C.G.A. § 17-10-30. In their penalty
phase deliberations, the jury found, beyond a reasonable doubt, the presence of ten
aggravating circumstances, five in connection with the murder of John Tubner and five
in connection with the murder of Fannie Mae Tubner. [Doc. 13-13 at ecf pp. 64-65].
After so finding, the jury fixed the sentence as death, but the verdict form did not
permit them to specify whether the death sentence was imposed for the murder of John
Tubner or Fannie Mae Tubner or both.

56
AO 72A
(Rev.8/82)

Pet. App. 120

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 57 of 102

In arguing that the death sentence imposed upon him was arbitrary, Petitioner
first asserts that the failure of the jury to specify which murder the death penalty
applied to violated O.C.G.A. §§ 17-10-30 and 17-10-31. This Court has reviewed
those code sections, and agrees with the state habeas corpus court, [Doc. 27-14 at 48],
that, in the case of a multiple murder, the laws do not require the jury to differentiate
between the various murders in imposing a death sentence, and Petitioner has failed
to point to case law that holds that such a requirement exists.
Petitioner further argues that his death sentence was arbitrarily imposed in
violation of Furman v. Georgia, 408 U.S. 238 (1972), and Gregg v. Georgia, 428 U.S.
153, 206 (1976). In Furman, the Supreme Court struck down Georgia’s old system of
imposing the death penalty in part because it permitted juries to impose a sentence of
death in a random and arbitrary manner.
The basic concern of Furman centered on those defendants who were
being condemned to death capriciously and arbitrarily. Under the
procedures before the Court in that case, sentencing authorities were not
directed to give attention to the nature or circumstances of the crime
committed or to the character or record of the defendant.
Left unguided, juries imposed the death sentence in a way that could only
be called freakish.
Gregg, 428 U.S. at 206.
The main focus of Furman was the fact that the decisionmakers – juries or
judges – in various state statutory death penalty schemes were not given adequate
57
AO 72A
(Rev.8/82)

Pet. App. 121

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 58 of 102

guidelines under which to impose death. See Gregg v. Georgia, 428 U.S. 153, 195
(1976) (“Where the sentencing authority is required to specify the factors it relied upon
in reaching its decision, the further safeguard of meaningful appellate review is
available to ensure that death sentences are not imposed capriciously or in a freakish
manner.”).
The Georgia legislature then passed a new death penalty statute that the Supreme
Court evaluated and approved in Gregg. The Supreme Court found that the new
statutory scheme narrowed “the class of murderers subject to capital punishment by
specifying 10 statutory aggravating circumstances, one of which must be found by the
jury to exist beyond a reasonable doubt before a death sentence can ever be imposed”
and that the jury could also consider “any other appropriate aggravating or mitigating
circumstances.” Id. at 196-97. The Court concluded that “[t]hese procedures require
the jury to consider the circumstances of the crime and the criminal” as well as “the
characteristics of the person who committed the crime.” Id. at 197.
Having reviewed the verdict form and the trial court’s instructions from the
penalty phase of Petitioner’s trial, this Court concludes that the sentence imposed does
not violate Furman or Gregg. The instructions clearly required the jury to consider the
circumstances of the murders committed by Petitioner as well as Petitioner’s personal
characteristics. That the jury did not specify for which murder it imposed the death

58
AO 72A
(Rev.8/82)

Pet. App. 122

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 59 of 102

sentence is of no particular moment because Petitioner was convicted of both murders
and the jury found the presence of aggravating circumstances in connection with both
murders, rendering either murder as sufficient to support the imposition of a death
sentence. C.f. Griffin v. United States, 502 U.S. 46, 49 (1991) (general jury verdict is
valid “so long as it was legally supportable on one of the submitted grounds”).
This Court further agrees with Respondent that the state habeas corpus court
concluded that this claim was procedurally defaulted, [Doc. 27-14 at 50], and it is thus
barred before this Court.

Petitioner cannot demonstrate prejudice as it is not

reasonably probable that a verdict form that permitted the jury to designate that the
death sentence be imposed for one of or both of the murders would have resulted in a
different sentence. For these reasons, this Court concludes that Petitioner is not
entitled to relief for this claim.

F. Claim that Trial Court Allowed the Invalid Verdict to Stand
As this Court has concluded that the jury’s death verdict was not invalid, it
necessarily follows that the trial court did not err in accepting that verdict and
sentencing Petitioner to death.

This Court further disagrees with Petitioner’s

contention that “the trial court found factors in imposing a death sentence that were not
necessarily found by the jury.” [Doc. 47 at 143]. As noted above, the jury found,

59
AO 72A
(Rev.8/82)

Pet. App. 123

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 60 of 102

beyond a reasonable doubt, the presence of ten aggravating circumstances that were
each specifically linked to a murder victim. There was clearly a consensus among the
jurors, and the trial court did not find statutory aggravating circumstances that were not
found by the jury.

G. Claim of Juror Misconduct, Bias, and External Influence
1. Juror’s Purported Reference to the Bible During Deliberations
In relation to the jury, Petitioner first claims that the jurors violated his
constitutional rights when they consulted and relied on the Christian Bible during
penalty phase deliberations. Petitioner raised this claim before the state habeas corpus
court, and that court found as follows:
Petitioner alleges his constitutional right to a fair trial was violated by the
jurors during the sentencing phase when they allegedly relied on the
Bible as an extrajudicial source of information when determining
Petitioner’s death sentence.
Petitioner proffered affidavits from six jurors, James Alford, Charlene
Johnson-Booker, David Peek, Mildred Jones, Monique Sheffield and Bob
Eugene Reynolds, and called two jurors, Charlene Johnson-Booker and
Janice Riley, as witnesses during the evidentiary hearing before this
Court. Respondent proffered counter affidavits from three of the jurors
from whom Petitioner had obtained affidavits, Monique Sheffield, James
Alford and Charlene Johnson-Booker. After review of this testimony this
Court finds that the jurors that determined Petitioner’s sentence did not
rely upon biblical scripture in deciding Petitioner’s sentence of death.

60
AO 72A
(Rev.8/82)

Pet. App. 124

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 61 of 102

Mr. Alford stated that the jury was led in prayer prior to deliberation,
however, he also testified that “there were no discussions about Biblical
scriptures” and he did “not recall seeing a Bible in the jury room.” Ms.
Sheffield stated in her affidavit that “we began each session with prayer
for guidance in our decision making,” but clarified that statement by
subsequently testifying, “I did not base my verdict or sentence on the
prayers. I relied only upon the evidence presented at trial and the judge’s
instructions.” In the affidavits submitted by Petitioner from Mr. Peek,
Ms. Jones and Mr. Reynolds, the affiants do not mention prayer or the
Bible.
In the affidavit submitted by Petitioner from Ms. Johnson-Booker, she
does state that she and other jurors discussed scripture and “how it
applied to guide our decisionmaking.” However, when called by
Petitioner during the evidentiary hearing before this Court, Ms.
Johnson-Booker fully explained this statement. Ms. Johnson-Booker
testified that she did have discussions of biblical scripture but went on to
state the following:
We had discussions, but it was not to determine how we
should sentence him. It was basically just comfort for us
because it was a very difficult decision for us to make. So,
we were not trying to say, you know, we’ll take this Bible
and this Bible says that we should do this. That was not
how it was used.
Ms. Johnson-Booker went on to state that the Bible was used “just as
comfort” and was “not used to say, you know, God says we should do
such-and-such.” Moreover, she testified:
None of us were Bible scholars, so we didn’t even get that
deep into it. We didn’t have Biblical discussions at all. We
did what we were supposed to do. So, it didn’t turn into
your beliefs versus my beliefs, and any of that. That was not
what happened.
Further, Ms. Johnson-Booker only recalled opening the Bible after the
“final decision” but only for “comfort” to “endure” what she was having
61
AO 72A
(Rev.8/82)

Pet. App. 125

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 62 of 102

to go through. Again, Ms. Johnson-Booker, stated that the Bible was
“never used to determine how we should sentence Mr. Sealey, never, ever
used in that way” and that the jurors knew they “could not mix faith and
the system.” Moreover, she testified that she did not believe the Bible
passage that was viewed after the decision referenced punishment for
certain acts. Finally, Ms. Johnson-Booker testified that her decision to
convict and sentence Petitioner to death was based “[s]olely upon the
evidence” that was presented at trial.
Petitioner’s argument that the jury relied “heavily” on the Bible during
deliberations is not borne out by the evidence before this Court. In fact,
Petitioner misquotes one of own his witnesses, Mildred Jones, by stating
that she testified in her affidavit that the jurors “relied upon prayer to
reach the verdict of death after the jury was initially ‘divided roughly
down the middle.’” (Petitioner’s Brief, pp. 94-95). Ms. Jones actually
stated the following:
When the sentencing phase concluded and we began our
deliberations, our initial vote was divided roughly down the
middle, half voting for a life without parole sentence and
half voting for a death sentence. We talked long and hard
about the sentencing because this was not an easy decision.
Several members of the jury were having a difficult time
with the death sentence. When this happened, one of the
things we would do was revisit the crime scene photos as a
way to get us all on the same page. What prompted me
personally to vote for a guilty verdict and ultimately death
were the crime scene photos. They were horrible. We also
had group prayer during this time to help us with our
decision-making.
[Doc. 27-14 at 40-42 (citations to the state court record omitted)].
Based on the foregoing, the state habeas corpus court further found that biblical
scripture did not influence the jury’s sentencing decision and concluded that Petitioner

62
AO 72A
(Rev.8/82)

Pet. App. 126

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 63 of 102

had failed to demonstrate that the jurors used the Bible as an improper source of
information in fixing Petitioner’s death sentence. [Id. at 42-43].
In arguing that the state court’s decision is not entitled to deference under
§ 2254(d), Petitioner (1) relies heavily on the affidavit of a juror and wholly ignores
that juror’s testimony at the state habeas corpus hearing where she fully clarified her
affidavit statements and (2) and misquotes another juror’s affidavit.
This Court has reviewed the testimony and affidavits of the various jurors that
testified before the state habeas corpus court and finds that the state court’s findings
of fact are reasonable in light of the evidence presented. Based on those facts, this
Court concludes that the state court’s decision was not contrary to, and did not involve
an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court. As such, this Court is constrained by § 2254(d) from granting
Petitioner relief as to this claim.

2. Other Allegations of Juror Misconduct
Petitioner further alleges that the jurors prematurely discussed evidence
presented at trial prior to deliberation, discussed media coverage and jury members
slept through portions of the trial. The state habeas corpus court concluded that these
claims were procedurally defaulted and that Petitioner had failed to establish cause and

63
AO 72A
(Rev.8/82)

Pet. App. 127

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 64 of 102

prejudice to overcome the procedural bar. [Doc. 27-14 at 44]. The state court
alternatively held that Petitioner had failed to establish this claim of juror misconduct
because the evidence he sought to use to establish this claim – juror affidavits – are
inadmissible to impeach a verdict under Georgia law. [Id.].
Even if Petitioner were to establish that these claims of juror misconduct were
not procedurally barred before this Court and, further, that this Court should not defer
to the state court’s holding under § 2254(d), this Court would nonetheless deny relief
because it is likewise prevented from considering the juror affidavits under Fed. R.
Evid. 606(b). That rule provides that in a challenge to the validity of a verdict, jurors
may not testify to most matters pertaining to the jury’s deliberations or to the mental
processes of any juror. Jurors may testify only “on the question whether extraneous
prejudicial information was improperly brought to the jury’s attention or whether any
outside influence was improperly brought to bear upon any juror.” Rule 606(b) clearly
applies to § 2254 proceedings. Fed. R. Evid. 1101(e); e.g., Fields v. Brown, 431 F.3d
1186, 1207 (9th Cir. 2005); Williams v. Price, 343 F.3d 223, 230 n.3 (3d Cir. 2003);
Gosier v. Welborn, 175 F.3d 504, 511 (7th Cir. 1999).
The only such testimony that might fall outside of the Rule 606(b) restriction is
that which relates to Petitioner’s claim that members of the jury engaged in
conversations with a bailiff. However, Petitioner has provided no evidence that the

64
AO 72A
(Rev.8/82)

Pet. App. 128

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 65 of 102

conversations between the bailiff and any juror were inappropriate such that the bailiff
provided extraneous prejudicial information to or otherwise improperly influenced a
juror. See Fullwood v. Lee, 290 F.3d 663, 680 (4th Cir. 2002).
Plaintiff cites Turner v. Louisiana, 379 U.S. 466, 472 (1965), for the proposition
that “private communications with the bailiff – even if they concern matters outside
the trial – are presumptively prejudicial because they bias the jury against the
defendant and in favor of the State.” [Doc. 47 at 153]. This is an incorrect statement
of the law. The Constitution “does not require a new trial every time a juror has been
placed in a potentially compromising situation . . . [because] it is virtually impossible
to shield jurors from every contact or influence that might theoretically affect their
vote.” Smith v. Phillips, 455 U.S. 209, 217 (1982). In Turner, the case cited by
Petitioner, the two bailiffs that were in charge of transporting and arranging meals for
the sequestered jurors of a murder trial were also the star witnesses for the prosecution
of the defendant Turner’s murder trial who arrested Turner and testified as to his
confession. The facts of that case differ markedly from Petitioner’s allegations of
interactions between the jury and the bailiff at his trial where the jurors merely talked
to the bailiff regularly and “became friendly enough with him to learn that he was set
to retire not long after the trial.” [Doc. 47 at 153 (quotation omitted)].

65
AO 72A
(Rev.8/82)

Pet. App. 129

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 66 of 102

Accordingly, this Court concludes that Petitioner has failed to establish that he
is entitled to relief with regard to his claims of jury irregularities.

H. Claim that Trial Court Erred in Refusing to Admit Results of Polygraph
Turning again to the polygraph test that Sherry Tubner failed, discussed above
in relation to Petitioner’s claims of ineffective assistance of counsel, see supra §
III.A.4.a, Petitioner claims that the trial court violated his due process rights in refusing
to permit the defense to present testimony regarding the test because of the exculpatory
and mitigating nature of the evidence. This Court points out that the defense sought
to present the results of the polygraph test during the guilt phase of the trial, not the
penalty phase, and as noted above, trial counsel was not ineffective in failing to present
the evidence during the penalty phase.

Longstanding precedent has held that

polygraph results are inadmissible during the guilt phase of a trial, and neither the
Supreme Court nor the Eleventh Circuit has held that the Constitution mandates
admission of such evidence.
Moreover, Polygraph tests are notoriously unreliable, see United States v.
Scheffer, 523 U.S. 303, 310 (1998) (citing one study which found polygraph
assessments of truthfulness to be “little better than could be obtained by the toss of a
coin.”), and courts have held that polygraph test results can be excluded from a death

66
AO 72A
(Rev.8/82)

Pet. App. 130

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 67 of 102

penalty sentencing trial on that basis. United States v. Catalan-Roman, 368 F. Supp.
2d 119, 122 (D.P.R. 2005); Goins v. Angelone, 52 F. Supp. 2d 638, 675 (E.D. Va.,
1999). Some courts have held that polygraph results can be admitted during the
sentencing phase of a death penalty trial, but there is no constitutional mandate
requiring courts to allow such evidence. Goins v. Angelone, 226 F.3d 312, 326 (4th
Cir. 2000) (“[T]he Constitution does not mandate admission of polygraph results in
capital sentencing proceedings.”) abrogated on other grounds Bell v. Jarvis, 236 F.3d
149, 182 (4th Cir. 2000). In short, this Court concludes that Petitioner has failed to
state a claim under § 2254 regarding the failure of the trial court to admit the results
of the polygraph test.

I. Claim Regarding the Grand and Traverse Jury Venires
Petitioner next brings claims regarding the venires used to make up the grand
jury that indicted him and the traverse jury that convicted him and sentenced him to
death. He claims that the venires underrepresented African Americans, Hispanics,
young persons and poor persons. Petitioner further asserts that the Clayton County
jury commission excluded persons below a predetermined level of intelligence from
service on the grand jury.

67
AO 72A
(Rev.8/82)

Pet. App. 131

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 68 of 102

With respect to his contention that distinctive groups are underrepresented,
[d]iscriminatory selection of a jury venire may be challenged under the
Sixth Amendment’s requirement that the venire reflect a fair cross-section
of the community. Duren v. Missouri, 439 U.S. 357 (1979). To establish
a prima facie violation of the fair cross-section requirement, a petitioner
must show (1) that the group underrepresented is a distinctive group in
the community, (2) that the underrepresentation in the venire is not fair
and reasonable in relation to the group’s number in the community, and
(3) that this underrepresentation is due to systematic exclusion of the
group from the selection process. Duren, 439 U.S. at 364.
Cunningham v. Zant, 928 F.2d 1006, 1013 (11th Cir. 1991) (footnote omitted). If a
defendant fails to establish any of these elements he has failed to establish a prima
facie violation of the sixth amendment. United States v. Pepe, 747 F.2d 632, 649 (11th
Cir. 1984).
In affirming Petitioner’s conviction and sentence, the Georgia Supreme Court
held as follows:
[Petitioner] further contends that the source lists from which his grand
and traverse juries were drawn unlawfully under-represented Hispanic
persons. This claim must fail on appeal, as [Petitioner] failed to present
evidence showing Hispanic persons constituted a cognizable group in the
county or any evidence establishing either the existence of actual
under-representation or the degree thereof.
Sealey v. State, 593 S.E.2d at 338.
Ignoring the question of whether this claim (or part of it) is unexhausted and/or
procedurally barred from this Court’s review, it is clear that Petitioner has failed to
establish a claim under Duren as he has not presented evidence to establish that the

AO 72A
(Rev.8/82)

68

Pet. App. 132

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 69 of 102

underrepresentation in the venire is not fair and reasonable in relation to the group’s
number in the community.
To determine whether the representation was fair and reasonable, we are
only concerned with the “absolute disparity” produced by the selection
process. United States v. Maskeny, 609 F.2d 183, 190 (5th Cir. 1980)
(rejecting comparative disparity and standard deviation analysis); United
States v. Butler, 611 F.2d 1066, 1069-70 (5th Cir.), reh’g denied, 615
F.2d 685, 686 (1980) (other statistical methods not necessary when small
absolute disparity shown and minority more than ten percent of
population). The relevant comparison for sixth amendment fair
cross-section purposes is the comparison between the percentage of the
“distinctive group” on the qualified wheel and the percentage of the
“distinctive group” among the population eligible for jury service. See
United States v. Esle, 743 F.2d 1465, 1478 (11th Cir. 1984) (Tjoflat, J.,
concurring).
Pepe, 747 F.2d at 649.
Petitioner has not pointed to anything in the record from which this Court can
determine any disparity between the percentage of Hispanics or African Americans (or
any other distinctive group) in the community and the percentage of those groups in
the grand and traverse jury venires.
As to his claim that the jury commission excluded individuals from the grand
jury pool below a predetermined education level, the Georgia Supreme Court reviewed
this claim and held as follows:
[Petitioner] contends that his indictment was invalid under Georgia
statutory law because the jury commissioners excluded some persons
from grand jury service based on their levels of education in an attempt
to comply with the statutory directive that grand jurors be selected from
“the most experienced, intelligent, and upright citizens of the county.”
AO 72A
(Rev.8/82)

69

Pet. App. 133

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 70 of 102

O.C.G.A. § 15-12-40(a)(1). Contrary to [Petitioner]’s statement in his
oral argument that the jury commissioners required a high school
education for grand jury service, our review of the record reveals that
[Petitioner] failed to present evidence clearly showing what educational
requirement was applied. In fact, the testimony actually elicited indicated
nothing more specific than that the commissioners had required
prospective grand jurors to “have a third-grade education or something.”
The testimony also indicated that each prospective grand juror removed
as a candidate for the grand jury source list was replaced with a candidate
from the same race and sex categories. Under the facts in evidence in this
case, we decline to depart from our previous position that, unlike
constitutional requirements, the statutory procedures for creating the
[grand jury] list are merely directory, and do not create a basis for
sustaining challenges to the array.
Sealey, 593 S.E.2d at 337-38 (Ga. 2004) (case citations and quotations omitted).
As Respondent points out, Petitioner brought this claim only under state law
before the state court, and a constitutional claim is thus unexhausted and procedurally
barred before this Court. Moreover, this Court has reviewed the record in relation to
this claim, and concludes that the state court is correct: there simply is no evidence
that the jury commission in Clayton County excluded any potential grand jurors based
on their education or intelligence. Accordingly, this Court concludes that Petitioner
has failed to establish this claim as well.

70
AO 72A
(Rev.8/82)

Pet. App. 134

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 71 of 102

J. Claims Regarding Voir Dire Restrictions
Petitioner claims that the “the trial court unconstitutionally forbid trial counsel
from pursuing numerous lines of questioning designed to uncover hidden bias and
ascertain prospective jurors’ suitability to serve on a capital jury.” [Doc. 47 at 174].
According to Petitioner, the trial court would not permit trial counsel to ask a
prospective juror what the term “murder” meant, whether “a prospective juror
understood that a murder conviction requires the State to prove guilt beyond a
reasonable doubt,” and whether a panel member “would be able to serve as foreman
and sign a jury verdict form if the other members of the juror voted for the death
penalty.” [Doc. 47 at 176]. Meanwhile, the trial court permitted the prosecutor to ask
panel members whether they would “require the state to show you a hundred percent
proof of guilt before you would consider the death penalty.” [Id.]. The record shows
that the trial court would not permit trial counsel to ask these questions based upon the
court’s opinion that it is improper to inquire about a panel member’s understanding of
legal concepts or to pose questions that ask the juror to prejudge the case using
hypotheticals.
“The Constitution . . . does not dictate a catechism for voir dire, but only that the
defendant be afforded an impartial jury.” Morgan v. Illinois, 504 U.S. 719, 731
(1992). “A judge has substantial discretion in conducting the voir dire examination of
71
AO 72A
(Rev.8/82)

Pet. App. 135

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 72 of 102

jurors.” United States v. Salazar, 480 F.2d 144, 145 (5th Cir. 1973). “Where the
procedure used for testing impartiality created a reasonable assurance that prejudice
would be discovered if present, no abuse of discretion may be found.” United States
v. Holman, 680 F.2d 1340, 1344 (11th Cir. 1982). While the Supreme Court has
reversed cases for what it saw as an insufficient voir dire, those reversals happen when
the Court has determined that the voir dire process was deemed unfair based on the fact
that the judge would not permit a defense counsel to make a particular inquiry. E.g.,
Morgan, 504 U.S. at 731 (holding that prospective jurors in death penalty cases must
be asked whether they would impose a death penalty for a murderer in every instance).

Petitioner raised these claims in his appeal, and in affirming, the Georgia
Supreme Court reviewed the voir dire colloquies of the specific jurors being
questioned by trial counsel when the trial court sustained the prosecution’s objections
and held that “[t]he juror’s responses sufficiently indicate the juror’s willingness to
consider all three possible sentences upon a conviction for murder when those
responses are read in the light of the trial court’s initial instructions and of the entirety
of the questioning of the juror by the trial court and the parties.” Sealey, 593 S.E.2d
at 338 (citations and quotations omitted). Having read the colloquies of the jurors in

72
AO 72A
(Rev.8/82)

Pet. App. 136

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 73 of 102

question, this Court agrees with the state court and thus defers to the court’s decision
under § 2254(d).
Moreover, in a broader sense, this Court has reviewed the entire voir dire and
finds that the questions posed by the court, by the prosecutors and by trial counsel
provided reasonable assurance that bias would be discovered if present. The trial court
asked each of the jurors whether they were conscientiously opposed to the death
penalty; whether they believed that the death penalty is the only appropriate
punishment for murder; and whether, in the event of a conviction, they would be
willing to consider a life sentence, a life sentence without parole, and the death penalty
after hearing the evidence and argument of the prosecution and the defense. The
prosecution and the defense were then permitted to ask questions.
With respect to the specific claims that Petitioner raises, the trial court’s
instructions to the jury clearly defined the concept of malice murder and what the state
was required to prove in order for the jury to convict Petitioner, and Petitioner has not
overcome the presumption that the jury understood and properly applied those
instructions. As such, there is no basis for this Court to find, as Petitioner claims, that
the jury imposed Petitioner’s death sentence after convicting him of manslaughter or
negligent homicide. Likewise, the trial court clearly and repeatedly informed the jury
of the state’s burden to prove Petitioner’s guilt beyond a reasonable doubt, and
73
AO 72A
(Rev.8/82)

Pet. App. 137

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 74 of 102

Petitioner has failed to establish that asking prospective jurors about their
understanding of the state’s burden would uncover some hidden bias. For these
reasons, this Court concludes that Petitioner has failed to demonstrate that he is entitled
to relief with respect to his claims regarding voir dire.

K. Claim that the Trial Court Failed to Remove Jurors that Were Predisposed in
Favor of the Death Penalty
According to Petitioner, the trial court erred in failing to remove for cause two
jurors – Leon Williams and William George McKiever – who Petitioner claims “were
incapable of giving proper consideration to mitigating evidence or a sentence less than
death.”
Neither of those two individuals, however, served on Petitioner’s jury. Under
Georgia law, death penalty defendants are entitled to 42 qualified jurors, and the
erroneous qualifying of a single juror for the panel from which the jury was struck
requires reversal. Lively v. State, 421 S.E.2d 528 (Ga. 1992). Conversely, under
federal constitutional law, if a biased panel member does not serve on the jury,
Petitioner cannot have been prejudiced by the trial court’s refusal to strike that
individual for cause even though Petitioner was required to use a peremptory strike to
avoid having that panel member serve. “[I]f [a] defendant elects to cure [a trial judge’s
74
AO 72A
(Rev.8/82)

Pet. App. 138

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 75 of 102

erroneous for-cause ruling] by exercising a peremptory challenge, and is subsequently
convicted by a jury on which no biased juror sat,” the Supreme Court has held that the
criminal defendant “has not been deprived of any . . . constitutional right.” United
States v. Martinez-Salazar, 528 U.S. 304, 307 (2000). Indeed, the “use [of] a
peremptory challenge to effect an instantaneous cure of the error” demonstrates “a
principal reason for peremptories: to help secure the constitutional guarantee of trial
by an impartial jury.” Id. at 316; see also Ross v. Oklahoma, 487 U.S. 81, 88 (1988)
(rejecting “the notion that the loss of a peremptory challenge constitutes a violation of
the constitutional right to an impartial jury”). Because neither Mr. Williams nor Mr.
McKiever served on Petitioner’s jury, he cannot establish a claim under § 2254 based
on the trial court’s failure to remove those panel members for cause.
Moreover, as pointed out by Respondent, the Georgia Supreme Court ruled that
Petitioner had abandoned this claim. Sealey, 593 S.E.2d at 338. A state court
determination that a claim was abandoned bars review of that claim under § 2254,
Brownlee v. Haley, 306 F.3d 1043, 1066–67 (11th Cir. 2002). Mr. McKeiver was
removed for cause – albeit for having a felony conviction rather than for any bias
indicated in his voir dire responses – and Petitioner cannot, therefore, demonstrate
cause to overcome the procedural default as to that panel member. With respect to Mr.
Williams, this Court agrees with Respondent’s discussion, [Doc. 52 at 294-99], that
75
AO 72A
(Rev.8/82)

Pet. App. 139

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 76 of 102

a review of Mr. Williams’ entire voir dire testimony, rather than merely the cherrypicked statements cited by Petitioner, reveals that Mr. Williams intended to follow the
law and consider all sentencing options in light of the evidence presented during the
trial. As a result this Court concludes that the trial court did not abuse its discretion
in finding him qualified. For these reasons, this Court concludes that Petitioner is not
entitled to relief on his claim that the trial court erred in failing to strike certain jurors
for cause.

L. Claim That the Trial Court Erred in Denying Petitioner’s Motion for a Change
of Venue
Citing various press reports regarding the murders of the Tubners and arguing
that this media coverage influenced members of his jury, Petitioner claims that the trial
court violated his rights to a fair trial by denying his motion for a change of venue. As
Respondent points out and Petitioner admits, this claim is procedurally defaulted.
Petitioner did not raise the claim on appeal, and when Petitioner raised it before the
state habeas court, that court ruled that the claim was procedurally defaulted and that
Petitioner had failed to demonstrate cause and prejudice to overcome the default.
[Doc. 27-14 at 54-55]. It thus follows that the claim is procedurally barred before this
Court.
76
AO 72A
(Rev.8/82)

Pet. App. 140

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 77 of 102

Petitioner attempts to argue cause and prejudice by asserting that trial/appellate
counsel was ineffective for failing to pursue the motion and failing to raise the claim
in Petitioner’s appeal. However, the Eleventh Circuit has recognized a strong
presumption that counsel’s decisions at trial constitute sound trial strategy, Jennings
v. McDonough, 490 F.3d 1230, 1234 (11th Cir. 2007), and Petitioner has presented no
evidence or argument to overcome that presumption and that might tend to show that
trial counsel did not have a sound strategic reason for wanting to keep the case in
Clayton County. Accordingly, Petitioner has failed to demonstrate cause to overcome
the procedural bar, and he is not entitled to relief on his claim that the trial court erred
in failing to grant his motion to change venue.

M. Claim that Petitioner was Incompetent During his Trial
In his Claim XV, Petitioner asserts two related claims (1) that he was not
mentally competent to stand trial, and (2) that the trial court violated Petitioner’s due
process rights by failing to hold a competency hearing. The state habeas corpus court
held that both of these claims were procedurally defaulted. [Doc. 27-14 at 56]. The
first claim – that Petitioner was tried while incompetent – is not subject to procedural
default under § 2254 review, Adams v. Wainwright, 764 F.2d 1356, 1359 (11th Cir.
1985), and is thus entitled to de novo review. The second claim, regarding the trial
77
AO 72A
(Rev.8/82)

Pet. App. 141

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 78 of 102

court’s failure to hold a competency hearing, is subject to procedural default. Because,
as this Court determines below, Petitioner has failed to establish his incompetence at
the time of his trial, Petitioner cannot establish prejudice to overcome procedural bar
to the second claim.
The trial of an incompetent defendant violates his substantive due process rights
under the Sixth and Fourteenth Amendments. Dusky v. United States, 362 U.S. 402,
402 (1960). “Competence to proceed to trial . . . requires the defendant to possess the
capacity to understand the nature and object of the proceedings against him, to consult
with counsel, and to assist in preparing his defense. Every defendant has a substantive
fundamental right under the Due Process Clause not to be tried or convicted while
incompetent.” United States v. Wingo, 789 F.3d 1226, 1234–35 (11th Cir. 2015).
However, “not every manifestation of mental illness demonstrates incompetence to
stand trial.” Medina v. Singletary, 59 F.3d 1095, 1107 (11th Cir. 1995) (“[N]either
low intelligence, mental deficiency, nor bizarre, volatile, and irrational behavior can
be equated with mental incompetence to stand trial.”).
In Lawrence v. Sec., Florida Dept. of Corrections, 700 F.3d 464, 481 (11th Cir.
2012), the Eleventh Circuit evaluated a claim that a § 2254 petitioner, Lawrence, was
incompetent to stand trial and sought an evidentiary hearing to prove it. According to
the Eleventh Circuit:
78
AO 72A
(Rev.8/82)

Pet. App. 142

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 79 of 102

In advancing his substantive competency claim, Lawrence “is entitled to
no presumption of incompetency and must demonstrate his . . .
incompetency by a preponderance of the evidence.” James v. Singletary,
957 F.2d 1562, 1571 (11th Cir. 1992). Relatedly, we have said that in
order to be entitled to an evidentiary hearing on a substantive competency
claim, which Lawrence seeks here, a petitioner must present “clear and
convincing evidence” that creates a “real, substantial, and legitimate
doubt” as to his competence. Id. at 1573; accord Medina, 59 F.3d at
1106; Card v. Singletary, 981 F.2d 481, 484 (11th Cir. 1992) (“The
standard of proof is high. The facts must positively, unequivocally and
clearly generate the legitimate doubt.” (alterations and quotation marks
omitted)).
Lawrence v. Sec., Florida Dept. of Corrections, 700 F.3d 464, 481 (11th Cir. 2012).
According to Petitioner, the psychiatrist who interviewed Petitioner prior to his
trial stated that “there was ‘something very wrong’ with Petitioner, that he was
‘extremely paranoid,’ unable to focus, and possibly decompensating.” [Doc. 47 at
192]. The psychiatrist noted that Petitioner “likely suffered from an organic brain
problem that originated sometime in his early childhood.” [Id.]. A neuropsychologist
examined Petitioner prior to the state habeas corpus proceedings and “concluded that
Petitioner suffered from ‘organic brain syndrome and borderline mental retardation of
intellectual functions.’” [Id.]. Experts testified that Petitioner’s IQ was in the mid-70s
to low 80s and that he was impaired. [Id. at 192-93].
This evidence falls short of meeting the standard discussed in Lawrence for
obtaining a hearing or establishing incompetence.

In Wright v. Secretary for

Department of Corrections, 278 F.3d 1245 (11th Cir. 2002), cited in Lawrence, the
79
AO 72A
(Rev.8/82)

Pet. App. 143

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 80 of 102

Eleventh Circuit held that the petitioner’s chronic schizophrenia was “not enough to
create a real, substantial, and legitimate doubt as to whether he was competent to stand
trial,” even though the petitioner had been deemed incompetent to stand trial seven and
eight months after his trial, as well as seventeen years prior to his trial. Id. at 1259.
These facts did not counter the best evidence of what his mental condition was at the
time of trial: his behavior during that time and how he related to and communicated
with others then. Id. Based on evidence that the petitioner behaved in a “perfectly
normal fashion” leading up to trial and during trial, the court held that his substantive
competency claim failed on the merits. Id.
In Petitioner’s case, a review of the transcript of the two hearings held a week
before the trial demonstrate Petitioner’s competence. Those hearings are described
more fully above in relation to Petitioner’s claim that the trial court violated his right
to represent himself. See supra discussion at § 4.B. From a review of the transcripts
of those hearings, [see Docs. 16-30 at 4-31; 16-31 at 2-19], it is abundantly clear that
Petitioner fully understood the nature of the proceedings against him and that he was
capable of assisting his trial counsel in his defense.4 At those hearings Petitioner

4

Petitioner points to his attempt to dismiss trial counsel and represent himself
just a week before trial as evidence of his “increasingly paranoid and irrational
behavior.” [Doc. 47 at 193]. However, paranoia and irrationality are not the standard.
It does not matter that Petitioner might have made bad choices or that he did not agree
with trial counsel about how to defend the case.
80
AO 72A
(Rev.8/82)

Pet. App. 144

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 81 of 102

conversed cogently with the trial judge; he indicated that he had called several
attorneys in an attempt to find someone to act as standby counsel; he obviously
understood the proceedings; and he demonstrated his ability to assist in his defense by
virtue of the fact that he discussed his dissatisfaction with trial counsel for failing to
properly investigate purported exculpatory evidence that he had told trial counsel
about. Put simply, Petitioner has failed to meet his burden to demonstrate that he was
incompetent at the time of his trial.

N. Claims Regarding the Trial Courts Instructions to the Jury
Petitioner claims that the trial court’s instructions to the jury at the close of both
phases of the trial violated his constitutional rights. Petitioner’s arguments, however,
are decidedly conclusory in nature. He does little more than point to seven instructions
and provide a brief argument that the instructions “failed to ensure that the death
sentence was imposed consistent with the statutory sentencing scheme upon which the
constitutionality of the Georgia death penalty is premised.” [Doc. 47 at 197]. He then
provides a string of citations to cases that tangentially relate to a few the instructions
that he challenges. Otherwise, Petitioner neglects to provide sufficient substantive
argument to explain why a particular instruction failed to meet constitutional

81
AO 72A
(Rev.8/82)

Pet. App. 145

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 82 of 102

requirements as set by the Supreme Court (or any other court). As noted above, this
Court may not provide Petitioner’s theory of liability for him. Fils, 647 F.3d at 1284.
This Court has reviewed the jury instructions from both phases of the trial and
concludes that, when each is read in its entirety, the instructions fully satisfy the
requirements of the Constitution.

This Court further credits the discussion of

Respondent regarding the specific instructions that Petitioner challenges. [Doc. 52 at
330-39]. In summary, this Court concludes that Petitioner has failed to establish that
he is entitled to relief with respect to his claim that the trial court erred in instructing
the jury.

O. Claims Regarding Prosecutorial Misconduct
Petitioner raises various instances of what he refers to as prosecutorial
misconduct. He contends that prosecutors (1) improperly introduced inflammatory
testimony and photographs, (2) raised improper arguments during his closing argument
at the penalty phase of the trial, (3) introduced evidence of prior crimes in an attempt
to show that Petitioner had committed those crimes even though he was not convicted
of them, and (4) that a prosecutor had a conflict of interest.5

5

In the section of his brief raising these claims, Petitioner also complains that
the prosecution improperly introduced prejudicial victim impact testimony. However,
he does not discuss or cite to any victim impact testimony that purportedly violated his
82
AO 72A
(Rev.8/82)

Pet. App. 146

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 83 of 102

The claims numbered 1 and 3 above raise evidentiary issues rather than issues
of prosecutorial misconduct. Evidentiary rulings in state court are generally a matter
of state, not constitutional, law, Cronnon v. State of Ala., 587 F.2d 246, 250 (5th Cir.
1979) (“The mere violation of evidentiary rules by the state trial court does not in itself
invoke habeas corpus relief, but only where the violation of the state’s evidentiary
rules results in a denial of fundamental fairness should habeas be granted.”) (quotation
and citation omitted), and this Court reviews state court evidentiary rulings in a § 2254
habeas corpus proceeding to determine only “‘whether the error, if any, was of such
magnitude as to deny petitioner his right to a fair trial.’” Futch v. Dugger, 874 F.2d
1483, 1487 (11th Cir. 1989) (quoting Osborne v. Wainwright, 720 F.2d 1237, 1238
(11th Cir. 1983)). Erroneously admitted evidence deprives a defendant of fundamental
fairness only if it was a “‘crucial, critical, highly significant factor’” in the outcome of
the proceeding. Williams v. Kemp, 846 F.2d 1276, 1281 (11th Cir. 1988) (quoting
Jameson v. Wainwright, 719 F.2d 1125, 1126-27 (11th Cir. 1983)). In order to
demonstrate that he is entitled to relief, Petitioner must show that the evidence was
inflammatory or gruesome and so critical that its introduction denied petitioner a
fundamentally fair trial. Futch v. Dugger, 874 F.2d at 1487; see also Dickson v.
Wainwright, 683 F.2d 348, 350 (11th Cir. 1982) (“An evidentiary error does not justify

rights.
83
AO 72A
(Rev.8/82)

Pet. App. 147

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 84 of 102

habeas relief unless the violation results in a denial of fundamental fairness.”).
Moreover, the limits placed on the admission of evidence during the guilt phase of a
criminal trial are significantly relaxed during sentencing. United States v. Watts, 519
U.S. 148, 151 (1997).
Tribunals passing on the guilt of a defendant always have been hedged in
by strict evidentiary procedural limitations. But both before and since the
American colonies became a nation, courts in this country and in England
practiced a policy under which a sentencing judge could exercise a wide
discretion in the sources and types of evidence used to assist him in
determining the kind and extent of punishment to be imposed within
limits fixed by law.
Williams v. People of State of N.Y., 337 U.S. 241, 246 (1949) (footnotes omitted).
Highly relevant – if not essential – to [a sentencer’s] selection of an
appropriate sentence is the possession of the fullest information possible
concerning the defendant’s life and characteristics. And modern concepts
individualizing punishment have made it all the more necessary that a
[sentencer] not be denied an opportunity to obtain pertinent information
by a requirement of rigid adherence to restrictive rules of evidence
properly applicable to the trial.
Id. at 247.
The Supreme Court has made it clear that in order to achieve required
“heightened reliability[ ]” during the penalty phase of a capital case, more evidence,
not less, should be admitted on the presence or absence of aggravating and mitigating
factors.” Gregg v. Georgia, 428 U.S. 153, 203-04 (1976). The Supreme Court has
further stated that “consideration of a defendant’s past conduct as indicative of his
84
AO 72A
(Rev.8/82)

Pet. App. 148

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 85 of 102

probable future behavior is an inevitable and not undesirable element of criminal
sentencing: ‘any sentencing authority must predict a person’s probable future conduct
when it engages in the process of determining what punishment to impose.’ ” Skipper
v. South Carolina, 476 U.S. 1, 5 (1986) quoting Jurek v. Texas, 428 U.S. 262, 275
(1976) (opinion of Stewart, Powell, and Stevens, JJ.).

1. Victim Photograph Evidence
With respect to the victim photographs that the prosecution put into evidence,
Petitioner complains that the nearly fifty photographs of the victims were too graphic
and too many.

The state habeas corpus court concluded that this claim was

procedurally defaulted before that court. [Doc. 27-14 at 57]. In attempting to establish
cause and prejudice to raise the procedural bar in this Court, Petitioner asserts a claim
of ineffective assistance of counsel for failing to object to the introduction of the
photographs. However, Petitioner cannot demonstrate that his trial counsel was
ineffective as he cannot demonstrate prejudice. It is clear that any objection by trial
counsel would have been properly overruled as such photographs are routinely shown
to the jury in homicide cases.
The relevance of such photographs is without question. Photographs of homicide
victims are relevant in showing the identity of the victim, the manner of death, the
85
AO 72A
(Rev.8/82)

Pet. App. 149

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 86 of 102

murder weapon, or any other element of the crime. United States v. De Parias, 805
F.2d 1447 (11th Cir. 1986), overruled on other grounds, United States v. De Parias,
805 F.2d 1447 (11th Cir. 1986). To the degree that Petitioner complains that the
number and graphic nature of the photographs rendered the guilt/innocence phase of
his trial unfair, this Court responds that the evidence of Petitioner’s guilt was so
overwhelming that the photographs could not have been a critical or significant factor
in his conviction. Williams v. Kemp, 846 F.2d at 1281.
As to Petitioner’s complaint that the photographs improperly influenced the
jury’s sentencing decision, as noted, the range of evidence permitted for penalty
purposes is much broader. In the case of these photographs, this Court agrees that the
jury should be permitted to see, in graphic form, the horrific nature of Petitioner’s
crimes. See Ramey v. State, 298 S.E.2d 503, 505 (Ga. 1983) (Weltner, J., dissenting)
(“It is true that photographs of such an undertaking will be gory because the truth itself
is gory. Nor may the author of carnage rightfully complain when the jury is exposed
properly to an accurate depiction of his work.”).

2. Prior Crime Evidence
Turning to the evidence of prior, unadjudicated crimes, during the penalty phase
of the trial, the prosecution presented the testimony of a witness who had owned a
86
AO 72A
(Rev.8/82)

Pet. App. 150

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 87 of 102

jewelry store in Atlanta. The upshot of this testimony was that Petitioner had used a
stolen credit card to purchase some jewelry. Further witness testimony established that
the man to whom the credit card had belonged, William Kerry, had been attacked and
murdered in a fairly brutal fashion in his apartment and that his credit cards and other
property had been stolen. Petitioner had used the stolen credit card at the jewelry store
on the same day that Mr. Kerry was murdered, the implication being that Petitioner
murdered Mr. Kerry and stole his credit cards. Testimony included the medical
examiner who testified in fairly graphic fashion regarding Mr. Kerry’s injuries and the
cause of his death, and pictures of Mr. Kerry’s body were shown to the jury. [See
generally Docs. 17-21, 17-22]. It appears that Petitioner was not charged with or
convicted of any crime in relation to the murder or the theft or use of the credit cards.
The prosecution also presented the testimony of a woman who said that
Petitioner had invited her to his apartment where he had held a gun to her head and
raped her. A police officer testified that Petitioner was arrested for the rape, and that
a preliminary hearing was scheduled, but it is not clear what happened at that hearing.
[Id.]. Petitioner likewise was not convicted of any charges in relation to the alleged
rape. Additionally, the prosecution also called several witnesses to the stand to testify
regarding Petitioner’s misconduct while in prision.

87
AO 72A
(Rev.8/82)

Pet. App. 151

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 88 of 102

With respect to the murder of William Kerry, the Georgia Supreme Court
addressed the issue in affirming Petitioner’s conviction and sentence:
The trial court did not err in admitting evidence in the sentencing phase
showing that [Petitioner] had illegally used a man’s credit card shortly
after the man’s murder. Reliable evidence of bad character and of past
crimes is admissible in the sentencing phase of a death penalty trial. The
evidence of [Petitioner]’s illegal use of the man’s credit card was clearly
reliable, and we conclude from our review of the record that the
connection between [Petitioner] and the man’s murder was sufficiently
reliable to allow evidence of the murder to be presented to the jury.
Furthermore, although the charge was erroneous, we also note that the
jury was charged that it was not permitted to consider non-statutory
aggravating circumstances unless they were first proven beyond a
reasonable doubt.
Sealey, 593 S.E.2d at 339 (quotations, alterations, and citations omitted).
With respect to the state court’s finding that the connection between Petitioner
and Mr. Kerry’s murder was sufficiently reliable to allow evidence of the murder to
be presented to the jury, Petitioner has not even attempted to present clear and
convincing evidence to overcome the § 2254(e)(1) presumption of correctness of that
finding. Accordingly, this Court must defer to that finding and the conclusion that
necessarily follows therefrom that the evidence of the murder was relevant and
properly introduced.

88
AO 72A
(Rev.8/82)

Pet. App. 152

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 89 of 102

With regard to the rape allegation, Petitioner did not raise this claim on appeal,
and as such, the claim was procedurally defaulted before the state habeas corpus court6
and is barred before this Court, and Petitioner cannot demonstrate prejudice to
overcome the default. As noted by Respondent, Petitioner’s argument is premised
upon his assertion that prior crimes cannot be presented absent a conviction, and there
simply is no Supreme Court or Eleventh Circuit precedent supporting that argument.
The rape allegation was made by the purported victim who obviously would have had
first-hand knowledge. The witness was subject to cross examination, and trial counsel
had ample opportunity to cast doubt on her testimony during closing argument. In
short, there is no basis for this Court to determine that the evidence was presented in
violation of Petitioner’s constitutional rights.
Finally, with respect to the prison discipline testimony, that type of testimony
is clearly relevant to Petitioner’s future dangerousness and his ability to adapt to prison
life, and this Court finds no error in the trial court permitting the testimony.

3. Improper Prosecutorial Argument

6

Petitioner did not brief the portion of the claim relating to the rape accusation
in his state habeas corpus brief, and the state court did not fully address it other than
stating that, to the degree that a portion of the claim was not raised on appeal, it would
be procedurally defaulted. [Doc. 27-14 at 26 n.2].
89
AO 72A
(Rev.8/82)

Pet. App. 153

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 90 of 102

Under a heading that refers to victim impact evidence, Petitioner asserts that,
during closing argument, the prosecutor made a variety of improper and prejudicial
arguments that deprived Petitioner of his constitutional rights. It is undisputed that
Petitioner never raised this claim before the state courts, and the claim is unexhausted
and barred from consideration before this Court. Snowden, 135 F.3d at 736. Petitioner
makes no argument that cause and prejudice should excuse the default.
Moreover, this Court has reviewed the prosecution’s closing argument from both
phases of the trial and concludes that nothing therein violated Petitioner’s
constitutional rights.

4. Conflict of Interest
According to Petitioner, one of the attorneys on the staff of the Clayton County
District Attorney, Jack Jennings, might have represented Petitioner in a prior criminal
matter.7 The trial court held a hearing on Petitioner’s motion to recuse the Clayton
County District Attorney. [See Doc. 13-21]. At the hearing Mr. Jennings testified that

7

Petitioner claims that Mr. Jennings represented Petitioner in two prior matters.
However, Petitioner has not provided citation to anything in the record to show that
there actually were two matters. As stated in the text, Mr. Jennings only testified to
discussing one case with Petitioner, and he had no recollection of actually working on
Petitioner’s behalf on the case. The Georgia Supreme Court indicated that there were
two matters, but, again there is no evidence to support that supposition, and the state
court might have been simply parroting what Petitioner had claimed in his appeal.
90
AO 72A
(Rev.8/82)

Pet. App. 154

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 91 of 102

he vaguely remembered working with Petitioner on a prior murder charge, but the
representation (if it could be called a representation) was limited, and Mr. Jennings did
not remember anything other than briefly discussing the case with Petitioner. He did
not recall representing Petitioner in court or filing a notice of appearance on
Petitioner’s behalf. [Id. at 6, 10]. After hearing argument and reviewing case law, the
trial court denied the motion to recuse in a ruling grounded in state law. Petitioner
raised this claim in his appeal under state law and the guidelines of the American Bar
Association. In affirming, the Georgia Supreme Court held:
[Petitioner] argues that the entire office of the district attorney should
have been disqualified because one assistant district attorney, while
previously in private practice, had represented [Petitioner] in two
unrelated criminal cases. Because the record confirms that the assistant
district attorney was properly “screened from any direct or indirect
participation” in [Petitioner]’s prosecution in this case, the trial court did
not err in allowing other members of the district attorney’s office to
continue in the case.
Sealey, 593 S.E.2d at 338 (citation omitted).
Petitioner did not raise a claim relating to the prosecution’s purported conflict
in his state habeas corpus petition.
Respondent is correct that this claim is unexhausted and therefore procedurally
barred before this Court because Petitioner raised this claim only on state law grounds
before the Georgia Supreme Court and did not rely on federal constitutional law.
Baldwin v. Reese, 541 U.S. 27, 32 (2004) (§ 2254 petitioner must alert state court of

91
AO 72A
(Rev.8/82)

Pet. App. 155

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 92 of 102

“presence of a federal claim” in order to exhaust). Moreover, based on the facts in the
record, there is no basis to conclude that the trial court’s denial of Petitioner’s motion
to recuse rendered his trial fundamentally unfair or otherwise impinged on Petitioner’s
federal rights. Mr. Jennings barely remembered Petitioner knew nothing incriminating
about Petitioner that was not in the public record, and the trial court prohibited Mr.
Jennings from participating in Petitioner’s case in any manner.

P. Claim that Statutory Aggravating Circumstances Under O.C.G.A.
§§ 17-10-30(b)(2) and (b)(7), Are Unconstitutionally Vague and Arbitrary
Petitioner very briefly argues that the statutory aggravating circumstances found
by the jury do not narrow the class of persons eligible for the death penalty or
reasonably justify the imposition of a death sentence on Petitioner when compared to
others found guilty of murder because the aggravating circumstances as written in the
statute are vague and overbroad. The two aggravating circumstances found by the jury
are found in O.C.G.A. §§ 17-10-30(b)(2) and (b)(7). They state that the death penalty
may be imposed if the jury finds that:
The offense of murder, rape, armed robbery, or kidnapping was
committed while the offender was engaged in the commission of another
capital felony or aggravated battery, or the offense of murder was
committed while the offender was engaged in the commission of burglary
in any degree or arson in the first degree;
92
AO 72A
(Rev.8/82)

Pet. App. 156

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 93 of 102

O.C.G.A. § 17-10-30(b)(2).
The offense of murder, rape, armed robbery, or kidnapping was
outrageously or wantonly vile, horrible, or inhuman in that it involved
torture, depravity of mind, or an aggravated battery to the victim.
O.C.G.A. § 17-10-30(b)(7).
Petitioner first faults the aggravating factor in § 17-10-30(b)(2) because it is
“ostensibly applicable to all felony murders.” [Doc. 47 at 218]. However, this
assertion is simply incorrect. Felony murder under Georgia law occurs when, in the
commission of any felony the defendant causes the death of another human being.
O.C.G.A. § 16-5-1. The § 17-10-30(b)(2) aggravating circumstance arises only when
a limited set of enumerated felonies are committed along with the death. This Court
thus concludes that the § 17-10-30(b)(2) aggravated circumstance as written meets the
requirements of Zant v. Stephens, 462 U.S. 862, 877 (1983).
Petitioner’s argument about the § 17-10-30(b)(7) aggravating circumstance is
that it “could potentially be used to sentence any person who commits murder to death
[because it] is hard to imagine a murder that is not ‘horrible’ or ‘inhuman.’” [Doc. 47
at 218]. In this instance, Petitioner misreads (or ignores part of) the statutory language.
This aggravated circumstance requires more than a finding that the murder was
inhuman. It further requires a finding that the murder involved torture, depravity of
mind, or an aggravated battery to the victim. Again, this Court concludes that the
93
AO 72A
(Rev.8/82)

Pet. App. 157

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 94 of 102

§ 17-10-30(b)(7) aggravated circumstance as written meets the requirements of Zant.
As a result, Petitioner is not entitled to relief as to this claim.

Q. Claim that Death Penalty as Applied in Georgia Violates Equal Protection
Petitioner asserts that Georgia’s application of the death penalty violates Bush
v. Gore, 531 U.S. 98 (2000), which, according to Petitioner, held that when a
fundamental right is at stake, due process requires states to have uniform and specific
standards to prevent the arbitrary and disparate treatment of similarly-situated citizens.
[Doc. 47 at 219]. According to Petitioner, the unfettered discretion of prosecutors in
determining whether to pursue a death sentence results in arbitrary and unequal
treatment. Petitioner further points to cases which he claims were at least as
aggravated as his case where the defendants did not receive the death penalty. This
claim is materially identical to the petitioner’s claim in Crowe v. Terry, 426 F. Supp.
2d 1310, 1354 (N.D. Ga. 2005). In that case, the Honorable Orinda D. Evans, District
Judge of this Court, provided an extensive discussion in denying relief on that claim
in which she pointed out that the system that the Supreme Court criticized in Bush
applied a system for recounting ballots where the rules for determining voter intent
“varied from county to county and ‘within a single county from one recount team to
another.’” Id. (quoting Bush, 531 U.S. at 106). Judge Evans then noted that, in the
94
AO 72A
(Rev.8/82)

Pet. App. 158

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 95 of 102

case of prosecutorial discretion in determining whether to pursue the death penalty,
“no similar risk of unequal treatment is involved.” Id. at 1354-55.
It is true that Georgia prosecutors have discretion to seek the death
penalty; however, “[d]iscretion is essential to the criminal justice process
[and thus] we would demand exceptionally clear proof before we would
infer that the discretion has been abused.” McCleskey v. Kemp, 481 U.S.
279, 297 (1987):
[T]he policy considerations behind a prosecutor’s
traditionally ‘wide discretion’ suggest the impropriety of our
requiring prosecutors to defend their decisions to seek death
penalties, ‘often years after they were made.’ . . . Moreover,
absent far stronger proof, it is unnecessary to seek such a
rebuttal, because a legitimate and unchallenged explanation
for the decision is apparent from the record: McCleskey
committed an act for which the United States and Georgia
laws permit imposition of the death penalty.
Id. at 296-97.
Crowe, 426 F. Supp. 2d at 1355.
Here, the jury found Petitioner guilty of murder and further concluded the
existence of several statutory aggravating circumstances.

Accordingly, the

prosecutor’s decision to seek the death penalty was consistent with Georgia law and
was not arbitrary.
As also pointed out by Judge Evans, the Supreme Court in Gregg expressly
upheld Georgia’s death penalty system, rejecting a claim that the system was
unconstitutional because of a prosecutor’s “unfettered authority to select those persons
95
AO 72A
(Rev.8/82)

Pet. App. 159

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 96 of 102

whom he wishes to prosecute for a capital offense.” Gregg, 428 U.S. at 199. In Gregg,
the Court upheld Georgia’s death penalty scheme because Georgia limits the risk of
arbitrary and capricious action by bifurcating the sentencing proceeding, requiring a
finding of at least one aggravating circumstance, allowing the defendant to introduce
mitigating evidence, requiring an inquiry into the circumstances of the offense and the
propensities of the offender, and providing for automatic, mandatory appeal. The
Supreme Court further explained:
[T]he existence of [ ] discretionary stages is not determinative of the issue
. . . At each of these stages an actor in the criminal justice system makes
a decision which may remove a defendant from consideration as a
candidate for the death penalty . . . . Nothing in any of our cases suggests
that the decision to afford an individual defendant mercy violates the
Constitution . . . . In order to repair the alleged defects pointed to by the
petitioner, it would be necessary to require that prosecuting authorities
charge a capital offense whenever arguably there had been a capital
murder and that they refuse to plea bargain with the defendant . . . . Such
a system in many respects would have the vices of the mandatory death
penalty statutes we hold unconstitutional today.
Id. at 199-200 n. 50; See also Proffitt v. Florida, 428 U.S. 242, 253 (1976) (rejecting
a petitioner’s contention that the Florida death penalty system is arbitrary because the
prosecutor decides whether to charge a capital offense and accept or reject a plea to a
lesser offense).

96
AO 72A
(Rev.8/82)

Pet. App. 160

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 97 of 102

In response to Petitioner’s contention that murders committed by other
defendants which were at least as aggravated as his crimes did not result in the death
penalty, this Court notes that the Georgia Supreme Court held that
Considering both the defendant and the clearly egregious facts of this
torture and double murder case, we conclude that [Petitioner]’s death
sentences are not excessive or disproportionate punishment as compared
to the penalty imposed in similar cases.
Sealey, 593 S.E.2d at 339 (citing O.C.G.A. § 17-10-35(c)(3)). This Court must defer
to this factual determination because Petitioner has not put forth clear and convincing
evidence to demonstrate that the state court was incorrect. 28 U.S.C. § 2254(e)(1); see
Crowe, 426 F. Supp. 2d at 1355.

R. Claim that Execution in this Case Would Violate the Eighth Amendment
Because of Petitioner’s History in Prison and His Mental Status
According to Petitioner, his incarceration from the ages of 17 to 30, had a
“profound effect on his cognitive growth and mental capacity.” [Doc. 47 at 225].
While in prison, he claims that he was subjected to “physical and emotional violence,
staff corruption, and casual brutality,” and prison officials did nothing to ameliorate
these conditions. [Id.]. Petitioner also faults prison officials for failing to rehabilitate
him. [Id.]. Thus, according to Petitioner, “[t]he State’s execution of Petitioner in light

97
AO 72A
(Rev.8/82)

Pet. App. 161

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 98 of 102

of the partial responsibility of other State actors at the United States Bureau of Prisons
for the mental defects and maladaptive behaviors that led to his crime would be cruel,
unusual, and disproportionate” in violation of the Eighth Amendment and Petitioner’s
due process rights. [Id. at 226].
The state habeas corpus court concluded that this claim was not cognizable.
As there is no constitutional protection from the death penalty for career
criminals, this claim fails to raise a constitutional issue for this Court’s
review.
To the extent Petitioner is alleging he suffers from a mental illness due
to this incarceration, there is also no constitutional protection from the
death penalty for mentally ill offenders. While Georgia and federal law
provide that a person who is mentally retarded may not be executed, see
O.C.G.A. § 17-7-131(j); Fleming v. State, 259 Ga. 687 (1989); Atkins v.
Virginia, 536 U.S. 304 (2002), Georgia law expressly does not preclude
a death sentence for someone with a mental illness. See O.C.G.A. §
17-7-131. The Georgia Supreme Court held in Lewis v. State that “unlike
a verdict of guilty but mentally retarded, the statute that provides for a
verdict of guilty but mentally ill does not preclude a death sentence as a
result of such verdict.” 279 Ga. 756, 764 (2005), cert. denied, 126 S. Ct.
1917 (2006).
Therefore, because Petitioner’s sentence does not violate the Eighth
Amendment or state a claim challenging a constitutional right violate
[sic] at trial, it is non-cognizable.
[Doc. 27-14 at 51-52].
Other than stating without citation or further argument that the claim is “plainly
cognizable,” [Doc. 47 at 226], Petitioner has said nothing that would overcome the
deference that the state court’s conclusion enjoys under § 2254(d), and, in any event,
98
AO 72A
(Rev.8/82)

Pet. App. 162

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 99 of 102

this Court wholly agrees with the state court. Accordingly, Petitioner is not entitled
to relief on this claim, and his request for discovery with respect to this claim is denied.

S. Claim that Petitioner’s Execution Would Violate the Eighth Amendment
Because he is the Equivalent of a Juvenile or Mentally Retarded Offender
In a claim similar to the one just discussed, Petitioner asserts that his execution
would violate the Eighth Amendment because he has a “below average” IQ and “his
cognitive growth and mental capacity were severely impacted by his incarceration.”
Petitioner claims he “never really progressed beyond the mental capacity he possessed
at the time of his incarceration at seventeen. As such, while his chronological age is
that of a mature man, his mental capacity is that of a teenager.” [Doc. 47 at 230].
The Supreme Court has prohibited the execution of the mentally retarded, Atkins
v. Virginia, 536 U.S. 304 (2002), and those who were under the age of eighteen at the
time that they committed their crimes, Roper v. Simmons, 543 U.S. 551(2005).
However, Petitioner is not mentally retarded, and he was 36 years of age when he
committed the murders for which he received his death sentence, and no court has
concluded that one who has the demeanor of a minor and/or a mentally retarded
individual, but is in fact neither, is not eligible for the death penalty, and this Court is
not convinced by Petitioner’s arguments to arrive at such a holding.
99
AO 72A
(Rev.8/82)

Pet. App. 163

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 100 of 102

More devastating to Petitioner’s claim is the fact that the state habeas corpus
court found that the IQ test results produced by Petitioner’s expert witness were
unreliable, [Doc. 27-14 at 61], and Petitioner has not presented clear and convincing
evidence to refute this finding. The state court further credited Respondent’s expert’s
testimony that Petitioner’s intelligence was well above borderline. [Id. at 62-63]. As
a result, even if this Court were to agree that this claim is cognizable, Petitioner has no
evidentiary basis to establish that he suffers from significantly diminished intelligence.
This Court thus concludes that Petitioner is not entitled to relief on this claim.

T. Claim that Georgia’s Lethal Injection Protocol Subjects Petitioner to a High
Risk of an Eighth Amendment Violation
In his Claim V, Petitioner asserts that Georgia’s lethal injection protocols put
him at serious risk of being subjected to cruel and unusual punishment in violation of
the Eighth Amendment. However, claims raising challenges to lethal injection
procedures should be brought under 42 U.S.C. § 1983 rather than in a habeas corpus
proceeding. Tompkins v. Secretary, Dept. of Corrections, 557 F.3d 1257, 1261 (11th
Cir. 2009) (“A § 1983 lawsuit, not a habeas proceeding, is the proper way to challenge
lethal injection procedures.”). This is especially relevant in light of the welldocumented problems that states, including Georgia, have encountered obtaining the
100
AO 72A
(Rev.8/82)

Pet. App. 164

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 101 of 102

drugs necessary for lethal injections and the changes that Georgia has made in its lethal
injection protocol. See generally, Bill Rankin, et al., Death Penalty, Atl. J. Const., Feb.
17, 2014 at A1 (discussing the increasing reluctance of drug manufacturers and
compounding pharmacies to supply drugs for executions); DeYoung v. Owens, 646
F.3d 1319, 1323 (11th Cir. 2011). It is quite possible that Georgia’s protocols will
change between now and the time that Petitioner’s execution date is set, rendering
moot any ruling by this Court. This Court also points out that bringing this claim
under § 1983 would likely work to Petitioner’s substantial advantage because he will
be able to conduct discovery without leave of court, and he will be more likely to have
a hearing. Accordingly, Petitioner’s challenge to Georgia’s lethal injection protocol
will be denied without prejudice to his raising the claim in a § 1983 action.

U. Cumulative Error Analysis
Finally, Petitioner asserts that the cumulative effect of the unconstitutional
incidents at Petitioner’s capital trial served to deprive him of his right to a fair trial.
Cumulative error analysis addresses the possibility that “[t]he cumulative effect of two
or more individually harmless errors has the potential to prejudice a defendant to the
same extent as a single reversible error.” United States v. Rosario Fuentez, 231 F.3d
700, 709 (10th Cir. 2000). However, in order for a court to perform a cumulative error
101
AO 72A
(Rev.8/82)

Pet. App. 165

Case 1:14-cv-00285-WBH Document 66 Filed 11/09/17 Page 102 of 102

analysis, there first must be multiple errors to analyze, and this Court has not identified
such error. Accordingly, Petitioner is not entitled to relief with respect to this claim.

Conclusion
Having considered all of Petitioner’s claims, this Court concludes that Petitioner
has failed to establish any entitlement to relief under 28 U.S.C. § 2254. As such, his
petition for a writ of habeas corpus is DENIED (except that Petitioner’s claim
regarding Georgia’s lethal injection protocol is DENIED without prejudice to his
raising the claim in a proceeding under 42 U.S.C. § 1983). This matter is hereby
DISMISSED, and the Clerk is DIRECTED to CLOSE this action.
IT IS SO ORDERED, this 9th day of November, 2017.

102
AO 72A
(Rev.8/82)

Pet. App. 166

Pet. App. 167

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 1 of 72

Pet. App. 168

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 2 of 72

Pet. App. 169

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 3 of 72

Pet. App. 170

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 4 of 72

Pet. App. 171

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 5 of 72

Pet. App. 172

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 6 of 72

Pet. App. 173

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 7 of 72

Pet. App. 174

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 8 of 72

Pet. App. 175

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 9 of 72

Pet. App. 176

(
Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14
Page 10 of 72

Pet. App. 177

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 11 of 72

Pet. App. 178

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 12 of 72

Pet. App. 179

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 13 of 72

Pet. App. 180

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 14 of 72

Pet. App. 181

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 15 of 72

Pet. App. 182

(
Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14
Page 16 of 72

Pet. App. 183

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14
Page 17 of 72
I

Pet. App. 184

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 18 of 72

Pet. App. 185

(
Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14
Page 19 of 72

Pet. App. 186

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 20 of 72

Pet. App. 187

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 21 of 72

Pet. App. 188

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 22 of 72

Pet. App. 189

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 23 of 72

Pet. App. 190

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 24 of 72

Pet. App. 191

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 25 of 72

Pet. App. 192

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 26 of 72

Pet. App. 193

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 27 of 72

Pet. App. 194

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 28 of 72

Pet. App. 195

(
Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14
Page 29 of 72

Pet. App. 196

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 30 of 72

Pet. App. 197

(
Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14
Page 31 of 72

Pet. App. 198

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 32 of 72

Pet. App. 199

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 33 of 72

Pet. App. 200

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 34 of 72

Pet. App. 201

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 35 of 72

Pet. App. 202

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 36 of 72

Pet. App. 203

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 37 of 72

Pet. App. 204

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 38 of 72

Pet. App. 205

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 39 of 72

Pet. App. 206

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 40 of 72

Pet. App. 207

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 41 of 72

Pet. App. 208

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 42 of 72

Pet. App. 209

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 43 of 72

Pet. App. 210

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 44 of 72

Pet. App. 211

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 45 of 72

Pet. App. 212

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 46 of 72

Pet. App. 213

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 47 of 72

Pet. App. 214

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 48 of 72

Pet. App. 215

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 49 of 72

Pet. App. 216

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 50 of 72

Pet. App. 217

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 51 of 72

Pet. App. 218

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 52 of 72

Pet. App. 219

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 53 of 72

Pet. App. 220

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 54 of 72

Pet. App. 221

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 55 of 72

Pet. App. 222

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 56 of 72

Pet. App. 223

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 57 of 72

Pet. App. 224

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 58 of 72

Pet. App. 225

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 59 of 72

Pet. App. 226

I.

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 60 of 72
I

Pet. App. 227

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 61 of 72

Pet. App. 228

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 62 of 72

Pet. App. 229

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 63 of 72

Pet. App. 230

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 64 of 72

Pet. App. 231

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 65 of 72

Pet. App. 232

(
Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14
Page 66 of 72

Pet. App. 233

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 67 of 72

Pet. App. 234

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 68 of 72

Pet. App. 235

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 69 of 72

Pet. App. 236

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 70 of 72

Pet. App. 237

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 71 of 72

Pet. App. 238

Case 1:14-cv-00285-AT Document 27-14 Filed 04/04/14 Page 72 of 72

Pet. App. 239

593 S.E.2d 335
277 Ga. 617, 593 S.E.2d 335, 04 FCDR 769
(Cite as: 277 Ga. 617, 593 S.E.2d 335)

Page 1

West Headnotes
Sealey v. State
Ga.,2004.

[1] Homicide 203

Supreme Court of Georgia.
SEALEY
v.
The STATE.
No. S03P1479.
March 1, 2004.
Background: Defendant was convicted in the
Superior Court, Clayton County, Matthew O. Simmons, J., of capital murder and other offenses. Defendant appealed.
Holdings: The Supreme Court, Thompson , J.,
held that:
(1) evidence was sufficient to support convictions;
(2) defendant was not deprived of properly
qualified grand jury;
(3) entire office of district attorney was not disqualified due to prior representation of defendant
by assistant district attorney in unrelated matter;
(4) order limiting scope of questions during
void dire was not abuse of discretion;
(5) order excusing prospective jurors based on
hardship was not abuse of discretion;
(6) evidence that aunt of victims' granddaughter had stipulated to admission of her polygraph examination in any prosecution against her was not
relevant to admissibility in defendant's trial; and
(7) evidence that defendant had previously
used another man's credit card after killing him was
sufficiently reliable to be admissible in sentencing.
Affirmed.

1139

203 Homicide
203IX Evidence
203IX(G) Weight and Sufficiency
203k1138 First Degree, Capital, or Aggravated Murder
203k1139 k. In General. Most Cited
Cases
Evidence was sufficient to support convictions for
capital murder; witness saw first victim lying in
pool of blood and defendant holding second victim
down and wielding handgun, defendant ordered
witness to search for money, defendant instructed
another to find hammer to kill victims and used ax
to kill victims when hammer could not be located,
and defendant later told witnesses that he “had to
do it” because victims had seen their faces and that
victims deserved to die.
[2] Grand Jury 193

2

193 Grand Jury
193k2 k. Constitutional and Statutory Provisions. Most Cited Cases
Statutory directive that grand jurors be selected
from “most experienced, intelligent, and upright
citizens of community” did not impermissibly exclude persons who did not have high school diploma. West's Ga.Code Ann. § 15-12-40(a)(1) .
[3] Grand Jury 193

2

193 Grand Jury
193k2 k. Constitutional and Statutory Provisions. Most Cited Cases
Unlike constitutional requirements, the statutory
procedures for creating the grand jury list are
merely directory, and do not create a basis for sustaining challenges to the array. West's Ga.Code
Ann. § 15-12-40 .
[4] Grand Jury 193

Pet. App. 240

2.5

593 S.E.2d 335
277 Ga. 617, 593 S.E.2d 335, 04 FCDR 769
(Cite as: 277 Ga. 617, 593 S.E.2d 335)

Page 2

193 Grand Jury
193k2.5 k. Constitution in General; Representation of Community. Most Cited Cases
Grand jury source list did not unlawfully underrepresent Hispanic persons, absent any evidence
that Hispanic persons constituted cognizable group
in county or of degree of alleged underrepresentation.
[5] Criminal Law 110

1166(2)

110 Criminal Law
110XXIV Review
110XXIV(Q) Harmless and Reversible Error
110k1166 Preliminary Proceedings
110k1166(2) k. Organization and Proceedings of Grand Jury. Most Cited Cases
Criminal Law 110

1166.16

110 Criminal Law
110XXIV Review
110XXIV(Q) Harmless and Reversible Error
110k1166.5 Conduct of Trial in General
110k1166.16 k. Impaneling Jury in
General. Most Cited Cases
Grand Jury 193

2.5

193 Grand Jury
193k2.5 k. Constitution in General; Representation of Community. Most Cited Cases
Jury 230

110 Criminal Law
110XX Trial
110XX(B) Course and Conduct of Trial in
General
110k638 Counsel for Prosecution
110k639.1 k. Eligibility of Prosecuting
Attorney. Most Cited Cases
Entire office of district attorney was not disqualified from prosecuting defendant in trial for capital
murder based on claim that one assistant district attorney had previously represented defendant in prior, unrelated criminal cases; attorney was properly
screened from any direct or indirect participation in
instant trial.
[7] Jury 230

131(13)

230 Jury
230V Competency of Jurors, Challenges, and
Objections
230k124 Challenges for Cause
230k131 Examination of Juror
230k131(13) k. Mode of Examination.
Most Cited Cases
Order limiting questions during voir dire regarding
jurors' understanding of legal terms and questions
appearing to seek prejudgment of case was not abuse of discretion, in trial for capital murder; review
of questions and responses during voir dire as
whole indicated jurors' willingness to consider all
possible sentencing options and that they were
qualified to serve.

62(3)
[8] Jury 230

230 Jury
230IV Summoning, Attendance, Discharge, and
Compensation
230k60 Jury List
230k62 Procurement and Selection of
Names
230k62(3) k. Mode of Procedure. Most
Cited Cases
There is no reversible error arising out of the jury
commission's reliance on the most recently available census in creating its source lists.
[6] Criminal Law 110

639.1

131(13)

230 Jury
230V Competency of Jurors, Challenges, and
Objections
230k124 Challenges for Cause
230k131 Examination of Juror
230k131(13) k. Mode of Examination.
Most Cited Cases
Defendant was not entitled to pose questions to prospective jurors during voir dire that were unrelated
to possible juror bias and which attempted to elicit
speculative responses about how they might conduct themselves during deliberations, in trial for

Pet. App. 241

593 S.E.2d 335
277 Ga. 617, 593 S.E.2d 335, 04 FCDR 769
(Cite as: 277 Ga. 617, 593 S.E.2d 335)

Page 3

capital murder.
[9] Criminal Law 110

1130(5)

110 Criminal Law
110XXIV Review
110XXIV(I) Briefs
110k1130 In General
110k1130(5) k. Points and Authorities.
Most Cited Cases
Defendant waived challenge on direct appeal that
he was deprived of qualified jury panel, in trial for
capital murder, to extent he failed to identify challenged jurors or to provide relevant citation to record. Sup.Ct.Rules, Rule 22.
[10] Jury 230

135

230 Jury
230V Competency of Jurors, Challenges, and
Objections
230k134 Peremptory Challenges
230k135 k. In General. Most Cited Cases
A defendant is entitled to a full panel of qualified
jurors from which the jury will be selected by the
use of peremptory strikes.
[11] Jury 230

75(2)

230 Jury
230IV Summoning, Attendance, Discharge, and
Compensation
230k75 Excusing and Discharging Jurors
from Attendance
230k75(2) k. Discretion of Court. Most
Cited Cases
Trial court did not abuse its discretion in excusing
prospective jurors for cause based on hardship, in
trial for capital murder. West's Ga.Code Ann. §
15-12-1(a) (2, 3).
[12] Criminal Law 110

388.5(3)

110 Criminal Law
110XVII Evidence
110XVII(I) Competency in General
110k388 Experiments and Tests; Scientific and Survey Evidence

110k388.5 Lie Detector or Polygraph
Tests and Procedures
110k388.5(2) Stipulations or
Agreements
110k388.5(3) k. In General.
Most Cited Cases
That aunt of murder victims' granddaughter entered
into stipulation with State concerning admissibility
of polygraph examination administered to her in
any potential proceedings against her was not relevant to admissibility of polygraph results in defendant's trial for capital murder.
[13] Criminal Law 110

620(6)

110 Criminal Law
110XX Trial
110XX(A) Preliminary Proceedings
110k620 Joint or Separate Trial of Separate Charges
110k620(3) Severance, Relief from
Joinder, and Separate Trial in General
110k620(6) k. Particular Cases.
Most Cited Cases
Trial court did not err in refusing to bifurcate the
possession of a firearm by a convicted felon charge
from the remaining charges for murder, felony
murder, and other crimes; it was possible that the
jury would convict defendant of felony murder with
the possession crime serving as the underlying
felony.
[14] Sentencing and Punishment 350H

1762

350H Sentencing and Punishment
350HVIII The Death Penalty
350HVIII(G) Proceedings
350HVIII(G)2 Evidence
350Hk1755 Admissibility
350Hk1762 k. Other Offenses,
Charges, or Misconduct. Most Cited Cases
Evidence that defendant had previously used another man's credit card shortly after killing the man
was sufficiently reliable to be admissible in sentencing for instant capital murder.
[15] Sentencing and Punishment 350H

Pet. App. 242

1760

593 S.E.2d 335
277 Ga. 617, 593 S.E.2d 335, 04 FCDR 769
(Cite as: 277 Ga. 617, 593 S.E.2d 335)

Page 4

350H Sentencing and Punishment
350HVIII The Death Penalty
350HVIII(G) Proceedings
350HVIII(G)2 Evidence
350Hk1755 Admissibility
350Hk1760 k. Defendant's Character and Conduct. Most Cited Cases
Sentencing and Punishment 350H

convictions and sentences.

FN1. The crimes occurred on January 23,
2000. Sealey was indicted by a Clayton
County grand jury on February 7, 2001, on
two counts of malice murder, fourteen
counts of felony murder, two counts of
possession of a firearm during the commission of a crime, and one count of possession of a firearm by a convicted felon. The
State filed written notice of its intent to
seek the death penalty on February 8,
2001. The trial began on August 12, 2002,
the jury convicted Sealey on all counts on
August 23, 2002, and the jury recommended a death sentence for the murders on
August 27, 2002. The trial court imposed
death sentences for the two malice
murders and imposed three five-year prison terms to run consecutively to the death
sentences and concurrently with each other for the two counts of possession of a
firearm during the commission of a crime
and the one count of possession of a firearm by a convicted felon. The trial court
properly imposed no sentences on the
felony murder convictions, which are vacated as a matter of law. Malcolm v. State,
263 Ga. 369, 371-372(4), 434 S.E.2d 479
(1993). Sealey filed a motion for new trial
on September 24, 2002, which was denied
in an order filed on May 1, 2003. Sealey
filed a timely notice of appeal on May 6,
2003, this case was docketed in this Court
on June 23, 2003, and the case was orally
argued on October 20, 2003.

1762

350H Sentencing and Punishment
350HVIII The Death Penalty
350HVIII(G) Proceedings
350HVIII(G)2 Evidence
350Hk1755 Admissibility
350Hk1762 k. Other Offenses,
Charges, or Misconduct. Most Cited Cases
Reliable evidence of bad character and of past
crimes is admissible in the sentencing phase of a
death penalty trial.
**336*622 John A. Beall, IV, Jonesboro, for appellant.
Robert E. Keller, Dist. Atty., Todd E. Naugle, Asst.
Dist. Atty., Thurbert E. Baker, Atty. Gen., Sabrina
D. Graham, Asst. Atty. Gen., for appellee.
*617 THOMPSON, Justice.
A jury found Richard Lester Sealey guilty of
the malice murders of John and Fannie Mae Tubner
and 17 related crimes. The jury recommended a
death sentence for the murders, after finding beyond a reasonable doubt that the murders were both
outrageously or wantonly vile, horrible, or inhuman
in that they involved the torture of the victims, depravity of mind, and the aggravated battery of the
victims, that the murders were both committed for
the purpose of receiving money or any other thing
of monetary value, that the murder of Mr. Tubner
was committed while Sealey was engaged in the
capital felonies of armed robbery and aggravated
battery, and that the murder of Ms. Tubner was
committed while Sealey was **337 engaged in the
capital felonies of armed robbery, aggravated battery, and kidnapping with bodily injury. See OCGA
§ 17-10-30(b)(2), (4), and (7). The trial court sentenced Sealey to death and terms of imprisonment.
For the reasons set forth below, we affirm Sealey's

FN1

[1] 1. The evidence at the guilt/innocence
phase, construed in the light most favorable to the
jury's verdict, showed the following. Sealey contacted his friend Gregory Fahie by telephone asking
for a ride. Fahie asked his friend, Wajaka Battiste,
to drive to Sealey's motel and then to drive Fahie
and Fahie's juvenile girlfriend, Deandrea *618
Carter, to Carter's grandparents' house. Upon arriving at Carter's grandparents' house, Sealey, Carter,
and Fahie went inside, while Battiste waited in the

Pet. App. 243

593 S.E.2d 335
277 Ga. 617, 593 S.E.2d 335, 04 FCDR 769
(Cite as: 277 Ga. 617, 593 S.E.2d 335)

Page 5

car listening to music. While he was in a downstairs
bathroom, Fahie first heard a loud noise and then
heard Carter knocking on the bathroom door and
stating that Sealey was “tripping.” Fahie exited the
bathroom and observed Mr. Tubner lying in a pool
of blood and Sealey holding Ms. Tubner down and
wielding a handgun he had taken from Mr. Tubner.
Sealey dragged Ms. Tubner, who had been bound
with duct tape, to an upstairs bedroom. Sealey instructed Fahie to search for money, however, when
no money was discovered, Sealey instructed Carter
to heat a fireplace poker with which Sealey tortured
Ms. Tubner in an effort to force her to reveal where
she kept her money. Sealey then instructed Carter
to find a hammer so he could kill the victims.
Carter returned with an ax. Sealey struck Ms. Tubner multiple times in the head with the ax and then
went downstairs and did the same to Mr. Tubner,
who had crawled a short distance across the living
room. Once back in Battiste's automobile, Sealey
stated that he “had to do it” because the victims had
seen their faces and further stated that the victims
deserved to die because they had mistreated
Carter's mother in the past. Sealey instructed Battiste never to reveal that he had seen Sealey and
then added, “I will out your lights.”
The evidence presented in the guilt/innocence
phase included the testimony of Fahie and Battiste,
Mr. Tubner's handgun and jewelry that had been
discovered in Sealey's motel room, and testimony
about the detection of protein residue consistent
with blood on the floor and sink of Sealey's motel
bathroom. Upon our review of the entire record, we
conclude that the evidence presented in the guilt/
innocence phase was sufficient to authorize rational
jurors to conclude beyond a reasonable doubt that
Sealey was guilty on all counts. Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560
(1979).
Pre-Trial
[2][3] 2. Sealey contends that his indictment
was invalid under Georgia statutory law because
the jury commissioners excluded some persons

from grand jury service based on their levels of
education in an attempt to comply with the statutory directive that grand jurors be selected from
“the most experienced, intelligent, and upright citizens of the county.” OCGA § 15-12-40(a)(1). Contrary to Sealey's statement in his oral argument that
the jury commissioners required a high school education for grand jury service, our review of the record reveals that Sealey failed to present evidence
clearly showing what educational requirement was
**338 applied. In fact, the testimony actually elicited indicated nothing more specific than that the
commissioners *619 had required prospective
grand jurors to “have a third-grade education or
something.” The testimony also indicated that each
prospective grand juror removed as a candidate for
the grand jury source list was replaced with a candidate from the same race and sex categories. Under the facts in evidence in this case, we decline to
depart from our previous position that, unlike constitutional requirements, “ ‘the statutory procedures
for creating the [grand jury] list are merely directory,’ and do not create a basis for sustaining challenges to the array.” (Emphasis supplied.) Frazier
v. State, 257 Ga. 690, 691(2), 362 S.E.2d 351
(1987) (quoting Dillard v. State, 177 Ga.App. 805,
807, 341 S.E.2d 310 (1986)).
[4][5] 3. Sealey further contends that the source
lists from which his grand and traverse juries were
drawn unlawfully under-represented Hispanic persons. This claim must fail on appeal, as Sealey
failed to present evidence showing Hispanic persons constituted a cognizable group in the county or
any evidence establishing either the existence of actual under-representation or the degree thereof.
Ramirez v. State, 276 Ga. 158, 159-162(1), (2), 575
S.E.2d 462 (2003). There is also no reversible error
arising out of the jury commission's reliance on the
most recently available census in creating its source
lists as the Unified Appeal Procedure directs. Id. at
160-162(1)(b, c), 575 S.E.2d 462; Smith v. State,
275 Ga. 715, 719(3), 571 S.E.2d 740 (2002);
U.A.P. II(C)(6).
[6] 4. Sealey argues that the entire office of the
district attorney should have been disqualified be-

Pet. App. 244

593 S.E.2d 335
277 Ga. 617, 593 S.E.2d 335, 04 FCDR 769
(Cite as: 277 Ga. 617, 593 S.E.2d 335)

Page 6

cause one assistant district attorney, while previously in private practice, had represented Sealey in
two unrelated criminal cases. Because the record
confirms that the assistant district attorney was
properly “screened from any direct or indirect participation” in Sealey's prosecution in this case, the
trial court did not err in allowing other members of
the district attorney's office to continue in the case.
Frazier, 257 Ga. at 693-694(9), 362 S.E.2d 351.
Jury Selection
[7] 5. Upon our review of juror Delgado's entire voir dire, we conclude that the trial court did
not abuse its discretion by limiting questions regarding legal terms and questions appearing to seek
a prejudgment of the case. Sallie v. State, 276 Ga.
506, 509-510(3), 578 S.E.2d 444 (2003). The juror's responses sufficiently indicate the juror's willingness to consider all three possible sentences
upon a conviction for murder when those responses
are read in the light of the trial court's initial instructions and of the entirety of the questioning of
the juror by the trial court and the parties. See
Rhode v. State, 274 Ga. 377, 380(6), 552 S.E.2d
855 (2001); Zellmer v. State, 272 Ga. 735, 534
S.E.2d 802 (2000). Likewise, the trial court did not
abuse its discretion in limiting inquiries into juror
McGee's and juror *620 Eppstaedt's knowledge of
legal terms and procedures when other forms of
questioning clearly showed the jurors to be qualified. Sallie, 276 Ga. at 509-510(3), 578 S.E.2d 444.
[8] 6. The trial court did not abuse its discretion in disallowing questions to jurors Martinez and
Chambers that were unrelated to possible juror bias
and that attempted to elicit speculative responses
from the jurors about how they might conduct
themselves in jury deliberations. Id.
[9][10] 7. A defendant is entitled to a full panel
of qualified jurors from which the jury will be selected by the use of peremptory strikes. Lance v.
State, 275 Ga. 11, 15(8), 560 S.E.2d 663 (2002);
Lively v. State, 262 Ga. 510, 512(2), 421 S.E.2d
528 (1992). However, Sealey's claim that he was
denied such a fully qualified panel, to the extent

that claim is intended to address jurors other than
those discussed above, has been abandoned by his
failure to name those other jurors or to provide relevant citation to the record. Supreme Court Rule
22.
[11] 8. Sealey contends that the trial court erred
by excusing jurors Trousdale, Adams, Barretto,
Wyatt, Neal, Harris, Mosley, and Seise for reasons
of personal hardship. Upon our review of the record, we conclude that the trial court did not abuse
its **339 discretion, which it possessed in addition
to its statutory duty to grant excusals under certain
circumstances, in excusing those jurors. Gulley v.
State, 271 Ga. 337, 344(7), 519 S.E.2d 655 (1999);
see OCGA § 15-12-1(a) (2, 3); but see Holsey v.
State, 271 Ga. 856, 858-859(2), 524 S.E.2d 473
(1999) (decided prior to amendment adding sections (a)(2) and (a)(3) to OCGA § 15-12-1).
9. Our review of the record does not support
Sealey's contention that the trial court conducted
voir dire in a biased manner. See King v. State, 273
Ga. 258, 267(21), 539 S.E.2d 783 (2000); Ledford
v. State, 264 Ga. 60, 64(6)(c), 439 S.E.2d 917
(1994).
Guilt/Innocence Phase
[12] 10. The trial court did not err in excluding
evidence regarding a polygraph examination administered to Sherrie Tubner, Carter's aunt. The
fact that Ms. Tubner entered into a stipulation with
the State as to the admissibility of the results of her
polygraph examination in any proceeding against
her is irrelevant to the admissibility of those results
in Sealey's trial, and Sealey had no similar stipulation with the State of his own regarding those results. Rucker v. State, 272 Ga. 750, 751-752(1), 534
S.E.2d 71 (2000); Walker v. State, 264 Ga. 79,
80(2), 440 S.E.2d 637 (1994).
[13] 11. The trial court did not err in refusing
to bifurcate the possession of a firearm by a convicted felon charge from the remaining charges, because it was possible that the jury would, as they
ultimately*621 did, convict Sealey of felony

Pet. App. 245

593 S.E.2d 335
277 Ga. 617, 593 S.E.2d 335, 04 FCDR 769
(Cite as: 277 Ga. 617, 593 S.E.2d 335)

Page 7

murder with the possession crime serving as the underlying felony. Jones v. State, 265 Ga. 138,
138-141(2), 454 S.E.2d 482 (1995).
Sentencing Phase

ment as compared to the penalty imposed in similar
cases. OCGA § 17-10-35(c)(3). The cases appearing in the Appendix support this conclusion in that
each involved a multiple murder.
Judgment affirmed.

[14][15] 12. The trial court did not err in admitting evidence in the sentencing phase showing
that Sealey had illegally used a man's credit card
shortly after the man's murder. “[R]eliable evidence
of bad character and of past crimes is admissible in
the sentencing phase of a death penalty trial.” Braley v. State, 276 Ga. 47, 54(34), 572 S.E.2d 583
(2002); Wilson v. State, 271 Ga. 811, 822-823(20),
525 S.E.2d 339 (1999). The evidence of Sealey's illegal use of the man's credit card was clearly reliable, and we conclude from our review of the record that the connection between Sealey and the
man's murder was sufficiently reliable to allow
evidence of the murder to be presented to the jury.
Furthermore, although the charge was erroneous,
we also note that the jury was charged that it was
not permitted to consider non-statutory aggravating
circumstances unless they were first proven beyond
a reasonable doubt. See Wilson, 271 Ga. at 822(20),
525 S.E.2d 339.

All the Justices concur.
APPENDIX
Arevalo v. State, 275 Ga. 392, 567 S.E.2d 303
(2002); Raheem v. State, 275 Ga. 87, 560 S.E.2d
680 (2002); Lucas v. State, 274 Ga. 640, 555 S.E.2d
440 (2001); Rhode v. State, 274 Ga. 377, 552
S.E.2d 855 (2001); Colwell v. State, 273 Ga. 634,
544 S.E.2d 120 (2001); Heidler v. State, 273 Ga.
54, 537 S.E.2d 44 (2000); Morrow v. State, 272 Ga.
691, 532 S.E.2d 78 (2000); Pace v. State, 271 Ga.
829, 524 S.E.2d 490 (1999); **340Palmer v. State,
271 Ga. 234, 517 S.E.2d 502 (1999); Cook v. State,
270 Ga. 820, 514 S.E.2d 657 (1999); Jenkins v.
State, 269 Ga. 282, 498 S.E.2d 502 (1998);
DeYoung v. State, 268 Ga. 780, 493 S.E.2d 157
(1997); Raulerson v. State, 268 Ga. 623, 491 S.E.2d
791 (1997); McMichen v. State, 265 Ga. 598, 458
S.E.2d 833 (1995); Stripling v. State, 261 Ga. 1,
401 S.E.2d 500 (1991); Isaacs v. State, 259 Ga.
717, 386 S.E.2d 316 (1989).

Sentence Review
13. The evidence presented at trial was sufficient to authorize a rational trier of fact to find beyond a reasonable doubt the existence of the statutory aggravating circumstances in this case.
OCGA § 17-10-35(c)(2); Jackson, 443 U.S. 307, 99
S.Ct. 2781, 61 L.Ed.2d 560.

Ga.,2004.
Sealey v. State
277 Ga. 617, 593 S.E.2d 335, 04 FCDR 769
END OF DOCUMENT

14. Upon our review of the record, we conclude that the sentences of death in this case were
not imposed under the influence of passion, prejudice, or any other arbitrary factor. OCGA §
17-10-35(c)(1).
15. Considering both the defendant and the
clearly egregious facts of this torture and double
murder case, we conclude that Sealey's death sentences are not excessive or disproportionate punish-

Pet. App. 246

